COMMODITY FUTURES TRADING COMMISSION




       Performance and
   Accountability Report
       F i s c a l   Y e a r   2 0 0 7
COMMODITY FUTURES
TRADING COMMISSION

Walter L. Lukken
Acting Chairman

Madge Bolinger Gazzola
Executive Director

Mark Carney
Chief Financial Officer

November 2007

This report is in the public domain. Authorization to reproduce it in whole or in part is granted.
While permission to reprint this publication is not necessary, the citation should be:
Commodity Futures Trading Commission, FY 2007 Performance and Accountability Report, Washington, D.C., 20581.

All photographs in this document are proprietary and prior permission from the
photographer is required for any use or reproduction of the photographs.
  COMMODITY FUTURES TRADING COMMISSION




         Association of Government Accountants (AGA)
                          Awards the


    Certificate of Excellence in
     Accountability Reporting

    “In recognition of your outstanding efforts in preparing the
    Commodity Futures Trading Commission Performance and
Accountability Report for the fiscal year ended September 30, 2006”
      Fiscal Year 2007 Commissioners




            Back row from left; Jill E. Sommers, Commissioner; Bart Chilton, Commissioner

            Front row from left; Michael V. Dunn, Commissioner; Walter L. Lukken, Acting Chairman




II   CFTC
                                                  Table of Contents
	   FY 2007 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . II

	   A Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	   CFTC History at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

	   How This Report is Organized .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6


M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
	   Commission at a Glance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

	   Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20

	   Financial Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

	   Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

	   Forward Looking — Future Business Trends and Events .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36

	   Inspector General’s FY 2007 Assessment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39


PERFORMANCE SECTION
	   Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

	   Strategic Goal One: Economic Utility .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44

	   Strategic Goal Two: Market User and Public.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

	   Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77


FINANCIAL SECTION
	   A Message from the Chief Financial Officer.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 105

	   Limitations of Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 106

	   Principal Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 108

	   Notes to the Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 112

	   Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 123


O T H E R A C C O M P A N Y I N G I N F O R M AT I O N
	   Management Challenges.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 133

	   Summary of Audit and Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 135


APPENDIX
	   FY 2007 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 137

	   Enforcement Litigation by Strategic Goals.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 140

	   CFTC Information Technology Systems .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 153

	   Glossary of Abbreviations and Acronyms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 154

	
   In the Tradition of Quality Reporting,

the Commodity Futures Trading Commission

       Proudly Presents the FY 2007

  Performance and Accountability Report
              A Message from the Chairman

I
    am pleased to present this Performance and Account-             taking action against energy companies in response to alle-
    ability Report, which chronicles our mission accom-             gations of manipulation; actively addressing how to best
    plishments over Fiscal Year (FY) 2007.                          detect and prevent abusive behavior in our markets; and
                                                                    working internationally to engage our regulatory counter-
In recent years, commodity futures and options have grown           parts to share information and coordinate market over-
to be trillion dollar markets, with massive economic force,         sight.
having grown faster than almost any other asset class. These
markets are expanding steadily in both volume and new               We also worked very hard in the area of accountability
users and their complexity is rapidly evolving with new             during the past fiscal year. I am pleased to report that in
technologies, globalization, product innovation, and                FY 2007, the CFTC had no material weaknesses to declare.
greater competition. The Commodity Futures Trading                  Our auditor, the public accounting firm, KPMG LLP, on
Commission      (CFTC     or   Commission)       oversees    the    behalf of our Inspector General, was able to affirm that the
commodity futures and option markets in the United                  financial statements, included in this report, were presented
States. These markets are the key source of commodity price         fairly, in all material respects, and in conformity with U.S.
discovery and are used as a tool by participants in the global      generally accepted accounting principles (GAAP). Further-
economy to offset price risk. Although how the CFTC                 more, we are pleased to confirm that the financial and
operates has dramatically evolved along with these dynamic          performance data presented in this report are fundamen-
markets, our mission is the same today as it was at our             tally reliable and complete. You can read about the opera-
inception in 1974: We protect market users and the public from      tion of our internal controls in the Financial Section of this
fraud, manipulation, and abusive practices related to the sale of   report, which also highlights key management assurances.
commodity and financial futures and options, and foster open,
competitive, and financially sound futures and option markets.      We hope you will join us in applauding the important
                                                                    contributions made daily by the dedicated staff of the
During the last year, the Commission focused its resources          Commission.
on accomplishing its mission across three strategic goals,
each focusing on a vital area of regulatory responsibility.
The goals are: to ensure the economic vitality of the
commodity futures and option markets; to protect market                                 Walter Lukken
users and the public; and to ensure market integrity in                                 Acting Chairman
order to foster open, competitive, and financially sound
markets. Key undertakings by the Commission included:                                   November 15, 2007




                                                                                                                  CFTC          
                           C     o m m o d i t y                                  F     u t u r e s                         T      r a d i n g

       Significant Dates in CFTC History — 1970s                          January 21, 1980—COMEX orders trading for liquidation only
                                                                          in its silver futures contract.
October 23-24, 1974—Congress passes the Commodity                         September 8, 1981—The CFTC adopts a comprehensive set
Futures Trading Commission Act of 1974, and it is signed by               of regulations to govern exchange-trading of options on futures
President Gerald Ford. The bill overhauls the CEA and creates             contracts under a controlled and monitored three-year pilot program.
the CFTC, an independent agency with exclusive jurisdiction over
futures.                                                                  September 22, 1981—The CFTC grants registration to the
                                                                          NFA as a self-regulatory futures association and approves its
April 21, 1975—Authority for the regulation of futures trading is
                                                                          articles, bylaws, and rules. NFA begins to hire staff and commences
transferred from the Commodity Exchange Authority, an agency in
                                                                          operations on October 1, 1982.
the USDA, to the CFTC.
                                                                          December 7, 1981—The CFTC and the SEC jointly announce
                                 September 11, 1975—
                                                                          a basic jurisdictional agreement on the regulatory responsibility of
                                 The CFTC approves the first
                                                                          each agency for a variety of financial instruments, in particular stock
                                  futures contract on a financial
                                                                          index futures. This agreement was known as the Shad-Johnson
                                   instrument—the CBOT
                                                                          Accord and later became part of the CEA.
                                    Government National Mortgage
                                     Association (Ginnie Mae)             February 16, 1982—The CFTC approves the first futures
                                     certificates futures contract.       contract based on a stock index, the Value Line Index Average
                                                                          traded on the KCBT.
                                        April 28, 1977—The CFTC
                                        asks the U.S. District Court      January 11, 1983—President Reagan signs the Futures Trading
                                         in Chicago to order seven        Act of 1982, renewing the CFTC’s mandate to regulate futures
                                          members of the Hunt family      trading for four more years and clarifying Commission jurisdiction in
                                           of Dallas, and a related       a number of areas. Among other things, this act codified the Shad-
                                           company, to liquidate          Johnson Accord (which gave the CFTC jurisdiction over broad-based
                                           positions that exceed the      stock index futures and banned single-stock and narrow-based
                              three million bushel speculative position   stock index futures), and required the CFTC to act on new contract
                             limit for soybean futures on the CBOT.       proposals and rule amendments within specified time periods.
                             June 1, 1978—The CFTC suspends               August 29, 1984—The CFTC approves amendments to CME
                            most commodity options transactions in        rules that allow it to establish a trading link with the Singapore
                            the U.S. because of pervasive fraud in        International Monetary Exchange, the first trading and clearing
                            so-called “London options” and dealer         link between a domestic and a foreign exchange.
                            options on physical commodities.
                                                                          September 28, 1984—The CFTC submits “A Study of
                           March 16, 1979—In an emergency                 the Nature, Extent and Effects of Futures Trading by Persons
                           action, the CFTC votes to prohibit further     Possessing Material, Nonpublic Information” to its
                           trading in the CBOT March wheat futures        Congressional oversight committees.
                          contract, the first time the Commission
                          orders a market closed in the interest          February 28, 1985—The CFTC
                          of preventing a price manipulation.             concludes its silver investigation, alleging
                                                                          that Nelson Bunker Hunt, William
September 12, 1979—The Court of Appeals for the Seventh                   Herbert Hunt, and other individuals and
Circuit affirms the CFTC’s authority to act during market                 firms manipulated and attempted to
emergencies.                                                              manipulate silver prices in 1979 and
                                                                          1980.

       Significant Dates in CFTC History — 1980s                          March 20, 1985—Volume
                                                                          Investors, Inc., a clearing member at
January 6, 1980—In an emergency action, the CFTC orders the               COMEX, defaults on a margin call on
suspension of futures trading for two days for wheat, corn, oats,         options on gold futures. The funds of
soybean meal, and soybean oil on four exchanges after President           100 customers, mostly local traders,
Carter announces an embargo on the sale of certain agricultural           are affected by the default. This
goods to the Soviet Union that includes substantial amounts of grain.     default causes the Commission to



                            APPROPRIATION AND EMPLOYMENT HISTORY FY 1975-1985
FY 1975     FY 1976      FY 1977      FY 1978       FY 1979       FY 1980      FY 1981       FY 1982       FY 1983       FY 1984     FY 1985
  502         533          495          474           482           465          485           484           493           500         520
   $7         $10          $13          $13           $15           $16          $18           $20           $23           $26         $27

                            LEGEND:      Actual FTE              Approved Appropriation (in millions)



         CFTC
C   o m m i s s i o n                                  H       i s t o r y                        A      t         A G           l a n c e

                                                                                            Significant Dates in CFTC History — 1990s

                                                                                    November 1991—The CFTC and the SEC concurrently approve
                                                                                    proposed rule changes by the OCC and the CME intended to
                                                                                    improve coordination in the clearance and settlement of futures
                                                                                    and options. The rule changes expand the existing cross-margining
                                                                                    programs between the OCC and CME to permit clearing members
                                                                                    to include intermarket futures and option positions held in certain
                                                                                    non-proprietary accounts.

                                                                                    October 28, 1992—President Bush signs the CFTC’s
                                                                                    reauthorization legislation, The Futures Trading Practices Act of 1992
                                                                                    (FTPA), expanding the CFTC’s regulatory authority and reauthorizing
                                                                                    the agency until October 1994. The FTPA, among other things,
                                                                                    granted the Commission the authority to OTC derivative and other
                                                                                    transactions for CFTC regulation and provided for registration of
                                                                                    local traders.
                                    consider numerous changes to its rules.         March 1993—Futures trading in New York is disrupted and
                                     Ultimately, improved surveillance, early       the CFTC’s New York office is temporarily relocated due to the
                                     warning, and margining procedures are          explosion of a bomb placed by terrorists in the basement of the
                                      developed.                                    World Trade Center.
                            September 23, 1986—CFTC, SEC, and                       April 9, 1993—The CFTC
            the U.K. Department of Trade and Industry announce the signing          adopts rules requiring the
       of an MOU, which will enhance cooperation and mutual assistance              registration of FBs and
       in securing compliance with and enforcement of securities and                ethics training for all individual
       commodities laws in both countries.                                          registrants, as mandated by
       October 19, 1987—Biggest one-day price plunge in stock                       the FTPA. The Commission
       market history. No Commission-regulated systems fail, no firms               also adopts rules permitting
       default on obligations.                                                      the suspension of registrants
                                                                                    charged with felonies under
       May 16, 1988—The President’s Working Group (PWG) on                          authority granted by the FTPA.
       Financial Markets, composed of CFTC, SEC, Treasury, and the
       Federal Reserve Board, presents its report on the October 1987               January 10, 1994—The CFTC
       stock market break to President Reagan.                                      files an administrative complaint
                                                                                    against two former CBOT
       October 18, 1988—The CFTC approves proposals to amend                        members, Anthony Catalfo, and
       daily price limits and trading halt provisions for stock index futures       Darrell Zimmerman, alleging that the
       and option contracts traded on CME, CBOT, KCBT, and NYFE.                    respondents engaged in a scheme to
       These proposals were based on recommendations by the PWG.                    manipulate Treasury bond futures and put options on the CBOT.

       January 20, 1989—The news media report the disclosure of                     June 28, 1994—The CFTC approves final rules permitting
       a two-year undercover investigation of the Chicago trading pits              registrants to provide to customers a “generic” risk disclosure
       conducted by the FBI in cooperation with CFTC and DOJ. The CFTC              statement that will satisfy risk disclosure requirements applicable
       takes a number of market integrity actions in the following months.          to both domestic and foreign commodity futures and options
                                                                                    transactions.
       February 2, 1989—The CFTC unanimously approves rules
       proposed by CME for the basic Globex system, the first international         December, 1994—CFTC, in coordination with the SEC, files and
       electronic trading system. Trading begins in June 1992.                      simultaneously settles, for a fine of $10 million, an administrative
                                                                                    complaint against BT Securities, a subsidiary of Bankers Trust.
       July 11, 1989—The CBOT institutes an emergency action                        The Commission’s complaint alleges that BT Securities committed
       concerning the July 1989 CBOT soybean futures contract. CBOT                 fraud in its OTC derivatives transactions with Gibson Greetings.
       requires all large traders to reduce their positions prior to the
       expiration of the July contract. The contract expires in an                                                                 Continued on next page
       orderly manner.



                                         APPROPRIATION AND EMPLOYMENT HISTORY FY 1986-1996
          FY 1986       FY 1987       FY 1988       FY 1989      FY 1990        FY 1991       FY 1992        FY 1993     FY 1994     FY 1995       FY 1996
            489           497           510           535          527            551           592            568         543         542           541
            $28           $30           $33           $35          $39            $44           $47            $47         $47         $49           $54

                                         LEGEND:      Actual FTE                Approved Appropriation (in millions)



                                                                                                                                         CFTC             
                           C      o m m o d i t y                                   F     u t u r e s                           T     r a d i n g

Continued from previous page                                                May 7, 1998—The CFTC approves the CBOT’s new corn
                                                                            and soybean futures contracts with delivery specifications that
February 29, 1996—The CFTC’s Division of Trading & Markets                  supersede those ordered by the CFTC on November 7, 1997.
issues a no-action letter to permit the Deutsche Terminborse (DTB)
[predecessor to Eurex] to install and utilize DTB computer terminals        May 11, 1998—The CFTC enters into a settlement with
in the United States in connection with the purchase and sale of            Sumitomo Corporation to resolve allegations of manipulating
certain futures and options contracts—the staff’s first consideration       the copper market in 1995 and 1996 that includes a civil
of a request to place computer terminals of an off-shore exchange           monetary penalty of $150 million.
in the United States.                                                       November 4, 1999—The CFTC staff issues a report comparing
July 10, 1996—A CFTC order imposes a $600,000 civil monetary                the global competitiveness of U.S. futures and option markets
penalty against Fenchurch Capital Management Inc. of Chicago, on            to their counterparts abroad. The report, entitled The Global
charges of market manipulation and cornering of the cheapest-to-            Competitiveness of U.S. Futures Markets Revisited, updates a
deliver note deliverable against the CBOT 10-year Treasury note             1994 CFTC study, using the same methodology as the earlier study.
futures contract.                                                           November 9, 1999—The PWG issues a report unanimously
December 19, 1996—The CFTC notifies the CBOT that the                       calling for legislation creating greater legal certainty for OTC
delivery terms of its corn and soybean futures contracts do not             derivatives.
satisfy the statutory objectives of Section 5a(a)(10) of the CEA of
“permit[ting] the delivery of any commodity . . . at such point or                 Significant Dates in CFTC History — 2000s
                                         points and at such quality and
                                          locational price differentials    February 22, 2000—The CFTC transmits to Congress a staff
                                           as will tend to prevent or       report, A New Regulatory Framework, which recommends changes
                                            diminish price manipulation,    to the CFTC’s regulatory structure. The report details changes
                                            market congestion, or           that will lessen the regulatory burdens on U.S. futures markets by
                                             the abnormal movement          creating a more flexible regulatory framework. At the same time, the
                                              of such commodity in          framework provides the OTC markets with greater legal certainty.
                                              interstate commerce”          Much of this framework will be incorporated into the CFMA.
                                               and gives the CBOT
                                                75 days to respond.         September 14, 2000—The CFTC and SEC announce an agree-
                                                                            ment providing for joint jurisdiction over security futures products,
                                                November 7,                 that is, single stock futures and futures on narrow-based stock
                                                1997—The CFTC               indexes. Under the agreement, which will be incorporated into the
                                                 orders the CBOT to         CFMA, the CFTC retains exclusive jurisdiction over futures con-
                                                 change the delivery        tracts on broad-based stock indexes.
                                                 specifications for
                                      its corn and soybean futures          December 21, 2000—President Clinton signs into law the
                                      contracts pursuant to Section         CFMA, which, among other things, reauthorizes the Commission for
                                      5a(a)(10) of the CEA. The             five years, overhauls the CEA to create a flexible structure for the
                                     Commission notes that the              regulation of futures and options trading, clarifies Commission juris-
                                     CBOT can propose alternate             diction over certain retail foreign currency transactions, and repeals
                                    specifications that meet the            the 18-year-old ban on the trading of single stock futures.
                                   requirements of the CEA.
                                                                            April 18, 2001—For the first time since the passage of the
                                   December 4, 1997—The                     CFMA, the CFTC uses its newly clarified authority to file a complaint
                                  SEC vetoes the proposed CBOT’s            charging fraud and the offering of illegal futures contracts against
                                 futures and futures options on the         a firm soliciting retail investors to trade foreign currency contracts.
                                 Dow Jones Transportation Average           Over the next several years, the CFTC filed similar complaints
                                and the Dow Jones Utilities Average,        against dozens of firms that solicit retail investors to trade foreign
                               stating that these contracts are too         currency.
                              narrow-based to meet the requirements
                                                                            July 9, 2001—The CFTC approves the application of Energy-
                              of the 1982 Shad-Johnson Accord.
                                                                            Clear Corporation for registration as a DCO under the CEA. This
This is the only time the SEC exercised its veto power under the
                                                                            is the first new DCO that is not affiliated with a trading facility to be
Accord. A court decision subsequently overturns the SEC veto
                                                                            granted registration by the Commission since the passage of the
and the CFTC approves the contracts on October 27, 1999.



                                 APPROPRIATION AND EMPLOYMENT HISTORY FY 1997-2007
    FY 1997      FY 1998       FY 1999      FY 2000      FY 2001        FY 2002      FY 2003       FY 2004        FY 2005       FY 2006       FY 2007
      553          560           567          556          546            509          521           517            487           493           437
      $55          $58           $61          $63          $71            $88          $85           $90            $94           $97           $98

                                 LEGEND:      Actual FTE                Approved Appropriation (in millions)




        CFTC
C   o m m i s s i o n                                H      i s t o r y                       A     t        A G              l a n c e

                                                                                While about 200 of these new contracts are single stock futures, the
                                                                                number of new non-single stock futures contracts easily exceeds
                                                                                the old record of 92 new contracts set in Fiscal Year 1996.

                                                                                November 18, 2003—The CFTC joins other members of the
                                                                                President’s Corporate Fraud Task Force in undercover “Operation
                                                                                Wooden Nickel” to prosecute individuals and companies allegedly
                                                                                stealing millions of dollars through sales of illegal foreign currency
                                                                                futures contracts.

                                                                                February 4, 2004—The CFTC designates the USFE, also known
                                                                                as Eurex US, as a contract market for the automated trading of
                                                                                futures and options on futures contracts. This is the first designated
                                                                                contract market to be owned by a foreign futures exchange.

                                                                                October 13, 2005—The CFTC issues a statement regarding the
                                                                                bankruptcy filing of Refco. Ultimately, customers holding position is
                                                                                futures contracts through the firms CFTC registered FCM subsidiary
                                 CFMA. DCOs for the existing futures            are repaid in full from funds in the segregated customer accounts.
                                 exchanges were grandfathered in under
                                  the CFMA.                                     December 19, 2006—15 defendants from “Operation Wooden
                                                                                Nickel” ordered by U.S. District Court (SDNY) to pay restitution
                 August 1, 2001—The CFTC kicks off implementation of            return ill-gotten gains and pay fines totaling over $25 million.
       the CFMA by adopting new rules for the various types of exchanges        Penalties were imposed subsequently on nine additional defendants.
       (with different levels of regulatory oversight) that the CFMA created.   During this time period the investigation and litigation of fraud in
       These types of exchanges include designated contract markets,            retail forex is the largest area of the CFTC’s anti-fraud enforcement
       derivatives transaction execution facilities, exempt boards of trade,    program.
       and exempt commercial markets.
                                                                                July 12, 2007—The CME and the CBOT announced the
       August 21, 2001—The CFTC orders Avista Energy, Inc. to                   completion of their merger creating the world’s largest exchange.
       pay $2.1 million to settle CFTC charges of manipulating electricity
       futures.                                                                 July 25, 2007—The CFTC charges hedge fund Amaranth with
                                                                                attempted manipulation in the price of natural gas. Since December
       August 22, 2001—The CFTC adopts new rules for derivatives                2002, the Commission has imposed over $300 million in civil mon-
       clearing organizations, further implementing the CFMA.                   etary penalties for manipulation, attempted manipulation and false
                                                                                price reporting in the energy markets.
       September 11, 2001—The CFTC New York office is destroyed
       during the terrorist attack against the World Trade Center.              September 18, 2007—The CFTC held a hearing to examine
       Commission staff escape without serious injury.                          trading on regulated exchanges and ECMs as part of the
                                                                                Commission’s on going review of energy futures trading.
       July 1, 2002—The CFTC restructures its staff organization to
       facilitate the implementation of the CFMA. Under the restructuring,      October 24, 2007—The CFTC delivers to Congress a report that
       the functions previously performed by the Division of Trading and        includes recommendations to increase the oversight of some trading
       Markets and the Division of Economic Analysis are performed by           activity on electronic trading
       two new divisions and one new office: the Division of Market             facilities known as ECMs.
       Oversight, the Division of Clearing and Intermediary Oversight,
       and the Office of the Chief Economist.                                   October 25, 2007—British
                                                                                Petroleum agrees to pay a total
       November 8, 2002—Trading in single stock futures is launched             of $303 million in sanctions to
       on two new exchanges: OneChicago and NQLX.                               settle charges of manipulation
                                                                                and attempted manipulation in
       March 12, 2003—The CFTC charges the bankrupt Enron Cor-
                                                                                the propane market.
       poration and a former Enron vice president with manipulating prices
       in the natural gas market. Enron also is charged with operating an
       illegal, undesignated futures exchange and offering illegal
       lumber futures contracts through Enron Online, its Inter-
       net trading platform. Enron settles in May 2004 and the
       trader settles in July 2004.

       July 15, 2003—The CFTC approves exchange rules
       implementing a common clearing link between the CBOT
       and CME.

       Fiscal Year 2003—The CFTC approves or (in most
       cases) accepts the exchange self-certification of a record
       348 new futures and option contracts during fiscal year 2003.



                                                                                                                                       CFTC              
       How This Report is Organized
       This document consists of three primary sections and supplemental sections:


                                                                                                    Management’s Discussion and Analysis
           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                                                                    The Management’s Discussion and Analysis (MDA) section is an overview
                                                                                                    of the entire report, as supported and detailed in the Performance Section
                   Commission at a Glance .................................................. 5



                                                                                                    and the Financial Section. The MDA presents performance and financial
                   Performance Highlights.................................................. 16

                   Financial Highlights ...................................................... 26

                   Management Assurances ................................................ 29

                   Forward Looking — Future Business Trends and Events..... 32

                   Inspector General’s FY 2007 Assessment .......................... 35
                                                                                                    highlights for FY 2007, in addition to providing a discussion of compli-
                                                                                                    ance with legal and regulatory requirements, and future business trends
                                                                                                    and events. The MDA also includes the Inspector General’s FY 2007 assess-
                                                                                                    ment of management challenges facing the Commission. For more infor-
                                                                                                    mation on this section, please contact Mark Carney, Chief Financial
                                                                                                    Officer, at 202-418-5477.


                                                                                                    Performance Section
                              PERFORMANCE SECTION




                                                                                                    The Performance Section compares the Commission’s performance to the
                                                                                                    annual goals as set forth in the 2004-2009 CFTC Strategic Plan. At the
                         Introduction to the Performance Section................39

                         Strategic Goal One: Economic Utility ...................40
                                                                                                    close of FY 2007, the Commission issued the 2007-2012 CFTC Strategic
                         Strategic Goal Two: Market Users and Public ........ 50




                                                                                                    Plan adopting a fourth strategic goal, which focuses on assessing and
                         Strategic Goal Three: Industry..............................73




                                                                                                    measuring organizational and management excellence. The Commission
                                                                                                    will begin publishing it’s performance for the fourth goal in the FY 2008
                                                                                                    Performance and Accountability Report. For more information on this
                                                                                                    section, please contact Emory Bevill, Deputy Director for Budget and
                                                                                                    Planning, at 202-418-5187.



                                   FINANCIAL SECTION
                                                                                                    Financial Section

                                                                                                    The Financial Section is comprised of the Commission’s financial state-
                                                                                                    ments and related Independent Auditors’ report. For more information,
                         A Message from the Chief Financial Officer .........101



                                                                                                    please contact Keith Ingram, Deputy Director for Accounting and Financial
                         Limitations of Financial Statements ................... 102

                         Principal Financial Statements .......................... 103

                         Notes to the Financial Statements ...................... 108

                         Report of the Independent Auditors......................119


                                                                                                    Systems, at 202-418-5612.




   CFTC
Other Accompanying Information
                                                                                                          Other AccOmpAnying infOrmAtiOn




Other Accompanying Information provides an update on the Commission’s
progress in addressing management challenges identified by the Inspector General
in the FY 2006 Performance and Accountability Report. Also included is the
                                                                                                             Management Challenges ...................................... 129

                                                                                                             Summary of Audit and Management Assurances .....131




Commission’s summary of audit and management assurances. For more infor-
mation on this section, please contact Mark Carney, Chief Financial Officer, at
202-418-5477.                                                                                  132 CFTC




Appendix
                                                                                                                                     Appendices




The Appendix contains the FY 2007 Commissioner’s biographies, summaries of
filed Enforcement actions addressed in the Performance Section, descriptions of
CFTC Information Technology systems addressed in the Performance Section,                                 FY 2007 Commissioners.................................................133

                                                                                                          Enforcement Litigation by Strategic Goal..........................135

                                                                                                          CFTC Timeline .............................................................148

                                                                                                          CFTC Information Technology Systems Descriptions..........152


and a glossary of abbreviations and acronyms used throughout the report.                                  Glossary of Abbreviations and Acronyms ..........................153

                                                                                                          Figures and Tables .........................................................160




For more information, please contact Lisa Malone, Budget Analyst, Office of
Financial Management, at 202-418-5184.                                                         136 CFTC




Questions and comments about this report can be directed to Mark Carney, Chief Financial
Officer, at 202-418-5477 or via email at mcarney@cftc.gov.

An electronic version of the CFTC FY 2007 Performance and Accountability Report is available
on the Internet at www.cftc.gov/abouthecftc/cftcreports.html. The 2007-2012 CFTC Strategic
Plan, Keeping Pace with Change, is also available at this Web site.




                                                                                                                                                                                CFTC        
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        Commission at a Glance................................................... 9

        Performance Highlights....................................................20

        Financial Highlights....................................................... 30

        Management Assurances................................................. 33

        Forward Looking — Future Business Trends and Events...... 36

        Inspector General’s FY 2007 Assessment........................... 39
                       Commission at a Glance
                                                Mission Statement

             The mission of the CFTC is to protect market users and the public
           from fraud, manipulation, and abusive practices related to the sale of
               commodity futures and options, and to foster open, competitive,
                and financially sound commodity futures and option markets.



Commodity Futures Industry                                      futures and option contracts make up approximately 86
                                                                percent, and other contracts, such as those on metals and
Futures contracts on agricultural commodities have been
                                                                energy products, make up about nine percent. Moreover,
traded in the United States for more than 150 years and
                                                                the electronic integration of cross-border markets and
have been under Federal regulation since the 1920s. At
                                                                firms, as well as cross-border alliances, mergers and other
the time of the Commission’s establishment, the vast
                                                                business activities, have transformed the futures markets
majority of futures trading took place on commodities
                                                                and firms into a global industry.
in the agricultural sector. These contracts gave farmers,
ranchers, distributors, and end users of everything from        These   trillion-dollar   futures   markets,   with   massive
corn to cattle an efficient and effective set of tools to       economic force, are expanding steadily in both volume and
hedge against price movements.                                  new users and their complexity is rapidly evolving with
                                                                new technologies, cross-border activities, product innova-
Over the years, however, the futures industry has become
                                                                tion, and greater competition.
increasingly diversified. While farmers and ranchers
continue to use the futures markets as actively as ever
                                                                How the CFTC is Organized and Functions
to effectively lock in prices for their crops and livestock
months before they come to market, highly complex finan-        The CFTC consists of five Commissioners who are
cial contracts based on interest rates, foreign currencies,     appointed by the President to serve staggered five-year
Treasury bonds, securities indexes, and other products have     terms. All Commissioners are confirmed by the Senate.
far outgrown agricultural contracts in trading volume. The      No more than three Commissioners at any one time may
latest statistics show that approximately five percent of on-   be from the same political party. The President designates
exchange commodity futures and option contracts activity        one of the Commissioners to serve as Chairman, with the
occurs in the agricultural sector, while financial commodity    advice and consent of the Senate.


                                                                                                               CFTC        
The Commission’s organization chart is aligned with its                                  Auditors examine records and operations of futures
newly adopted CFTC 2007-2012 Strategic Plan, and its                                     exchanges, clearinghouses, and firms for compliance
functions are divided between program policy and internal                                with       financial       requirements,                  while     futures          trading
management. The Office of the Chairman oversees the                                      specialists perform regulatory and compliance oversight
Commission’s principal divisions and offices that admin-                                 of alleged fraud, market manipulations, and trade
ister the policies, regulations, and guidance regarding the                              practice violations.
Commodity Exchange Act (CEA or the Act). The Office of
                                                                                         Economists evaluate filings for new futures and option
the Executive Director, by delegation of the chairman,
                                                                                         contracts and amendments to existing contracts to ensure
directs the internal management of the Commission,
                                                                                         they      meet       the       Commission’s                 regulatory          standards.
ensuring that funds are responsibly accounted for and that
                                                                                         Economists also analyze the economic effect of various
program        performance          is    measured           and      improved
                                                                                         Commission and industry actions and events and advise
effectively.
                                                                                         the Commission accordingly.                               In addition, economists
Attorneys at the Commission work on complex and novel                                    monitor trading activity and price relationships in futures
legal issues in litigation, regulation, and policy develop-                              markets to detect and deter price manipulation and other
ment. They participate in administrative and civil proceed-                              potential market disruptions.
ings; assist U.S. Attorneys in criminal proceedings involving
                                                                                         The CFTC is headquartered in Washington, D.C. Regional
futures law violations; develop regulations governing clear-
                                                                                         offices are located in Chicago, Kansas City, and New York.
inghouses, exchanges, and intermediaries; provide a wide
range of analysis and guidance on regulatory and supervi-                                Additional information about the Commission’s history and
sory issues; and provide legal advice to the Commission                                  its divisions can be obtained from the Commission’s Office
on policy and adjudicatory matters.                                                      of External Affairs or through its Web site, www.cftc.gov.


Organization and Locations

                                  Commodity Futures Trading Commission Organization Structure
       Headquarters are located in Washington D.C. Regional Offices are located in New York, Chicago, and Kansas City




         Commissioner               Commissioner                   Chairman                        Commissioner                Commissioner




                                                                                                                                      Chief Operating Officer and
                                                                    Chief of Staff
                                                                                                                                          Executive Director



                                                                                                                        Financial Management                   Information
                                                                                 Equal Employment Opportunity            Chief Financial Officer           Technology Services
                                                                                                                                                           Chief Information Officer



                                                                                                                            Management                      Human Resources
                                                                                                                            Operations                       Chief Human Capital
                                                                                                                                                                    Officer



                                                                                                                                Library                        Proceedings




            Clearing and
                                              Market Oversight                       Enforcement
       Intermediary Oversight




10      CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Evolving Mission and Responsibilities                             Since the development of the Commission’s first Strategic
                                                                  Plan in 1997, the mission of the CFTC has been expressed
Congress created the CFTC in 1974 as an independent
                                                                  and measured through three strategic goals, each focusing
agency with the mandate to regulate commodity futures
                                                                  on a vital area of regulatory responsibility.          The plan
and option markets in the United States. The Commission’s
                                                                  reflected the direction of the agency, including three key
mandate was renewed and/or expanded in 1978, 1982,
                                                                  objectives: 1) modernizing regulations affecting trading
1986, 1992, and 1995. In December 2000, the Commission
                                                                  platforms and market intermediaries; 2) permitting futures
was reauthorized by Congress and the President through
                                                                  based on single securities or narrow-based securities
FY 2005 with passage of the Commodity Futures
                                                                  indexes; and 3) providing legal certainty for OTC deriva-
Modernization Act of 2000 (CFMA). The CFMA repealed
                                                                  tives. The plan also reflected the enormous and continuing
the ban on futures contracts based on individual securities
                                                                  changes in the markets, including rapid growth in volume,
and narrow-based securities indexes and instituted a regu-
                                                                  globalization, and the movement from open outcry on-
latory framework for such products to be administered
                                                                  exchange trading floors to all-electronic trading from
jointly by the CFTC and the Securities and Exchange
                                                                  widely dispersed geographic locations.
Commission (SEC). It codified the principal provisions of
a new regulatory framework adopted earlier by the                 In FY 2007, at the close of the fiscal year, the Commission
Commission. It also brought legal certainty to the trading        issued Keeping Pace with Change, the Strategic Plan for FY
done in bilateral, over-the-counter (OTC) derivatives trans-      2007 through FY 2012.         With this Strategic Plan, the
actions and clarified the CFTC’s jurisdiction over retail, off-   Commission adopted a fourth strategic goal, which focuses
exchange foreign currency (forex) transactions. Although          on assessing and measuring organizational and manage-
the CFMA changed the Commission’s approach to regula-             ment excellence.    Establishing this fourth strategic goal
tion, the Commission’s mission remains the same. The              allows the Commission to extend its performance and
CFTC continues to be responsible for fostering the                management framework—which requires the Commission
economic utility of futures markets by encouraging their          to establish and measure its progress in achieving outcome
competitiveness and efficiency, ensuring their integrity, and     objectives and strategic goals—beyond strictly program
protecting market participants against manipulation,              performance to the performance of the organization itself.
abusive trading practices, and fraud.      Through effective      Performance measures for the fourth strategic goal will be
oversight regulation, the CFTC enables the commodity              published in the FY 2008 Performance and Accountability
futures markets better to serve their vital function in the       Report.
Nation’s economy—providing a mechanism for price
discovery and a means of offsetting price risks.                  In a marketplace driven by change, as is the futures industry,
                                                                  it may be helpful to look back at the way the industry and
                                                                  CFTC have trended in the past few years. The charts that
Keeping Pace with Change
                                                                  follow reflect many of those changes affecting the CFTC:
The futures industry has come a long way in the seven years       1) industry growth versus staff growth; 2) growth in actively
since the CFMA was enacted.            The principles-based       traded futures and option contracts; 3) enforcement actions
approach, codified in the CFMA, combined the best forces          in energy and forex markets and pool/hedge fund fraud;
of the free market with a truly flexible and fair approach to     4) growth in foreign commodity trading; 5) number of
regulation. During this period, the Commission experi-            registrants; 6) contract markets designated by the CFTC;
enced unprecedented growth in the amount of money                 7) number of CFTC-registered derivatives clearing organi-
invested, volume, new products, trading platforms, and            zations (DCOs); 8) exempt commercial markets (ECMs);
market participants. However, the phenomenal progress             9) exempt boards of trade (XBOTs); and 10) amount of
in the industry, for all its benefits, carries with it new        customer funds held at futures commission merchants
responsibilities, challenges, and opportunities.                  (FCMs).




                                                                                                                   CFTC         11
                                                                                                                            FTEs (Staffing Levels)




                                            Contract Trading Volume (Millions
                                                                                        2,500                               Contract Trading Volume
                                                                                                                            (Millions)                                                           2,421



                                                                                        2,000
                                                                                                                                                                                      1,920
Growth in Volume of Futures & Option Contracts Traded & CFTC Full-time
Equivalents 1(FTEs),
              ,500
                     1997-2007                      1,518

                                                                         1,225
Trading volume has increased six-fold in the last decade while staffing levels at the Commission have trended downward.
                                                                                                                                                           1,004
                                                                                        1,000
                                                                                                                                                    723                                                    3,085
                                                                                      3,000             522          625           614      580
                                                                                                                            FTEs (Staffing Levels)
            Contract Trading Volume (Millions)




                                                                                         500
                                                                                      2,500             553          560    Contract
                                                                                                                               567    Trading
                                                                                                                                       546    Volume
                                                                                                                                              514    521                       517        491        493
                                                                                                                                                                      497
                                                                                                                            (Millions)                                                           2,421             437

                                                                                             0                                                                                                                           1,365
                                                                                1,400
                                                                                      2,000
                                                                                                        1997         1998      1999        2000    2001     2002     2003      2004       2005       2006          2007
                                                                                                                                                                                      1,920
                                                                                1,200
                                                                                                                       Actively Traded Futures
                                                                                                                                             F i s c a l Ye a r                                          1,135
                                                                                                                       & Option Contracts on
                                                                                                                                                                            1,518
      Number of Contracts




                                                                                     1,500                             U.S. Exchanges
                                                                                1,000                                                                                                         906
                                                                                                                                                                   1,225

                                                                                                                                                          1,004
                                                                                 8 0 01 , 0 0 0
                                                                                                                                                   723                              662
                                                                                                        522          625       614          580
                                                                                 600                                                                                  538
                                                                                         500
                                                                                                        553          560       567         546     514      521      497       517        491        493
                                                                                 400                                                                                                                               437
                                                                                                               286                       266                278
                                                                                                  258                       251                   250
                                                                                             0
                                                                                 200                    1997     1998         1999         2000    2001    2002      2003     2004        2005       2006          2007
                                                                                                                                                    F i s c a l Ye a r
                                                                                    0
                                                                                              1997            1998          1999         2000     2001     2002      2003      2004           2005         2006          2007
                                                                                                                                                     F i s c a l Ye a r
Actively Traded Futures & Option Contracts, 1997-2007
The number of actively traded contracts on U.S. exchanges has more than quintupled in the last decade.


                                                                                                        553          560       567         546                                                                           1,365
                                                                                1,400                                                              514     521       497      517         491        493          437


                                                                                1,200
                                                                                                                       Actively Traded Futures                                                           1,135
                                                                                                                       & Option Contracts on
      Number of Contracts




                                                                                                                       U.S. Exchanges
                                                                                1,000                                                                                                         906


                                                                                 800
                                                                                                                                                                                    662

                                                                                 600                                                                                  538


                                                                                 400
                                                                                                               286                       266                278
                                                                                                  258                       251                   250
                                                                                 200


                                                                                    0
                                                                                              1997            1998          1999         2000     2001     2002      2003      2004           2005         2006          2007
                                                                                                                                                     F i s c a l Ye a r




12                  CFTC
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Preservation of Market Integrity and Protection of Market Users
Manipulation, Attempted Manipulation, and False Reporting

The CFTC has taken strong action utilizing every tool at its disposal to detect and deter against illegitimate market forces.
The Commission uses enforcement action to preserve market integrity and protect market users, demonstrating that our
authority is significant and that we intend to use it.

For example, CFTC enforcement efforts in the energy arena from December 2001 through September 2007 have resulted
in 38 enforcement actions charging 63 companies and individuals and the assessment of approximately $308 million in
penalties.

 Actions Taken Since December 2001 in Energy Markets                                                          Energy Markets
 Number of Cases Filed or Enforcement Actions                                                                               38
 Number of Entities/Persons Charged                                                                                         63
 Number of Dollars in Penalties Assessed
 	   • Civil Monetary Penalties                                                                                 $308,198,500




Commodity Pools, Hedge Funds, Commodity Pool Operators (CPOs), and Commodity Trading Advisors (CTAs)

Investors continue to fall prey to unscrupulous CPOs and CTAs, including CPOs and CTAs operating hedge funds.
The majority of the Commission’s pool/hedge fund fraud cases are brought against unregistered CPOs and/or CTAs. These
cases tend to involve Ponzi schemes or outright misappropriation, as opposed to legitimate hedge fund operations. From
October 2000 through September 2007, the Commission filed a total of 61 enforcement actions alleging misconduct in
connection with commodity pools and hedge funds.

 Actions Taken Since October 2000                                                                     Pools/Hedge Funds
 Number of Cases Filed or Enforcement Actions                                                                               61
 	   • Cases/Actions Charging Commission Registrants                                                                        23
 Number of Dollars in Penalties Assessed                                                                       $ 231,027,883




Forex Fraud

The Commission vigorously uses its enforcement authority to combat the problem of forex fraud. Since passage of the
CFMA in December 2000 through September 2007, the Commission, on behalf of more than 25,000 customers, has
filed 98 cases. Those efforts have thus far resulted in approximately $453 million in restitution and $551 million in
civil monetary penalties.

 Actions Taken Since Passage of the CFMA in December 2000                                          Foreign Currency Markets
 Number of Cases Filed or Enforcement Actions                                                                               98
 	   • Number of Entities/Persons Charged                                                                                  374
 	   • Number of Customers Affected                                                                                    25,859
 Number of Dollars in Penalties Assessed
 	   • Civil Monetary Penalties                                                                                $ 551,301,267
 	   • Restitution                                                                                             $ 453,173,819




                                                                                                                 CFTC         13
                      A
                                             40
                                                                27.0

                                             20


                                              0
                                                         2000                                   2007
Growth of Foreign Commodity Trading                                    F i s c a l Ye a r
Since 2000, the number of foreign customers trading on U.S. exchanges has more than tripled and the number of U.S.
customers trading on foreign exchanges has more than quintupled.



                                            160
                                                  Foreign Customers Trading on
                                                  U.S. Commodity Exchanges                  138.3
                                            140                                                     127.8
                                                  U.S. Customers Trading on
                                            120   Foreign Commodity Exchanges
                      Amount in Thousands




                                            100


                                             80


                                             60       54.0


                                             40
                                                                27.0

                                             20


                                              0
                                                         2000                                   2007
                                                                       F i s c a l Ye a r




Number of Registrants
Companies and individuals who handle customer funds, solicit or accept orders, or give trained advice must apply for
CFTC registration through the National Futures Association (NFA), a self-regulatory organization (SRO) with delegated
oversight authority from the Commission. The Commission regulates the activities of nearly 70,000 registrants.

    Type of Registered Professional                                                             Number as of September 30, 2007
    Associated Persons (APs) (Salespersons)                                                 	                          53,844
    Commodity Pool Operators (CPOs)                                                         	                           1,416
    Commodity Trading Advisors (CTAs)                                                                                   2,601
    Floor Brokers (FBs)                                                                                                 8,038
    Floor Traders (FTs)                                                                                                 1,506
    Futures Commission Merchants (FCMs)                                                     	                            197    1


    Introducing Brokers (IBs)                                                               	                           1,699   2


    TOTAL                                                                                                             69,301




1
    Includes 16 notice-registered FCMs.
2
    Includes 42 notice-registered IBs.




14         CFTC
                                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Contract Markets Designated by the CFTC, 2002-2007
Designated contract markets (DCMs) are boards of trade or exchanges that meet CFTC criteria and Core Principles for
trading futures or options by both institutional and retail participants.

    Commodity
    Exchanges3                      2002                 2003                 2004               2005              2006               2007

    BTEX                               ●                    ●

    CBOT                               ●                    ●                     ●                ●                  ●                  ●

    CCFE                                                                          ●                ●                  ●                  ●

    CFFE                               ●

    CFE                                                     ●                     ●                ●                  ●                  ●

    CME                                ●                    ●                     ●                ●                  ●                  ●

    CSCE                               ●                    ●                     ●

    EPFE                                                                          ●

    HedgeStreet                                                                   ●                ●                  ●                  ●

    INET                               ●

    KCBT                               ●                    ●                     ●                ●                  ●                  ●

    MACE                               ●                    ●

    ME                                 ●                    ●                     ●

    MGE                                ●                    ●                     ●                ●                  ●                  ●

    NQLX                               ●                    ●                     ●                ●

    NYBOT/ICE US                                                                  ●                ●                  ●                  ●

    NYCE                               ●                    ●                     ●

    NYFE                               ●                    ●                     ●

    NYMEX                              ●                    ●                     ●                ●                  ●                  ●
    (incl. COMEX)

    OCX                                ●                    ●                     ●                ●                  ●                  ●

    PBOT                               ●                    ●                     ●                ●                  ●                  ●

    USFE                                                                          ●                ●                  ●                  ●

    TOTAL                             16                   15                     18               13                 12                12




3
    Refer to the CFTC Glossary in the Appendix for full names of organizations.




                                                                                                                                   CFTC         15
Number of CFTC-Registered Derivatives Clearing Organizations, 2002-2007
Clearinghouses that provide clearing services for CFTC-regulated exchanges must register as DCOs. Currently, 11 DCOs
are registered with the Commission.

    DCOs4                             2002                 2003                   2004   2005   2006      2007

    AE                                                                                    ●      ●          ●

    BTEX                                 ●                    ●

    CBOT                                                                           ●      ●      ●          ●

    CCorp                                ●                    ●                    ●      ●      ●          ●

    CME                                  ●                    ●                    ●      ●      ●          ●

    EnergyClear                          ●                    ●

    FCOM                                 ●                    ●

    GCC                                  ●                    ●

    HedgeStreet                                                                    ●      ●      ●          ●

    ICC                                  ●                    ●

    KCBT                                 ●                    ●                    ●      ●      ●          ●

    LCH                                  ●                    ●                    ●      ●      ●          ●

    MGE                                  ●                    ●                    ●      ●      ●          ●

    NYCC/ICE Clear                       ●                    ●                    ●      ●      ●          ●

    NYMEX                                ●                    ●                    ●      ●      ●          ●

    OCC                                  ●                    ●                    ●      ●      ●          ●

    ONXCC                                ●                    ●

    TOTAL                                14                  14                    10     11     11         11




4
    Refer to the CFTC Glossary in the Appendix for full names of organizations.




16         CFTC
                                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Exempt Commercial Markets, 2002-2007
Electronic trading facilities providing for the execution of principal-to-principal transactions between eligible commercial
entities in exempt commodities may operate as ECMs as set forth under the CEA and the Commission’s regulations. An
ECM is subject to anti-fraud and anti-manipulation provisions and a requirement that, if performing a significant price
discovery function, the ECM must provide pricing information to the public. A facility that elects to operate as an ECM
must give notice to the Commission and comply with certain information, record-keeping, and other requirements. An
ECM is prohibited from claiming that the facility is registered with, or recognized, designated, licensed or approved by, the
Commission. A total of 21 ECMs have filed notices with the Commission and 19 were active in FY 2007.

    Exempt
    Commercial
    Markets5                        2002                 2003                 2004               2005              2006               2007

    CCX                                                     ●                     ●                ●                  ●                  ●

    CDXchange                          ●                    ●                     ●                ●                  ●

    ChemConnect                                                                                                       ●                  ●

    Flett                                                                                                                                ●

    GFI                                                                                                                                  ●

    HSE                                ●                    ●                     ●                ●                  ●                  ●

    ICAP                                                                                                              ●                  ●

    ICAP ETC                                                                                                          ●                  ●

    ICAP HYDE                                                                                                         ●                  ●

    ICE                                ●                    ●                     ●                ●                  ●                  ●

    IMAREX                             ●                    ●                     ●                ●                  ●                  ●

    NGX                                ●                    ●                     ●                ●                  ●                  ●

    Nodel                                                                                                                                ●

    NTP                                                                                                               ●                  ●

    OPEX                               ●                    ●                     ●                ●                  ●                  ●

    Options ATS                                                                                                                          ●

    SL                                                      ●                     ●                ●                  ●                  ●

    TCX                                                                                            ●                  ●                  ●

    TFS                                                     ●                     ●                ●                  ●                  ●

    TFSE                                                    ●                     ●                ●                  ●                  ●

    TS                                 ●                    ●                     ●                ●                  ●

    TOTAL                              7                   11                     11               12                 17                19



5
    Refer to the CFTC Glossary in the Appendix for full names of organizations.



                                                                                                                                   CFTC         17
Exempt Boards of Trade, 2002 – 2007
Transactions by eligible contract participants in selected commodities may be conducted on an XBOT as set forth under the
CEA and the Commission’s regulations. XBOTs are subject only to the CEA’s anti-fraud and anti-manipulation provisions.
An XBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or approved,
by the Commission. Also, if it is performing a price discovery function, the XBOT must provide certain pricing information
to the public. To date, 11 XBOTs have filed notices with the Commission.

    Exempt Boards
    of Trade6                       2002                 2003                 2004    2005    2006             2007

    AE                                                                            ●    ●        ●                ●

    CME AM                                                                             ●        ●                ●

    GFI ForexMatch                                                                                               ●

    Intrade                                                                            ●        ●                ●

    Longitude                                                                                                    ●

    MATCHBOXX                                                                                   ●
    ATS

    Storm                                                                                       ●                ●

    Swapstream                                                                                  ●                ●

    WBOT                                                    ●                     ●    ●        ●

    WXL                                ●                    ●                     ●    ●        ●

    Yellow Jacket                                                                                                ●

    TOTAL                              1                    2                     3    5        8                8




5
    Refer to the CFTC Glossary in the Appendix for full names of organizations.




18          CFTC
                                20
                                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
                                 0
                                     1997    1998     1999    2000    2001       2002       2003    2004     2005     2006     2007
                                                                             F i s c a l Ye a r


Customer Funds Held in Futures Commission Merchant Accounts, 1997-2007
The amount of customer funds held at FCMs has more than quadrupled in the last decade.


                               180

                                                                                                                               $155.4
                               160
                                                     Customer Funds in                                                $138.0
                               140                   FCM Accounts

                                                                                                            $116.7
                               120
          Amount in Billions




                                                                                                    $94.5
                               100

                                                                                            $75.6
                                80
                                                                                  $64.3
                                                                      $59.7
                                                      $54.1   $56.7
                                60
                                             $47.5
                                     $38.7
                                40


                                20


                                 0
                                     1997    1998     1999    2000    2001       2002       2003    2004     2005     2006     2007
                                                                             F i s c a l Ye a r




                                                                                                                                  CFTC         19
                       Performance Highlights
            Net Cost     by Strategic   Goalthrough three strategic goals,
                                                                        NeteachCost  by on
                                                                                         Strategic    Goal
  T
       he mission of the CFTC is accomplished                                   focusing   a vital area of regulatory
       responsibility to: 1) ensure the economic vitality of the commodity futures and option markets; 2) protect market
  users and the public; and 3) ensure market integrity in order to foster open, competitive, and financially sound markets.
  Accomplishing the three long-term strategic goals is evidenced by the progress of nine key outcome objectives. In most
  cases, due to the broad economic functions that the Commission oversees, it is not a simple task to identify specific
  detailed objectives that will be accomplished each year. However, it is possible to identify conditions that, if present, are
  indicators that the Commission’s activities are contributing successfully to the health of the industry it regulates.



  Resource Investment by Strategic Goal
  In FY 2007, the Commission invested 37 percent of its resources in economic vitality, 35 percent in protecting market
  users and the public, and 28 percent in market integrity.


                    Net Cost by Strategic Goal                                   Full-time Equivalents by Strategic Goal

                                             $28.5 Million                                                         122 FTEs
                                      Goal Three: Ensure market                                           Goal Three: Ensure market
                                      integrity in order to foster                                        integrity in order to foster
  $35.6 Million                         open, competitive, and           153 FTEs                           open, competitive, and
Goal Two: Protect                     financially sound markets.     Goal Two: Protect                    financially sound markets.
market users and                                  28%                market users and                                 28%
   the public.                                                          the public.
      35%                                                                  35%




                            $37.6 Million                                                        162 FTEs
                        Goal One: Ensure the                                               Goal One: Ensure the
                        economic vitality of the                                           economic vitality of the
                        commodity futures and                                              commodity futures and
                           option markets.                                                    option markets.
                                37%                                                                37%
  20     CFTC
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




           Summary of CFTC Mission Statement, Strategic Goals & Outcomes



                                                  Mission Statement

          The mission of the CFTC is to protect market users and the public
        from fraud, manipulation, and abusive practices related to the sale of
            commodity futures and options, and to foster open, competitive,
             and financially sound commodity futures and option markets.

                                                 Goal One
                 Protect the economic functions of the commodity futures and option markets.
                                                         Outcomes
	 1. Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of
	    disruptive activity.
	 2. Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that
	    could adversely affect their economic vitality.
                                                    Goal Two
                                         Protect market users and the public
                                                         Outcomes
	 1. Violations of Federal commodities laws are detected and prevented.
	 2. Commodities professionals meet high standards.
	 3. Customer complaints against persons or firms falling within the jurisdiction of the CEA are handled effectively and
	    expeditiously.
                                                 Goal Three
         Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                                         Outcomes
	 1. Clearing organizations and firms holding customer funds have sound financial practices.
	 2. Commodity futures and option markets are effectively self-regulated.
	 3. Markets are free of trade practice abuses.
	 4. Regulatory environment is responsive to evolving market conditions.




                                                                                                                 CFTC         21
FY 2007 Performance Results                                                 FY 2007 Performance Metrics Results

Annually, the performance metrics are analyzed to
                                                                                         Results Not
determine the measure of success the program’s activities                               Demonstrated
have achieved in accomplishing the Commission’s overall                                     6%

strategic mission. In FY 2007, the Commission met or                                                                Exceeded
                                                                                                                      29%
exceeded 88 percent of its 34 performance metrics.


Since many of the Commission’s performance metrics
are subject to external influences, such as the futures
industry, metrics alone cannot fully disclose the status
of the performance ratings. In the Performance Section,
                                                                                                                    Not Met
the Commission, therefore, further analyzes the progress                  Met                                         6%
of each performance metric using adjectival ratings. The                  59%

following is a summary outline of adjectival ratings used
by Lead Program Offices to evaluate the results of each
performance metric:



 EFFECTIVE:                Significantly exceeds the standards of performance and achieves noteworthy results.

 MODERATELY                Exceeds the standards of performance; although there may be room for improvement in some
 EFFECTIVE:                elements, better performance in all other elements more than offsets this.

 ADEQUATE:                 Meets the standard of performance; deficiencies do not substantially affect performance.

 MARGINAL:                 Below the standard of performance; deficiencies require attention and corrective action.
                           Significantly below the standard of performance; deficiencies are serious, may affect overall results,
 UNSATISFACTORY:           urgently require senior management attention, prompt corrective action.

 RESULTS NOT               Data is not available to evaluate the performance.
 DEMONSTRATED:




22     CFTC
 Introduction to Strategic Goal One



T
      he focus of this goal is the marketplace. If U.S. commodity futures and option markets are protected from, and
      are free of, abusive practices and influences, they will fulfill their vital role in the U.S. market economy, accurately
reflecting the forces of supply and demand and serving market users by fulfilling an economic need.

                                              Strategic Goal One
                      Ensure the economic vitality of the commodity futures and option markets.
                                                Annual Performance Goal One
                      No price manipulation or other disruptive activities that would cause loss of confidence
                                       or negatively affect price discovery or risk shifting.
                                              Outcomes and Performance Measures
 1.1 Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of disruptive
 activity.
  	   1.1.1. Percentage growth in market volume.
  	   1.1.2. Percentage of novel or innovative market proposals or requests for CFTC action addressed within six months to
             accommodate new approaches to, or the expansion in, derivatives trading, enhance the price discovery process, or
             increase available risk management tools.
  	   1.1.3. Percentage increase in number of products traded.
  	   1.1.4. Percentage of new exchange and clearinghouse organization applications completed within expedited review period.
  	   1.1.5. Percentage of new contract certification reviews completed within three months to identify and correct deficiencies in
             contract terms that make contracts susceptible to manipulation.
  	   1.1.6. Percentage of rule certification reviews completed within three months, to identify and correct deficiencies in ex-
             change rules that make contracts susceptible to manipulation or trading abuses or result in violations of law.
 1.2 Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could
 adversely affect their economic vitality.
  	   1.2.1 Percentage of derivative clearing organization applications demonstrating compliance with Core Principles.
  	   1.2.2 Ratio of markets surveilled per economist.
  	   1.2.3 Percentage of contract expirations without manipulation.




Performance Trends for Goal One
Monitoring market activity represents one of the ways the Commission seeks to protect the economic function of the
markets. Market surveillance is conducted to detect attempted manipulation and other abusive practices that could
undermine the capacity of these markets to perform their economic function. The Commission takes preventive measures
to ensure that market prices accurately reflect fundamental supply and demand conditions, including the routine daily
monitoring of large trader positions, futures and cash prices, price relationships, and supply and demand factors in order
to detect threats of price manipulation.




                                                                                                                     CFTC          23
Market Volume

Contract trading volume peaked to more than three billion in FY 2007, as shown in Figure 1, Growth in Volume of Futures &
Option Contracts Traded & CFTC FTEs, on page 12, with increased demand realized for products traded on exchanges. The
FY 2007 actual is driven by changes in economic fundamentals, success of newly launched products, new participants using
these markets, and other changes in the marketplace. As such, these factors may impact the precision of any prediction of
future trading volume.

                                                                FY 2005        FY 2006        FY 2007         FY 2007
 Performance Measure 1.1.1                                       Actual         Actual          Plan           Actual
 Percentage growth in market volume                               26%           26%             25%            27%



New Products

The actual percentage of new products offered on the exchanges in FY 2007 increased above projections. These results are
driven by customer demand for new products, exchange innovation, opportunities made available by the increasing use
of electronic trading, and other changes in the marketplace. As such, these factors may impact the number of products
introduced.

                                                                FY 2005        FY 2006        FY 2007         FY 2007
 Performance Measure 1.1.3                                       Actual         Actual          Plan           Actual
 Percentage increase in number of products traded                 43%           25%             10%            20%




24     CFTC
 Introduction to Strategic Goal Two



W
        hile the United States is the beneficiary of explosive growth in the futures industry, the risk of fraud and
        manipulation is always present. The trend toward electronic trading platforms and the expanding complexity of
trading instruments have challenged the Commission to reconfigure its ability to identify, investigate, and take action
against parties involved in violating applicable laws and regulations. If evidence of criminal activity is found, matters are
referred to state or Federal authorities for prosecution under criminal statutes.

Over the years, the Commission has taken action in a number of cases involving manipulation or attempted manipulation
of commodity prices. A variety of administrative sanctions, such as bans on futures trading, civil monetary penalties, and
restitution orders, is available to the Commission. The Commission may also seek Federal court injunctions, asset freezes,
and orders to disgorge ill-gotten gains.

                                                   Strategic Goal Two
                                             Protect market users and the public.
                                                 Annual Performance Goal Two
                                  To have an effective and efficient market surveillance program.
                                               Outcomes and Performance Measures
 2.1 Violations of Federal commodities laws are detected and prevented.
  	   2.1.1. Number of enforcement investigations opened during the fiscal year.
  	   2.1.2. Number of enforcement cases filed during the fiscal year.
  	   2.1.3. Percentage of enforcement cases closed during the fiscal year in which the Commission obtained sanctions, e.g.,
             civil monetary penalties, restitution and disgorgement, cease and desist orders, permanent injunctions, trading bans,
             and registration restrictions.
  	   2.1.4. Cases filed by other criminal and civil law enforcement authorities during the fiscal year that included cooperative as-
             sistance from the Commission.
 2.2 Commodity professionals meet high standards.
  	   2.2.1. Percentage of self-regulatory organizations that comply with Core Principles.
  	   2.2.2. Percentage of derivative clearing organizations that comply with Core Principles.
  	   2.2.3. Percentage of professionals compliant with standards regarding testing, licensing, and ethics training.
  	   2.2.4. Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
  	   2.2.5. Percentage of total requests receiving CFTC responses for guidance and advice.
 2.3 Customer complaints against persons or firms registered under the Act are handled effectively and expeditiously.
  	   2.3.1. Percentage of filed complaints resolved within one year of the filing date.
  	   2.3.2. Percentage of appeals resolved within six months.




                                                                                                                       CFTC       25
Performance Trends for Goal Two                                    While the Commission’s Enforcement program continues
                                                                   to perform at a high level, current resource constraints
An ever larger segment of the population has money at risk
                                                                   continue to have an adverse impact. Enforcement staff
in the futures markets, either directly or indirectly through
                                                                   are operating at full capacity and shifting resources from
pension funds or ownership of shares in publicly held
                                                                   important investigations to ongoing and future litigation
companies that participate in the markets.
                                                                   demands limits the ability to pursue new investigations as
The Enforcement program works to protect market                    shown in the metrics above. If the Enforcement program is
users and the public by promoting compliance with,                 unable to bring actions because of insufficient resources,
and deterring violations of, the CEA and Commission                other authorities will not be available to step in and fill the
regulations. The majority of the work in this area involves        void. SROs can take action only against their own members,
investigating and prosecuting enforcement actions in               and their sanctions cannot affect conduct outside their
matters involving fraud and imposing sanctions against             jurisdiction or markets. In addition, other Federal regulators
wrongdoers. These actions send a message to industry               and state regulators have limited jurisdiction and expertise
professionals about the kinds of conduct that will not             in handling futures-related misconduct. Finally, while
be tolerated.                                                      criminal prosecutions by the U.S. Department of Justice
                                                                   (DOJ) are an important adjunct to effective enforcement
Enforcement Investigation and Litigation                           of the CEA, cooperative enforcement still requires the
                                                                   active use of Commission FTEs to assist DOJ in its criminal
In FY 2007, the Commission filed 41 enforcement actions            prosecutions.
and its enforcement program opened 99 investigations
of potential violations of the Act and Commission
regulations. The Commission obtained near record relief
against enforcement action defendants and respondents—
monetary penalties imposed during FY 2007 included
$290,910,031 in restitution and disgorgement, and
$251,072,084 in civil monetary penalties.

                                                                     FY 2005         FY 2006         FY 2007          FY 2007
 Performance Measure 2.1.1                                            Actual          Actual           Plan            Actual
 Number of enforcement investigations opened during the fiscal         131             123              85               99
 year


                                                                     FY 2005         FY 2006         FY 2007          FY 2007
 Performance Measure 2.1.2                                            Actual          Actual           Plan            Actual
 Number of enforcement cases filed during the fiscal year               64              38              40               41


                                                                     FY 2005         FY 2006         FY 2007          FY 2007
 Performance Measure 2.1.3                                            Actual          Actual           Plan            Actual
 Percentage of enforcement cases closed during the fiscal year        100%            100%             95%             100%
 in which the Commission obtained sanctions, e.g., civil mon-
 etary penalties, restitution and disgorgement, cease and desist
 orders, permanent injunctions, trading bans, and registration
 restrictions




26     CFTC
Introduction to Strategic Goal Three


T
      he Commission focuses on issues of market integrity, seeking to protect: 1) the economic integrity of the markets
      so that markets may operate free from manipulation; 2) the financial integrity of the markets so that the insolvency
of a single participant does not become a systemic problem affecting other market participants; and 3) the operational
integrity of the markets so that transactions are executed fairly and proper disclosures to existing and prospective customers
are made.

                                              Strategic Goal Three
             Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                             Annual Performance Goal Three
                        No loss of customer funds as a result of firms’ failure to adhere to regulations.
                       No customers prevented from transferring funds from failing firms to sound firms.
                                              Outcomes and Performance Measures
 3.1 Clearing organizations and firms holding customer funds have sound financial practices.
  	 3.1.1. Lost funds:
  		       a) Number of customers who lost funds.
  		       b) Amount of funds lost.
  	   3.1.2. Number of rulemakings to ensure market integrity and financially sound markets.
  	   3.1.3. Percentage of clearing organizations that comply with requirement to enforce their rules.
 3.2 Commodity futures and option markets are effectively self-regulated.
  	   3.2.1. Percentage of intermediaries who meet risk-based capital requirements.
  	   3.2.2. Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
 3.3 Markets are free of trade practice abuses.
  	   3.3.1. Percentage of exchanges deemed to have adequate systems for detecting trade practice abuses.
  	   3.3.2. Percentage of exchanges that comply with requirement to enforce their rules.
 3.4 Regulatory environment is flexible and responsive to evolving market conditions.
  	   3.4.1. Percentage of CFMA Section 126(b) objectives addressed.
  	   3.4.2. Number of rulemakings, studies, interpretations, and guidances to ensure market integrity and exchanges’
             compliance with regulatory requirements.
  	   3.4.3. Percentage of requests for no-action or other relief completed within six months related to novel market or trading
             practices and issues to facilitate innovation.
  	   3.4.4. Percentage of total requests receiving CFTC responses for guidance and advice.




Performance Trends for Goal Three
In fostering open, competitive, and financially sound markets, the Commission’s two main priorities are to avoid
disruptions to the system for clearing and settling contract obligations and to protect the funds that customers entrust to
FCMs. Clearing organizations and FCMs are the backbone of the clearing and settlement system; together, they protect
against the possibility that the financial difficulties of one trader may become a systemic problem for other traders.




                                                                                                                   CFTC        27
Commission staff also work with the SROs and NFA to            As a result of these and other ongoing financial oversight
monitor closely the financial condition of the FCMs            and risk surveillance activities, in FY 2007, there were no
themselves, who must provide the Commission, designated        losses of regulated customer funds as a result of an FCM
SRO, and NFA with various monthly and annual financial         failure or the inability of customers to transfer their funds
reports. The SROs and NFA also conduct audits and daily        from a failing FCM to a financially sound FCM.            This
financial surveillance of their respective member FCMs.        performance trend again met the program’s objectives of
Part of this financial surveillance involves looking at each   ensuring sound financial practices of clearing organizations
FCM’s exposure to losses from large customer positions         and firms holding customer funds, and the protection of
that it carries. As an oversight regulator, the Commission     customer funds.
not only reviews the audit and financial surveillance work
of the SROs and NFA, but also monitors the financial           Oversight of SROs’ and DCOs’ Compliance Programs
strength of FCMs directly, as appropriate. The Commission
                                                               A key aspect of assuring effective self-regulation is oversight
also periodically reviews clearing organization procedures
                                                               by the Commission of futures industry SROs, which
for monitoring risks and protecting customer funds.
                                                               include exchanges and NFA, and DCOs, to ensure their
                                                               fulfillment of responsibilities for monitoring and ensuring
Protecting Customer Funds
                                                               the financial integrity of market intermediariesw and the
Staff monitor the operations of registrants in possession of   protection of customer funds.       Toward this end, Com-
customer funds through a number of financial oversight         mission staff oversee, review, and report to the Commission
and risk surveillance activities. This monitoring includes     concerning SRO and DCO self-policing programs to
reviewing monthly financial reports submitted by FCMs,         evaluate their compliance with applicable provisions of
reviewing annual reports of FCMs certified by independent      the Act and Commission regulations.           Similar to the
public accountants, and conducting onsite examinations         approach of other Federal financial regulators and certain
of FCMs. In FY 2007, staff processed about 2,700 financial     overseas financial supervisors, the Commission employs a
reports filed by FCMs, and performed examinations and          risk-based approach to its examination cycles of SROs and
onsite reviews of several FCMs to test compliance with the     DCOs, i.e., both the scheduling and scope of the risk-based
Commission’s financial requirements for the safekeeping        reviews are based on an analysis of the underlying risks to
of customer funds.                                             which an institution is exposed and the controls that it has
                                                               in place to address those risks.
The financial and risk surveillance activities performed by
staff have taken on greater importance in recent years due     Substantial staff resources were committed to the
to the number of instances of market volatility and their      examination of selected SROs and DCOs in FY 2007,
impacts on market intermediaries and the clearing system.      resulting in the completion of three major reviews of
During FY 2007, staff conducted nearly 30 market move          SROs’ and DCOs’ compliance programs.             The reviews
reviews to monitor the potential for, and instances of,        concluded that the SROs’ and DCOs’ compliance programs
market volatility, market disruptions, or emergencies that     were meeting the requirements of the Act and Commission
have the potential to impact: 1) the proper capitalization     regulations.    This performance trend again met the
of firms; 2) the proper segregation of customer funds;         Commission’s oversight program objectives of ensuring
3) the ability of financial intermediaries to make payments    the financial integrity of market intermediaries and the
to a DCO in a timely manner; and 4) issues with respect to     protection of customer funds.
systemic risk.



                                                                 FY 2005         FY 2006          FY 2007         FY 2007
 Performance Measure 3.1.1                                        Actual          Actual            Plan           Actual
 Lost funds:
 a) Number of customers who lost funds                              0               0                0               0
 b) Amount of funds lost                                           $0              $0               $0              $0




28      CFTC
                                                                   M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                                 FY 2005        FY 2006          FY 2007           FY 2007
Performance Measure 3.1.3                                         Actual         Actual            Plan             Actual
Percentage of clearing organizations that comply with require-    100%           100%              100%             100%
ment to enforce rules


                                                                 FY 2005        FY 2006          FY 2007           FY 2007
Performance Measure 3.2.2                                         Actual         Actual            Plan             Actual
Percentage of self-regulatory organizations that comply with      100%           100%              100%             100%
requirement to enforce their rules


                                                                 FY 2005        FY 2006          FY 2007           FY 2007
Performance Measure 3.3.2                                         Actual         Actual            Plan             Actual
Percentage of exchanges that comply with requirement to           100%           100%              100%             100%
enforce their rules




                                                                                                               CFTC         29
                             Financial Highlights

T
     he following chart is an overview of the Commission’s financial position, preceding a discussion of the agency’s
     financial highlights for FY 2007.

                                                                                        2007                       2006
 Condensed Balance Sheet Data
 	   Fund Balance with Treasury                                     $	            19,507,914    $	           20,055,508
 	   Property, Equipment, and Software, Net                                        2,850,911                  3,674,493
 	   Accounts Receivable                                                             126,276                     63,855
 	   Prepayments                                                                     131,142                    461,038
 	   Other (Custodial)                                                               620,311                  5,756,605
 Total Assets                                                       $	            23,236,554    $	           30,011,499
 	   FECA Liabilities                                               $	               223,003    $	              311,285
 	   Payroll, Benefits and Annual Leave                                            7,415,622                  9,182,837
 	   Contingent & Deposit Fund Liabilities                                           357,563                     59,088
 	   Other Deferred Lease Liabilities                                              3,169,541                  2,837,403
 	   Accounts Payable                                                              2,960,373                  2,574,535
 	   Custodial Liabilities                                                           620,311                  5,756,605
 	   Other                                                                            10,001                            –
 Total Liabilities                                                  	             14,756,414    	            20,721,753
 Cumulative Results of Operations                                   	             (5,700,823)   	            (4,568,800)
 Unexpended Appropriations                                                        14,180,963                 13,858,546
 Total Net Position                                                                8.480,140                  9,289,746
 Total Liabilities and Net Position                                 $	            23,236,554    $	           30,011,499
 Condensed Statements of Net Cost
 	   Total Cost                                                     $	           101,824,806    $	          104,256,065
 	   Net Revenue                                                                     (91,763)                   (23,150)
 Total Net Cost of Operations                                       $	           101,733,043    $	          104,232,915
 Net Cost by Strategic Goal
 	   Goal One - Economic Utility                                    $	            37,641,226    $	           33,354,533
 	   Goal Two - Market User and Public                                            35,606,565                 40,650,837
 	   Goal Three - Industry                                                        28,485,252                 30,227,545
                                                                    $	           101,733,043    $	          104,232,915




30     CFTC
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Discussion and Analysis                               For the year ended September 30, 2007, the balance sheet
                                                                reflects total assets of $23 million. This reflects a 23 percent
The CFTC prepares annual financial statements in
                                                                decrease from FY 2006. Although the Commission’s fund
accordance with GAAP for Federal government entities and
                                                                balance with the U.S. Department of the Treasury
subjects the statements to an independent audit to ensure
                                                                (Treasury) was only $0.5 million less in FY 2007 than it
their integrity and reliability in assessing performance.
                                                                was at the end of FY 2006, custodial accounts receivable

Management recognizes the need for performance and              balances dropped by 89 percent. The CFTC litigates against

accountability reporting, and fully supports assessments of     defendants for alleged violations of the CEA, as amended.

risk factors that can have an impact on its ability to do so.   Violators may be subject to a variety of sanctions including

Improved reporting enables managers to be accountable           fines, injunctive orders, bars and suspensions, rescissions

and supports the concepts of the Government Performance         of illegal contracts, disgorgement, and restitution to

and Results Act (GPRA), which requires the Commission           customers. When collectible custodial receivables (non-

to: 1) establish a strategic plan with programmatic goals       entity assets) are high, these fines and penalties that have

and objectives; 2) develop appropriate measurement              been assessed and levied against businesses for violation of

indicators; and 3) measure performance in achieving those       law dominate the balance sheet.

goals.
                                                                In FY 2007, approximately $264 thousand in net custodial

The financial summary as shown on page 30 highlights            receivables was attributable to civil monetary sanctions.

changes in financial position between September 30, 2006        This precipitous drop is largely explained by the timing of

and September 30, 2007. This overview is supplemented           civil monetary penalties collections. In FY 2007, a $2.7

with brief descriptions of the nature of each required          million collection related to NRG Energy Inc. was booked

financial statement and its relevance. Certain significant      in late September. For FY 2006, the majority of the $5.7

balances or conditions featured in the graphic presentation     million net receivable was attributable to a $4.2 milli0n

are explained in these sections to help clarify their           debt collected from Dominion Resources in early October

relationship to Commission operations. Readers are              2006. In addition, due to a month delay in publishing the

encouraged to gain a deeper understanding by reviewing          annual schedule of fees notice in the Federal Register, only

the Commission’s financial statements and notes to the          $251 thousand out of $608 thousand had been collected

accompanying audit report presented in the Financial            of the fees charged to recover the costs incurred by the

Section of this report.                                         Commission in the operation of its program of oversight
                                                                of self-regulatory organization rule enforcement programs.
                                                                In addition, the net value of general property, plant, and
Understanding the Financial Statements                          equipment decreased almost $825 thousand, as the
                                                                Commission began depreciating internally-developed
The CFTC presents financial statements and notes in the
                                                                software for the eLaw Program.
format required for the current year by Office of
Management and Budget (OMB) Circular A-136, Financial           As should be expected from a small regulatory agency,
Reporting Requirements, which is revised annually by OMB        payroll, benefits, and annual leave make up the majority of
in coordination with the U.S. Chief Financial Officers          CFTC liabilities. Several factors influenced the change in
Council. CFTC’s current year and prior year financial           the Commission’s net position during FY 2007. This, as
statements and notes are presented in a comparative             noted above, includes the timing of prior year write-offs of
format.                                                         old debt, and the overall case management and analysis of
                                                                debt by the Division of Enforcement.
Balance Sheet
                                                                Statement of Net Cost
The balance sheet presents, as of a specific point in time,
the economic value of assets and liabilities retained or        This statement is designed to present the components of
managed by the Commission. The difference between               the net cost of the Commission. Net Cost is the gross cost
assets and liabilities represents the net position of the       incurred less any revenues earned from Commission activi-
Commission.

                                                                                                                 CFTC         31
ties. The statement of net cost is categorized by the            The $98.0 million appropriation level received in FY 2007
Commission’s strategic goals. The Commission experi-             was based on a continuing resolution formula. As a conse-
enced a 2.4 percent decrease in the total net cost of            quence the level was slightly less than the enacted FY 2006
operations during FY 2007. This is consistent with the           level $98.4 million, however, as no rescission was enacted
continuing resolution budget the Commission received for         in FY 2007, the Commission received a small net increase
its appropriation.                                               of about $580,000 to maintain a “steady state” and fund
                                                                 benefits and compensation, lease expenses, printing, and
Goal One, which tracks activities related to market over-        services to support systems users, telecommunications,
sight, continues to require a significant share of               operations, and maintenance of technology equipment.
Commission resources.       The CFTC experienced a 12.9          Gross outlay decreases are mainly due to an almost year-
percent increase in net cost of operations in FY 2007, rising    long hiring freeze that reduced disbursements for payroll
to $37.6 million. This increase was largely attributable to a    and benefits, netted by an apportionment of no-year
shift in resources back from responding to the collapse of       appropriation recoveries of $3.4 million and the cancella-
Refco LLC, in FY 2006.                                           tion of expired accounts.
Goal Two is representative of efforts to protect market users
and the public. In FY 2007, the Goal Two, net cost of oper-      Statement of Custodial Activity

ations fell to $35.6 million, a 12.4 percent reduction. These    This statement provides information about the sources and
lower funding levels primarily impacted the Division of          disposition of non-exchange revenues.        Non-exchange
Enforcement, which conducted 20 percent less enforce-            revenue at the CFTC is primarily represented by fines,
ment investigations than the previous fiscal year due to         penalties, and forfeitures assessed and levied against busi-
declining staffing levels due to the hiring freeze that was in   nesses and individuals for violations of the CEA. Other
effect for most of FY 2007 throughout the Commission.            non-exchange revenues include registration, and filing and
                                                                 appeal fees, as well as general receipts. The statement of
Goal Three is representative of efforts to ensure market
                                                                 custodial activity reflects total non-exchange revenue
integrity. In FY 2007, the Goal Three net cost of operations
                                                                 collected (cash collections) of $12.4 million and a transfer
was $28.5 million, a decrease of 5.8 percent. Productivity
                                                                 of the collections to the Treasury in the same amount.
improvements achieved through the use of an audit
software tool helped to offset some of the reduction in          Historical experience has indicated that a high percentage
resources.   For example, staff resources were able to           of custodial receivables prove uncollectible. The method-
complete three major reviews of self-regulatory organiza-        ology used to estimate the allowance for uncollectible
tion and derivatives clearing organization compliance            amounts related to custodial accounts is that custodial
programs. As futures markets become more global in               receivables are considered 100 percent uncollectible unless
nature, the Commission is increasingly called upon to            otherwise noted in the judgment. An allowance for uncol-
register overseas clearinghouses, to approve complex cross-      lectible accounts has been established and included in
border trading and clearing linkages, and to perform effec-
                                                                 Accounts Receivable on the balance sheet. The allowance
tive ongoing supervision. This requires the Commission
                                                                 is based on past experience in the collection of accounts
to invest resources in developing and maintaining effective
                                                                 receivables and analysis of outstanding balances. Accounts
relationships with foreign regulatory authorities.
                                                                 are re-estimated quarterly based on account reviews and
                                                                 determination that changes to the net realizable value are
Statement of Budgetary Resources
                                                                 needed. The re-estimate can cause wide swings in the state-
This statement provides information about the provision          ment line that reports Change in Accounts Receivable.
of budgetary resources and its status as of the end of the
year.   Information in this statement is consistent with
budget execution information and the information
reported in the Budget of the U. S. Government, FY 2007.




32      CFTC
                       Management Assurances




                                                                                                                   Inf
                                                                                         on




                                                                                                                     or
                                                                                        ati




                                                                                                                        ma
                                                                                      ic
                                                                                    un




                                                                                                                          tio
                                                                                  mm




                                                                                                                             n&
                                                                                  Co




                                                                                                                             Co
                                                                             n&




                                                                                                                                  mm
Management Overview                                              Monitoring is the assessment of internal control perfor-



                                                                            tio




                                                                                                                                   un
                                                                        ma




                                                                                                                                    ica
                                                                 mance to ensure the internal control processes are properly
                                                                       or
T




                                                                                                                                       tio
     he CFTC is committed to management excellence and                Inf




                                                                                                                                         n
                                                                 executed and effective.
     recognizes the importance of strong financial systems
and internal controls to ensure accountability, integrity,       Information and Communication ensures the agency’s
and reliability. This operating philosophy has permitted         control environment, risks, control activities, and perfor-
the Commission to make significant progress in document-         mance results are communicated throughout the agency.
ing and testing its internal controls over financial reporting
for next year, as prescribed in OMB Circular A-123, Man-                                     Internal Control Process
agement’s Responsibility for Internal Control. The graph be-
low depicts all five components of the internal control pro-
cess that must be present in an organization to ensure an
                                                                                                                   Inf
                                                                                            n
                                                                                        tio




                                                                                                                     or
effective internal control process.
                                                                                       ica




                                                                                                                        ma
                                                                                                   MONiTORiNG
                                                                                       un




                                                                                                                         tio
                                                                                   mm




Control Environment is the commitment to encourage                                                                        n&
                                                                                  Co




                                                                                                                               Co
                                                                              &




the highest level of integrity and personal and professional                                    CONTROL ACTiViTiES                mm
                                                                             on




                                                                                                                                    un
                                                                            ati




                                                                                                                                       ica
                                                                        rm




standards, and promotes internal control through leader-                                                                                tio
                                                                         o
                                                                      Inf




                                                                                                                                            n
ship philosophy and operation style.                                                             RiSk ASSESSMENT

Risk Assessment is the identification and analysis of risks
                                                                                            CONTROL ENViRONMENT
associated with business processes, financial reporting,
technology systems, and controls and legal compliance in
the pursuit of agency goals and objectives.
                                                                 The Commission relies on its performance management
Control Activities are the actions supported by manage-
                                                                 and internal control framework to:
ment policies and procedures to address risk, e.g., perfor-
mance reviews, status of funds reporting, and asset man-         ■	    Ensure that its divisions and mission support offices
agement reviews.                                                       achieve their intended results efficiently and effectively;
                                                                       and                         MONiTORiNG


                                                                 ■	    Ensure the maintenance
                                                                                    CONTROLand   use of reliable, complete,
                                                                                              ACTiViTiES
                                                                       and timely data for decision-making at all levels.

                                                                                                 RiSk ASSESSMENT

                                                                                                                          CFTC               33
                                                                                            CONTROL ENViRONMENT
The Commission strongly believes that the rapid                    Statement of Assurances
implementation of audit recommendations is essential
                                                                   The Statement of Assurance is required by the Federal Man-
to improving its operations. Integration of Commission
                                                                   agers’ Financial Integrity Act (FMFIA) and OMB Circular
strategic, budget, and performance data permits manage-
                                                                   A-123, Management’s Responsibility for Internal Control. The
ment to make individual assurance statements with
                                                                   assurance is for internal controls over operational effective-
confidence. Moreover, data-driven reporting provides the
                                                                   ness (we do the right things to accomplish our mission)
foundation for Commission staff to monitor and improve
                                                                   and operational efficiency (we do things right).
its control environment.



                                                    Statement of Assurance

     “CFTC management is responsible for establishing and maintaining effective internal control and financial management
     systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). The CFTC conducted its
     assessment of the internal control over effectiveness and efficiency of operations, and compliance with applicable laws
     and regulations, in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based
     on the results of this evaluation, the CFTC can provide reasonable assurance that its internal control over operations,
     and compliance with applicable laws and regulations, as of September 30, 2007 was operating effectively and no
     material weaknesses were found in the design or operation of the internal controls.

     In addition, the CFTC conducted its assessment of the effectiveness of internal control over financial reporting,
     which includes safeguarding of assets and compliance with applicable laws and regulations, in accordance with the
     requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the CFTC can provide
     reasonable assurance that its internal control over financial reporting as of June 30, 2007 was operating effectively and
     no material weaknesses were found in the design or operation of the internal control over financial reporting.”




                                                                        Walter L. Lukken
                                                                        Acting Chairman

                                                                        November 15, 2007



During FY 2007, in accordance with the FMFIA, and using                 permit the preparation of accounts and reliable finan-
the guidelines of OMB, the Commission reviewed key                      cial and statistical reports and to maintain account-
components of its management and internal control                       ability over assets;
system.
                                                                   ■	   All programs are efficiently and effectively carried out
The objectives of the Commission’s internal controls are to             in accordance with applicable laws and management
provide reasonable assurance that:                                      policy;

■	   Obligations and costs are in compliance with appli-           ■	   Management has plans and a process to continue
     cable laws;                                                        assessing controls in accordance with OMB Circular A-
                                                                        123, Appendix A; and
■	   Assets are safeguarded against waste, loss, unauthor-
     ized use, or misappropriation;                                ■	   Management has a process in place to assure prompt
                                                                        and proper implementation of corrective actions to
■	   Revenues and expenditures applicable to Commission
                                                                        resolve deficiencies in internal controls, including
     operations are properly recorded and accounted for to
                                                                        material weaknesses.



34        CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The efficiency of the Commission’s operations is continu-        ■	   Accounting for leases and knowledge of accounting prin-
ally evaluated using information obtained from reviews                ciples. CFTC now recognizes lease expense, for rental of
conducted by the Government Accountability Office                     its various office spaces, on a straight-line basis, as
(GAO) and the Office of Inspector General (OIG), specifi-             required under GAAP. CFTC restated its FY 2005 finan-
cally   requested    studies,   or   observations   of   daily        cial statements.     The Commission resolved these
operations.                                                           findings by 1) configuring its new accounting system to
                                                                      recognize lease expense on a straight-line basis; 2)
These reviews ensure that the Commission’s systems and
                                                                      holding training on Federal Accounting Standards; and
controls comply with the standards established by FMFIA.
                                                                      3) enhancing the process used to review new leases or
Moreover, managers throughout the Commission are
                                                                      lease changes.
responsible for ensuring that effective controls are imple-
mented in their areas of responsibility. Individual assur-       ■	   Recording accruals and preparing financial statements.
ance statements from division and office heads serve as a             CFTC did not properly record the accounts payable,
primary basis for the chairman’s assurance that manage-               operating leases, subsequent cash disbursements, and
ment controls are adequate. The assurance statements are              undelivered orders.      CFTC improved its process to
based upon each office’s evaluation of progress made in               properly record its accruals when it migrated to its new
correcting any previously reported problems, as well as               accounting platform and began using an invoice
new problems identified by the OIG, GAO, other manage-                workflow application. This component of the material
ment reports, and the management environment within                   weakness was revised and repeated as a significant
each office.                                                          deficiency. It will be resolved in Fiscal Year 2008.

Commission organizations that have material weaknesses
are required to submit plans for correcting those weak-          Summary of Non-Conformances (FMFIA § 4)
nesses. The plans, combined with the individual assurance
                                                                 The Commission declared no systems nonconformance
statements, provide the framework for continually moni-
                                                                 under FMFIA, during FY 2007. The independent auditors’
toring and improving the Commission’s management and
                                                                 report for FY 2006 disclosed one instance of noncompli-
internal controls.
                                                                 ance that was required to be reported under Government
                                                                 Audit    Standards      and   OMB      Bulletin    07-04,    Audit
Summary of Material Weaknesses (FMFIA § 2)                       Requirements for Federal Financial Statements. The auditors
                                                                 disclosed noncompliance with the Federal Information
The Commission did not declare any material weaknesses
                                                                 Security Management Act (FISMA), noting continued
in FY 2007. Between FY 2006 and FY 2007, the Commission
                                                                 improvements were required with entity-wide security and
made significant improvements in addressing one declared
                                                                 contingency planning programs, access controls, segrega-
material weakness under FMFIA, in the area of financial
                                                                 tion of duties, and service continuity to fully meet guide-
reporting that hindered preparation of timely and accurate
                                                                 lines of the E-Government Act of 2002 and OMB Circular
financial statements, in FY 2006. The major impediments
                                                                 A-130, Management of Federal Information Resources. The
that faced the Commission covered the following areas:
                                                                 Commission took corrective actions between June 30,
■	   Establishing the custodial fines and interest receivable    2006 and June 30, 2007 that addressed the majority of the
     balance as well as estimating the allowance for loss on     concerns leading to the audit disclosure—in particular
     each receivable. The Commission migrated to a new           testing contingency plans, putting configuration manage-
     accounting system, and made enhancements to its case        ment plans into place, and implementing a formal enter-
     tracking processes and systems to resolve these             prise configuration control board.
     findings.




                                                                                                                   CFTC         35
             Forward Looking –
      Future Business Trends and Events

T
     he futures industry has undergone enormous growth            Commission will be required to confront the jurisdictional
     and change during the last 20 years—from the                 challenges created by innovation and the worldwide
products that are trading to the platforms on which they          creation and expansion of futures and option markets.
are traded. As the Commission looks ahead, it expects             These, coupled with a wide array of new surveillance issues,
technology, globalization, and innovation will continue to        are expected to significantly change the way the
drive growth in the markets it regulates.                         Commission uses and allocates resources across its perfor-
                                                                  mance goals.       From an operational perspective, the
As this period of rapid change continues, the Commission
                                                                  Commission will continue to allocate and deploy its
expects to lose most of its experienced career staff, primarily
                                                                  resources in less traditional ways as described below. As
through retirement, in the near future. During FY 2006,
                                                                  this process accelerates, the Commission seeks to trans-
the Commission experienced its first wave of these
                                                                  form itself along the following dimensions.
retirements.

From a resources perspective, the Commission has strug-           Technology
gled to operate at the level needed to do the job expected
                                                                  ■	   Technology continues to make it possible for market
of it by Congress, the Administration, and the American
                                                                       participants to trade globally, 24 hours a day, on newly
people. The Commission finds itself repeatedly having to
                                                                       designed platforms. This presents a challenge to the
make difficult choices about how it will use its limited
                                                                       Commission to maintain a robust, yet flexible, regula-
resources to fulfill its statutory mission.
                                                                       tory framework as market participants have an
It is anticipated that Commission efforts will be scaled               increasing number of choices available to them as to
back to the extent increased productivity cannot offset                where, when, and how to trade.
anticipated resource reductions. As noted in the discussion
                                                                  ■	   The expansion of electronic trading continues to
of the net cost of operations, the Commission attempts to
                                                                       require an increase in Commission staff trained to carry
balance its investment in three strategic goals, each focusing
                                                                       out oversight of more technologically driven markets
on a vital area of regulatory responsibility. To continue to
                                                                       and self-regulatory systems.
be an effective regulator, the Commission will need to
place greater reliance on risk management approaches to           ■	   As electronic trading of commodity futures and option
supervision.    It will also continue to leverage needed               contracts on Commission-regulated exchanges becomes
systems and data maintained by other Federal agencies                  the norm, the Commission must continue to upgrade
and, wherever possible, by SROs. Moving forward, the                   its own technology and infrastructure so that it may



36      CFTC
                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     effectively discharge its statutory mandate of deterring   ■	   Presently, the Commission is developing a new Trade
     and preventing price manipulation and any other                 Surveillance System (TSS) to replace its older trade
     disruptions to the integrity of the markets the                 surveillance system that was designed for open outcry
     Commission regulates.                                           trading and has not been significantly upgraded since
                                                                     its inception in the mid-1980s.         TSS will give the
■	   The continuing shift of market volume to the electronic
                                                                     Commission the ability to discharge its statutory
     trading environment poses new data processing chal-
                                                                     mandate of deterring and preventing price manipula-
     lenges to the CFTC.      Because this medium allows
                                                                     tion and any other disruptions to the integrity of the
     exchanges to gather and transmit much more informa-
                                                                     markets the Commission regulates. Specifically, TSS
     tion about trading activity, the CFTC must increase its
                                                                     will enhance staff’s ability to effectively detect and deter
     overall capacity for processing and storage. In addition
                                                                     trade practice violations in a rapidly changing environ-
     to the significant increase in the amount of informa-
                                                                     ment, especially with respect to electronic trading data,
     tion being made available to the CFTC, there has been
                                                                     and will provide staff with greater efficiency and flexi-
     a large increase in the number of contracts being
                                                                     bility. Trade violation detection software will perform
     traded. Therefore, to meet these challenges, the Office
                                                                     sophisticated pattern recognition and data mining to
     of Information and Technology Services (OITS) will
                                                                     automate basic trade practice surveillance, and detect
     continue to improve its computational performance. A
                                                                     novel and complex abusive practices in today’s high-
     variety of projects are underway that address specific
                                                                     speed, high-volume global trading environment. TSS
     CFTC business needs using the data and market infor-
                                                                     also will fill a vacuum in inter-market surveillance that
     mation the Commission receives.
                                                                     only the Commission can address, e.g., New York
■	   Commission work continued on Project eLaw, an effort            Mercantile Exchange (NYMEX) and Chicago Board of
     that provides law office automation and moderniza-              Trade (CBOT) metals contracts, and side-by-side
     tion to the Commission’s Division of Enforcement,               trading, e.g., simultaneous trading of a contract on a
     Office of the General Counsel (OGC), and Office of              DCM’s floor and the DCM’s electronic trading
     Proceedings.   Project eLaw is a Commission-wide                platform.
     initiative that seamlessly integrates technology and
     work processes to support managers and staff across        Globalization

     the Commission in their investigation, trial and appel-    ■	   The continued globalization of the futures and option
     late work. In FY 2007, the eLaw project became a major          markets through electronic linkages, strategic alliances
     program supporting the Commission.            The case          and mergers, as well as increasing requests for the
     management solution (Practice Manager) was further              Commission to participate in U.S. government initia-
     customized to best meet the needs and evolving                  tives with economically important jurisdictions and to
     requirements of the users. This year saw the program            provide technical assistance to developing markets
     pursuing the area of computer forensics and audio               requires additional experienced staff to meet these
     analytics to further support the Division of Enforcement        demands.
     with their investigation and litigation work. The eLaw
     program will continue to support the Commission’s          ■	   In such an integrated global marketplace, the possi-
     legal practice in the areas of case planning, case              bility of market disruptions caused by economic
     management,     litigation   support,   and   document          changes, terrorism, epidemics, natural disasters or
     management.                                                     political developments could trigger global market
                                                                     systemic concerns. Because no one regulator will have
■	   In FY 2008, the Commission will continue to maintain,           all of the needed information or jurisdiction over
     support, and enhance the eLaw solution and consider             markets, firms, and persons to ensure customer and
     expansion into other areas of the Commission that               market protections, the Commission’s challenge will
     would benefit from the automated technology.                    be to coordinate with global regulators.




                                                                                                                  CFTC         37
Marketplace                                                     Information Technology

■	   Development and growth of renewable energy sources         ■	   Technology improvements will continue to empower
     (i.e., biofuels) could impact existing energy markets.          the Commission in the future by increasing the avail-
                                                                     ability of its most critical resource—time.     Through
■	   Disruption of oil exports to the United States may
                                                                     these improvements, executive management may spend
     disrupt energy markets.
                                                                     additional time on policy analysis and decision-making
■	   A significant portion of the power grids may be disabled        rather than on the processing and compiling of key
     for an extended period of time, crippling markets.              data.   The Commission will increasingly leverage
                                                                     business processes, services, and systems of larger
■	   Changes in the structure of the futures and options             agencies for internal operations, while externally
     industry, such as the conversion of exchanges from              relying more on exchange databases when conducting
     member-owned entities to publicly-owned corpora-                reviews and investigations.
     tions, exchange mergers, and the introduction of new
     and novel contracts will mean that the Commission          Human Capital
     will require more staff to review novel and increasingly
                                                                ■	   Human capital management with an enhanced stra-
     complex legal and regulatory issues.
                                                                     tegic focus continues to emphasize building the staff
■	   Convergence of products and markets requires                    resources necessary to core business lines, with support
     increased interagency coordination with the SEC and             requirements met through the use of leveraged
     the Federal Energy Regulatory Commission to address             resources and competitive sources of service.
     areas of mutual interest related to cross-jurisdictional
                                                                ■	   Competition to hire and retain staff is intense in a job
     issues, such as those presented by credit event products
                                                                     market where scarce mission-critical skills command
     and commodity exchange-traded funds, and potential
                                                                     premium compensation levels. Even at “pay parity”
     manipulation in the energy markets, respectively.
                                                                     salaries, the Commission must continually seek to
■	   Expansion of these markets results in strong competi-           improve the work environment so it can continue to
     tion for employees with the skills the Commission               attract, engage, and retain a workforce that is equal to
     requires to meet its mission, continually challenging           the evolving challenges of market oversight.
     the agency to offer competitive compensation.
                                                                Management
Government
                                                                ■	   Compliance with the future demands and uncertainties
■	   Congress could pass new legislation impacting the               of Homeland Security Presidential Directives 12 and
     markets and the role of the Commission.                         20, as well as Pandemic Influenza preparedness.

■	   Congress might require an investigation of certain
     markets.

■	   Congress might not appropriate adequate funds for the
     Commission to effectively discharge its mission-critical
     functions.

■	   Prompt implementation of the confines of enhanced e-
     government business processes is a continual challenge
     within limited staff and financial resources.




38      CFTC
Inspector General’s FY 2007 Assessment




                                 CFTC   39
40   CFTC
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                            CFTC         41
    PERFORMANCE SECTION




Introduction to the Performance Section.................43

Strategic Goal One: Economic Utility....................44

Strategic Goal Two: Market Users and Public.........54

Strategic Goal Three: Industry...............................77
Introduction to the Performance Section

  This Section includes details of Commission efforts to meet its strategic and

  performance goals. The Commission scrutinizes performance measures to

  ensure that the metrics adequately challenge the programs to reach the

  desired results, ensure accountability, and provide information that can

  be used to make financial decisions and develop future budgets.
Strategic Goal One: Economic Utility


     Goal One: Ensure the economic vitality of the commodity futures and option markets.

     Outcome 1.1: Futures and option markets that accurately reflect the forces of supply
     and demand for the underlying commodity and are free of disruptive activity.

     Annual Performance Goal 1.1: No price manipulation or other disruptive activities that
     would cause loss of confidence or negatively affect price discovery or risk shifting.




44   CFTC
                                                                                       P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.1 Percentage Growth In Market Volume.


                                                       History of Results:       FY 2004 Actual           FY 2005 Actual      FY 2006 Actual

                                                                                      24%                     26%                     26%


FY 2007 Performance Results
                              100
                              90
                              80                                             	         Results:	    27%
        P E R C E N T A G E




                              70
                                                                             	   Measurement:	      Percentage
                              60
                              50                                             	          Status:		Effective
                              40
                              30
                                                                             	    Data Source:	     Exchanges’ trading volume data.
                              20
                                       25%         27%                       	     Verification:	   Exchange data is compared to FIA report.
                              10
                               0
                                       PLAN       ACTUAL
                                      FY 2007     FY 2007




Lead Program Office                                                              Performance Highlights
Division of Market Oversight (DMO)                                               Growth in the volume and complexity of trading in energy
                                                                                 futures markets, including trading in related OTC and
                                                                                 foreign markets, has been met by expanded data collec-
Performance Trends & Variations                                                  tion, enhanced information technology capabilities, more
Growth in the futures markets continued in FY 2007 with                          detailed analyses of transaction data, reassignment of
increased demand realized for products traded on the                             current economists to energy market surveillance, and
exchanges. The actual FY 2007 number is driven by changes                        additional hires of economists for energy market
in economic fundamentals, success of newly launched                              surveillance.
products, the number of new participants using these
markets, and other changes in the marketplace.


Data Source & Validation
Exchanges are required to submit trading volume data to
the Commission on a daily basis. This data is then stored
in a Commission database for use in market surveillance
analysis.

Exchange volume data is submitted to the Commission
electronically for each business day, subjected to a series of
edit and quality checks, and maintained in a central
database.                      The data is also compared to monthly data
published by the Futures Industry Association (FIA).




                                                                                                                                CFTC           45
  Performance Measure 1.1.2 Percentage of novel or innovative proposals or requests for CFTC action
  addressed within six months to accommodate new approaches to, or the expansion in, derivatives trading, enhance the
  price discovery process, or increase available risk management tools.

                                                    History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                  100%                    100%                    100%


FY 2007 Performance Results
                                100
                                                                          	         Results:	    100%
                                90    100%      100%
                                80                                        	   Measurement:	      Percentage
          P E R C E N T A G E




                                70
                                                                          	          Status:		Effective
                                60
                                50                                        	    Data Source:	     Formal filings and signed letter responses by
                                40                                                               the Commission.
                                30
                                20
                                                                          	     Verification:	   Formal filing and disposition dates maintained
                                                                                                 in internal tracking system.	
                                10
                                                                                                 	
                                 0
                                       PLAN     ACTUAL
                                      FY 2007   FY 2007




Lead Program Office                                                           Performance Highlights

Division of Market Oversight                                                  DMO was responsible for two particular actions that
                                                                              dramatically increased the availability of risk-management
                                                                              tools. On May 24, 2007, DMO issued a no-action relief to
Performance Trends & Variations                                               the Dubai Mercantile Exchange Limited (DME) to make its

DMO handled a number of proposals or requests for                             electronic trading and order matching system, DME Direct,

Commission action during the fiscal year that included                        available to DME members, and guaranteed customers in

newer approaches to derivatives trading or enhancements                       the United States without obtaining contract market desig-

to the price-discovery process. The items, which included                     nation or registration as a derivatives transaction execution

innovative products and exchange processes, were all                          facility pursuant to Sections 5 and 5a of the Act. The relief

addressed within six months of formal receipt.                                letter enabled U.S.-based traders to directly access DME’s
                                                                              products, including its Oman sour crude oil contract—the
                                                                              first physically-delivered, Middle East-based energy futures
Data Source & Validation                                                      contract ever to be offered by a futures exchange.

Supporting documentation is in the form of formal filings                     DMO also was responsible for the Commission’s issuance
with the Commission and signed letter responses by DMO                        of an order permitting NYMEX FBs and FTs subject to
or the Commission (upon DMO recommendation).                                  certain conditions to be considered eligible contract partic-
                                                                              ipants for the purposes of executing exempted transactions
DMO is able to calculate review time by consulting an
                                                                              under Section 2(h)(1) of the Act. The order, issued in
internal tracking system which reflects all formal filings
                                                                              response to a petition by NYMEX, enables FBs and FTs at
that are made with DMO, including filing and disposition
                                                                              that exchange to execute bilateral OTC energy transactions
dates.
                                                                              pursuant to the exemptive provisions of Section 2(h)(1) of
                                                                              the Act.




46       CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.3 Percentage increase in number of products traded.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                  12%                    36%                    25%


FY 2007 Performance Results
                              100                                        	         Results:	    20%
                              90
                                                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	     Exchanges submit data on trading volume,
                              40
                                                                                                open interest, delivery notices, exchange of
                                                                                                futures and prices for all products traded.
                              30
                              20                                         	     Verification:	   Data is validated by internal program edits
                              10              20%                                               and quality checks in central database.	
                                    10%                                                         	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office
                                                                             Data Source & Validation
Division of Market Oversight
                                                                             Exchanges are required to submit trading volume, open
                                                                             interest, delivery notices, exchange of futures, and prices to
Performance Trends & Variations                                              the Commission each business day for all products traded.
                                                                             This data is then stored in a Commission database for use
The growth in the number of new products offered on the
                                                                             in market surveillance analyses.
exchanges continued in FY 2007.                  The actual FY 2007
number is driven by customer demand for new products,                        The exchange data is submitted to the Commission elec-
exchange innovation, opportunities made available by the                     tronically for each business day, subjected to a series of edit
increasing use of electronic trading, and other changes in                   and quality checks, and maintained in a central database.
the marketplace. As such, these factors may not be foresee-
able with high precisions.
                                                                             Performance Highlights
                                                                             The number of products traded grew by approximately 20
                                                                             percent in FY 2007, as futures innovation of energy
                                                                             products, security futures products, and weather derivative
                                                                             products continued at a rapid pace.




                                                                                                                             CFTC           47
  Performance Measure 1.1.4 Percentage of new exchange or clearinghouse organization applications
  completed within expedited review period.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                 100%                   100%                    100%


FY 2007 Performance Results
                              100                                        	         Results:	    Not Applicable
                              90    100%
                                                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70                                         	          Status:	    Results Not Demonstrated
                              60
                              50                                         	    Data Source:	     New exchange(s) and DCO application(s).
                              40
                                                                         	     Verification:	   Filings and Actions automated database
                              30
                                                                                                tracks and calculates processing time from
                              20                                                                receipt date through to date of designation
                              10               N/A                                              or registration.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




                                                                             DCIO and DMO staff maintain files containing documen-
Lead Program Office
                                                                             tation related to the review of an application. The DCIO
Division of Clearing and Intermediary Oversight (DCIO)                       methodology for determining the statistic would be to
                                                                             tabulate the number of applications received and reviewed,
Division of Market Oversight
                                                                             determine the number that are completed within the expe-
                                                                             dited review period, and calculate the performance statistic.
Performance Trends & Variations                                              DMO staff use a database Filings and Actions (FILAC),
                                                                             which includes the date of receipt of the request for desig-
No exchange designation or DCO applications were filed
                                                                             nation as a contract market, stays in the review process,
in FY 2007. One exchange designation application was
                                                                             and the date of designation. The database automatically
filed in FY 2006, but the formal review of that contract
                                                                             calculates processing time.
market application was stayed by the applicant.


                                                                             Performance Highlights
Data Source & Validation
                                                                             Staff reviewed several draft filings by the applicant, which
Supporting documentation consists of the applications for
                                                                             had stayed its application, and provided feedback within
designation as a contract market, including all attachments
                                                                             weeks regarding areas still missing from the application, as
and supporting materials submitted by the applicant
                                                                             well as provided responsive feedback to other entities
related materials produced by the DCIO and DMO staff in
                                                                             working on draft applications.
reviewing the application, a memorandum to the
Commission, and the proposed order.




48     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.5 Percentage of new contract certification reviews completed within three months
  to identify and correct deficiencies in contract terms that make contracts susceptible to manipulation.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                  53%                    54%                     81%


FY 2007 Performance Results
                                                                         	         Results:	    82%
                              100
                              90                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70               82%                       	          Status:		Effective
                                    75%
                              60
                                                                         	    Data Source:	     Exchange certification filings, certified rule
                              50
                                                                                                amendments, and agency memoranda.
                              40
                              30                                         	     Verification:	   Filings and Actions automated database
                              20
                                                                                                tracks and calculates processing time from
                                                                                                receipt date through to date of designation
                              10
                                                                                                or registration.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          Data Source & Validation
Division of Market Oversight                                                 DMO staff maintain files containing exchange certification
                                                                             filings, including new contract certification filings and
                                                                             certified rule amendments to correct deficiencies in new
Performance Trends & Variations                                              contract certification filings, and DMO memoranda. DMO
In FY 2007, an unusually large proportion of new contract                    memoranda provide descriptions, analyses, and conclu-
certifications were for weather index contracts and security                 sions regarding compliance with the CEA and Commission
futures products. Those contracts typically are easier to                    regulations and policies. The FILAC database includes the
review than other contracts, and thus the percentage of                      receipt date of the new product certification and the date
completed reviews for contracts certified in FY 2007 was                     of DMO’s memorandum.              The database automatically
higher than anticipated.                                                     calculates processing time.

U.S. exchanges continued to innovate in FY 2007. In this
regard, the Chicago Mercantile Exchange (CME) requested                      Performance Highlights
approval of corporate credit event options and a credit
                                                                             Commission staff completed reviews of more than 500
index event contract. The U.S. Futures Exchange (USFE)
                                                                             new contract certifications; approved three corporate credit
and HedgeStreet certified binary options on mergers and
                                                                             event options; approved the North American Investment
acquisitions, and HedgeStreet certified binary options on
                                                                             Grade High Volatility Credit Index Event futures contract;
corporate earnings and corporate revenues. Each of those
                                                                             and identified contract design flaws in the NYMEX UxC
contracts raised issues with respect to the jurisdictional
                                                                             Uranium futures contract.
boundary between the CFTC and the SEC. It is reasonable
to expect that exchanges will continue to introduce novel
and complex products in the future.




                                                                                                                              CFTC           49
  Performance Measure 1.1.6 Percentage of rule change certification reviews completed within three months,
  to identify and correct deficiencies in exchange rules that make contracts susceptible to manipulation or trading abuses
  or result in violations of law.
                                                    History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                   70%                    84%                    86%


FY 2007 Performance Results
                                                                          	         Results:	    82%
                              100
                              90                                          	   Measurement:	      Percentage
                              80
                                    85%
        P E R C E N T A G E




                              70                82%                       	          Status:		Effective
                              60
                                                                          	    Data Source:	     Exchange certification filings and agency
                              50
                                                                                                 memoranda.
                              40
                              30                                          	     Verification:	   Filings and Actions automated database
                              20
                                                                                                 tracks and calculates processing time from
                                                                                                 receipt date through to date of DMO
                              10
                                                                                                 memorandum.	
                               0                                                                 	
                                     PLAN      ACTUAL
                                    FY 2007    FY 2007




                                                                              understaffed relative to the volume of reviews it is required
Lead Program Office
                                                                              to accomplish. Therefore, the Division must prioritize its
Division of Market Oversight                                                  rule amendment reviews regarding contracts with very low
                                                                              trading volume. It is not reasonable to expect that the
                                                                              performance will improve significantly in the absence of
Performance Trends & Variations
                                                                              an increase in staffing, which can not occur in the current
The percentage of product rule amendment certification                        budget environment.
reviews completed within three months of receipt by the
Commission decreased over last year. This slight drop in
                                                                              Data Source & Validation
performance is the result of several factors. A significant
number of rule amendments associated with new product                         DMO staff maintain files containing exchange certification
certifications were complex or lacked sufficient supporting                   filings and DMO memoranda. Those DMO memoranda
data/information. Thus, Division staff either waited for                      provide descriptions, analyses, and conclusions regarding
data/information from the relevant exchange or sought to                      compliance with the CEA and Commission regulations.
obtain the data/information from other sources. Because                       The FILAC database includes the receipt date of the certifi-
there is no statutory deadline for the reviews, there is no                   cation filing and the date of DMO’s memorandum. The
way to “stop the clock” while waiting for the necessary                       database automatically calculates processing time.
data/information.                   In addition, a few rule amendment
reviews were the result of a staff member retirement several
years ago. Visibility of his projects was lost until the FILAC
                                                                              Performance Highlights
tracking system was implemented. Those reviews were re-                       Commission staff completed reviews of 161 substantive
assigned to other staff and placed in their queues. Other                     product rule amendments and 195 substantive trading rule
rule amendment reviews were allowed to slip in favor of                       amendments.
more important matters. In this regard, the Division is




50     CFTC
                                                                                     P E RF O R M A N C E S E C T I O N




Outcome 1.2: Markets are effectively and efficiently monitored to ensure early warning of potential
problems or issues that could adversely affect their economic vitality.

Annual Performance Goal 1.2: To have an effective and efficient market surveillance program.




  Performance Measure 1.2.1 Percentage of derivative clearing organization applications demonstrating
  compliance with Core Principles.

                                                     History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                   100%                    100%                     N/A


FY 2007 Performance Results
                              100                                          	         Results:	    Not Applicable
                              90    100%
                                                                           	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70
                                                                           	          Status:	    Results Not Demonstrated
                              60
                              50                                           	    Data Source:	     New exchange(s) and DCO application(s)
                              40
                                                                                                  for registration.
                              30
                                                                           	     Verification:	   Agency files containing applications, staff
                              20                                                                  reviews, memoranda to the Commission
                              10               N/A                                                and proposed Orders.	
                               0                                                                  	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office
Division of Clearing and Intermediary Oversight                                DCIO staff maintain files containing supporting documen-
                                                                               tation related to the review of an application. The DCIO
                                                                               methodology for determining the statistic would be to
Performance Trends & Variations
                                                                               tabulate the number of applications received and reviewed
No applications for registration as a DCO were received in                     to determine that the applications demonstrated compli-
FY 2007.                                                                       ance with CEA Core Principles, and calculate the perfor-
                                                                               mance statistic.

Data Source & Validation
                                                                               Performance Highlights
Supporting documentation would consist of an applica-
tion for registration as a DCO, including all attachments                      None to report.
and supporting materials submitted by the applicant; and
related materials produced by DCIO staff in reviewing the
application, including a memorandum to the Commission
and proposed order.


                                                                                                                                 CFTC           51
  Performance Measure 1.2.2 Ratio of contracts surveilled per economist.


                                           History of Results:       FY 2004 Actual          FY 2005 Actual         FY 2006 Actual

                                                                           10                     11                     12


FY 2007 Performance Results
                    100                                          	         Results:	    13
                    90
                    80
                                                                 	   Measurement:	      Ratio
                    70
                                                                 	          Status:		Adequate
        R A T I O




                    60
                    50                                           	    Data Source:	     Exchanges submit data to the Commission
                    40                                                                  on all traded contracts, which are maintained
                                                                                        in the Commission’s database.
                    30
                    20                                           	     Verification:	   Data is validated by internal program edits
                    10
                           13         13                                                and quality checks in central database.	
                     0                                                                  	
                           PLAN     ACTUAL
                          FY 2007   FY 2007




Lead Program Office                                                  Data Source & Validation
Division of Market Oversight                                         Exchanges submit data to the Commission on all traded
                                                                     contracts. The individual contracts are grouped by under-
                                                                     lying commodity in a central database. This grouping is
Performance Trends & Variations                                      used in the adjustment of the number of contracts
The target ratio of contracts surveilled per economist is            surveilled by each economist.
above ideal levels. For this reason, an “Adequate” Status of         Exchanges submit data on all products traded to the
Performance Result has been selected in spite of the fact            Commission electronically for each business day. The data
that the actual number of contracts surveilled per econo-            is subject to a series of edit and quality checks and is main-
mist did meet expectations. To increase the efficiency of            tained in a central database. The total number of contracts
DMO’s surveillance efforts, similar contracts on the same            is extracted from this data. This number is then modified
underlying commodity are generally analyzed together.                by subtracting out individual contracts that are very similar
Even though the number of contracts increased during the             to and have the same underlying commodity as other
year, the increase was mostly due to additional products             contracts. The final number is then divided by the number
on existing commodities. These additional products may               of regional office economists.
not materially add to the economists’ surveillance burden.
Thus, they were not counted as distinct contracts for the
purpose of arriving at the relevant ratio.                           Performance Highlights
                                                                     The ratio of contracts surveilled per economist is too high
                                                                     to ensure full surveillance coverage of all futures markets.
                                                                     The efficiency and enthusiasm of surveillance economists
                                                                     are very high, but they are being stretched too thin, with
                                                                     consequential effects on morale and on the adequacy of
                                                                     surveillance coverage for some markets.



52     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 1.2.3 Percentage of contract expirations without manipulation.


                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                 99.9%                  99.9%                   99.9%


FY 2007 Performance Results
                              100
                                                                         	         Results:	    99.9%
                              90    99.9%     99.9%
                              80                                         	   Measurement:	      Percentage
        P E R C E N T A G E




                              70
                                                                         	          Status:	    Effective
                              60
                              50
                                                                         	    Data Source:	     Surveillance reports and large trader position
                              40                                                                reports.
                              30
                              20
                                                                         	     Verification:	   Economists daily track and monitor futures
                                                                                                expirations and economic fundamentals.	
                              10
                                                                                                	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          Economists track and monitor futures expirations and
                                                                             economic fundamentals on a daily basis. The large trader
Division of Market Oversight                                                 reporting system is also used to generate detailed surveil-
                                                                             lance reports of large trader positions going into expira-
Performance Trends & Variations                                              tion. Information on reportable traders’ positions is stored
                                                                             and kept in the system, and can be analyzed further
This measurement examines the number of contract expi-                       through its internally developed integrated surveillance
rations without manipulation compared to the total                           system.
number of futures and option expirations.                     The total
number of expirations may vary throughout the year as
different contracts enter and exit the market.                               Performance Highlights
                                                                             Surveillance of energy markets has been the greatest chal-
Data Source & Validation                                                     lenge during FY 2007. During this year, DMO has enhanced
                                                                             its data collection, information processing, and surveil-
The number of referrals to and from the Division of                          lance analyses to keep pace with the rapidly growing and
Enforcement, in conjunction with information and                             changing energy markets.        Special calls were issued to
evidence gathered internally by surveillance economists, is                  InterContinental Exchange to obtain daily large trader
used to find the number of expirations without manipula-                     reports on this OTC market. Daily NYMEX transaction
tions. The total number of futures and option expirations                    data started to be received and analyzed to detect possible
is retrievable from the database.                                            manipulative schemes. Software enhancements were made
                                                                             to Integrated Surveillance System (ISS) to better display
                                                                             and analyze positions in deferred futures months.




                                                                                                                              CFTC           53
Strategic Goal Two: Market Users and Public


       Goal Two: Protect market users and the public.

       Outcome 2.1: Violations of Federal commodities laws are detected and prevented.

       Annual Performance Goal 2.1: Violators have a strong probability of being detected
       and sanctioned.




  54   CFTC
                                                                            P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.1 Number of enforcement investigations opened during the fiscal year.


                                          History of Results:         FY 2004 Actual          FY 2005 Actual         FY 2006 Actual

                                                                           215                       131                  123


FY 2007 Performance Results
                                                                  	         Results:	    99
                    100
                    90               99                           	   Measurement:	      Number
                    80
                           85                                     	          Status:	    Effective
                    70
       N u m b er




                    60
                                                                  	    Data Source:	     Agency documentation and reports
                    50
                                                                                         maintained in the Practice Manager
                    40                                                                   litigation management system.
                    30
                    20
                                                                  	     Verification:	   Internal reports on investigations and
                                                                                         litigation documented and maintained
                    10
                                                                                         in internal Enforcement systems.	
                     0                                                                   	
                           PLAN     ACTUAL
                          FY 2007   FY 2007




Lead Program Office                                                   Data Source & Validation
Division of Enforcement                                               Internal Enforcement reports identify each of the litiga-
                                                                      tions and investigations opened during the fiscal year. Staff
                                                                      prepare opening reports for each Enforcement investiga-
Performance Trends & Variations                                       tion and litigation. These opening reports are recorded in
Performance target was met for FY 2007. Commencing in                 internal Enforcement systems (Practice Manager).
2002, the complexity of Commission’s investigations has
increased substantially over prior fiscal years (e.g., the            Performance Highlights
Commission’s investigation of alleged energy market
manipulation). As a result of these investigations, the               None to report.
complexity of the Commission’s cases filed and litigated
also has increased substantially since FY 2002.                 The
Commission’s FY 2007 Plan target for this performance
measure took into account both these factors and the
Division of Enforcement’s FTE constraints.




                                                                                                                       CFTC           55
  Performance Measure 2.1.2 Number of enforcement cases filed during the fiscal year.


                                                  History of Results:         FY 2004 Actual          FY 2005 Actual        FY 2006 Actual

                                                                                    83                       69                   38


FY 2007 Performance Results
                                                                          	         Results:	    41
                     100
                     90
                                                                          	   Measurement:	      Number
                     80
                                                                          	          Status:	    Effective
                     70
        N u m b er




                     60                                                   	    Data Source:	     Agency documentation and reports
                     50                                                                          maintained in the Practice Manager
                                                                                                 litigation management system.
                     40
                     30        40            41                           	     Verification:	   Final complaints for each litigation are
                     20                                                                          recorded in internal Enforcement system
                     10                                                                          and made public via the Commission’s
                      0
                                                                                                 Web site.	
                              PLAN        ACTUAL                                                 	
                             FY 2007      FY 2007




Lead Program Office                                                           Performance Highlights

Division of Enforcement                                                       Among the significant enforcement actions filed by the
                                                                              Commission during FY 2007 are the following: CFTC v.
                                                                              Amaranth Advisors, L.L.C., et al., No. ’07 CIV 6682 (S.D.N.Y.
Performance Trends & Variations                                               filed July 25, 2007) (charging attempted manipulation of
Performance target was met for FY 2007. Commencing in                         the price of natural gas futures contracts on NYMEX on
2002, the complexity of Commission’s investigations has                       February 24 and April 26, 2006, and making false state-
increased substantially over prior fiscal years (e.g., the                    ments to NYMEX to cover up this misconduct); CFTC v.
Commission’s investigation of alleged energy market                           Energy Transfer Partners, L.P., No. 3-07CV1301-K (N.D. Tex.
manipulation).             As a result of these investigations, the           filed July 26, 2007) (charging attempted manipulation of
complexity of the Commission’s cases filed and litigated                      the price of physical natural gas at the Houston Ship
also has increased substantially since FY 2002.                         The   Channel delivery hub during September and November
Commission’s FY 2007 Plan target for this performance                         2005); In re Marathon Petroleum Company, CFTC Docket
measure took into account both these factors and the                          No. 07-09 (CFTC filed Aug. 1, 2007) (finding that Marathon
Division of Enforcement’s FTE constraints.                                    Petroleum Company attempted to manipulate a price of
                                                                              spot cash West Texas Intermediate (WTI) crude oil deliv-
                                                                              ered at Cushing, Oklahoma on November 26, 2003, by
Data Source & Validation                                                      attempting to influence downward the Platts market assess-
                                                                              ment for spot cash WTI for that day); CFTC v. Parish, et al.,
Staff are required to submit all final filed, stamped copies
                                                                              No. 2:07-cv-01044-DCN (D.S.C. filed April 17, 2007)
of the complaint for each litigation. These complaints are
                                                                              (charging fraud in connection with an alleged pool with
recorded in internal Enforcement systems (Practice
                                                                              total value of approximately $134 million); and In re
Manager).
                                                                              Merrill Lynch Investment Managers, LLC, et al., CFTC Docket
                                                                              No. 07-08 (CFTC filed July 31, 2007) (finding that regis-
                                                                              tered CPOs repeatedly failed to distribute to pool partici-
                                                                              pants and file with the NFA their commodity pools’ annual
                                                                              reports in a timely manner).

56     CFTC
                                                                                             P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.3 Percentage of enforcement cases closed during the fiscal year in which the
  Commission obtained sanctions (e.g. civil monetary penalties, restitution and disgorgement, cease and desist orders,
  permanent injunctions, trading bans, and registration restrictions).

                                                           History of Results:         FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                            99%                    100%                  100%


FY 2007 Performance Results
                              100                                                  	         Results:	    100%
                              90                      100%
                                         95%                                       	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70                                                   	          Status:		Effective
                              60
                              50                                                   	    Data Source:	     Agency documentation and reports
                              40
                                                                                                          maintained in the Practice Manager
                                                                                                          litigation management system.
                              30
                              20                                                   	     Verification:	   Final orders for each litigation are
                              10                                                                          recorded in internal Enforcement system.	
                               0                                                                          	
                                         PLAN         ACTUAL
                                        FY 2007       FY 2007




Lead Program Office                                                                    Data Source & Validation

Division of Enforcement                                                                Enforcement results identify each litigation and litiga-
                                                                                       tion result obtained by the Division on behalf of the
                                                                                       Commission.
Performance Trends & Variations
                                                                                       Staff are required to submit all final orders for each litiga-
Performance target was met for FY 2007.                             During the         tion as part of closing activities for their files. These orders
FY 2007, the Division of Enforcement closed a total of                                 are recorded in internal Enforcement systems (Practice
63 enforcement cases. In each of these closed cases the                                Manager).
Commission obtained sanctions (e.g., civil monetary
penalties,                     restitution   and   disgorgement,    cease        and
desist orders, permanent injunctions, trading bans, and                                Performance Highlights
registration restrictions) against one or more of the                                  None to report.
respondents/defendants.




                                                                                                                                       CFTC           57
  Performance Measure 2.1.4 Cases filed by other criminal and civil law enforcement authorities during the
  fiscal year that included cooperative assistance from the Commission.

                                           History of Results:       FY 2004 Actual          FY 2005 Actual          FY 2006 Actual

                                                                           23                     23                       23


FY 2007 Performance Results                                      	         Results:	    24

                     30                                          	   Measurement:	      Number

                     25                                          	          Status:		Effective

                                      24
        N u m b er




                     20                                          	    Data Source:	     Copies of civil complaints, criminal
                            21                                                          information and indictments, and final
                     15                                                                 Orders submitted to the Commission by
                                                                                        cooperating authorities. Cooperative
                     10                                                                 enforcement matters are maintained in
                                                                                        the Practice Manager litigation
                     5                                                                  management system.

                     0                                           	     Verification:	   Final orders for each litigation recorded
                           PLAN     ACTUAL                                              in internal Enforcement system.	
                          FY 2007   FY 2007                                             	




Lead Program Office                                                  Data Source & Validation
Division of Enforcement                                              Copies of civil complaints, criminal information and
                                                                     indictments, and orders are collected by the Division of
                                                                     Enforcement’s Office of Cooperative Enforcement.
Performance Trends & Variations
                                                                     Staff and cooperating authorities submit final orders to the
Performance target was met for FY 2007. The Commission               Office of Cooperative Enforcement, which maintains a
believes that its performance in cooperative criminal and            database of all cooperative enforcement matters.                 In
civil enforcement was effective. During the rating period,           addition, pending cooperative enforcement matters are
the Division of Enforcement continued to devote signifi-             tracked through internal Enforcement systems (Practice
cant resources to cooperative enforcement with other                 Manager).
criminal and civil law enforcement authorities.

                                                                     Performance Highlights
                                                                     None to report.




58     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




Outcome 2.2: Commodity professionals meet high standards.

Annual Performance Goal 2.2: No unregistered, untested, or unlicensed commodity
professionals.




  Performance Measure 2.2.1 Percentage of self-regulatory organizations that comply with core principles.

                                                  History of Results:       FY 2004 Actual          FY 2005 Actual           FY 2006 Actual

                                                                                  100%                   100%                     100%


FY 2007 Performance Results
                             100                                        	          Results:	    100%
                             90    100%      100%
                                                                        	   Measurement:	       Percentage
                             80
       P E R C E N T A G E




                             70                                         	           Status:		Effective
                             60
                             50                                         	    Data Source:	      Agency reports and files from reviews and
                             40
                                                                                                analyses.
                             30
                                                                        	     Verification:	    Interviews, walk-through demonstrations,
                             20                                                                 empirical testing, and site visits of SROs
                             10                                                                 and FCMs.	
                              0                                                                 	
                                    PLAN     ACTUAL
                                   FY 2007   FY 2007




Lead Program Office                                                         DCIO also initiated an examination of the financial and
                                                                            sales practice program of a second DCM, during FY 2007.
Division of Clearing and Intermediary Oversight                             This examination is currently in progress. At this stage of
                                                                            the examination, DCIO has not identified any issues that
                                                                            would indicate a failure of the DCM’s program to satisfy
Performance Trends & Variations
                                                                            the relevant Core Principles and Commission regulations
Performance target was met for FY 2007. DCIO conducts                       and interpretations.
periodic, routine examinations of the financial and sales
                                                                            DCM Core Principle 11 provides, in relevant part, that a
practice programs of the SROs for the purpose of assessing
                                                                            DCM shall establish and enforce rules to ensure the finan-
the SROs’ compliance with relevant Core Principles and
                                                                            cial integrity of FCMs and the protection of customer
with Commission regulations and interpretations. During
                                                                            funds. DCIO and DCMs, in their capacity as SROs, receive
FY 2007, DCIO completed a review of the financial and
                                                                            and review monthly financial reports submitted by FCMs
sales practice oversight program of one DCM. Based upon
                                                                            for the purpose of assessing whether the FCMs are in
its review, DCIO concluded that the DCM’s program was
                                                                            compliance with the Commission’s and SROs’ minimum
consistent with the relevant Core Principles, and with
                                                                            financial requirements, including requirements relating to
Commission regulations and interpretations.
                                                                            the    safeguarding    of   customer        funds.   In   addition,




                                                                                                                                 CFTC         59
Commission regulations and SRO rules require an FCM to           For further verification of compliance oversight procedures,
file a notification with the Commission and its designated       DCIO staff also visit firms whose operations were reviewed
SRO whenever such FCM fails to meet its minimum capital          by the SRO during the SRO’s examination. Such reviews
or segregation requirement. DCIO’s review and analysis           include performing the same testing steps that the SRO
of FCM financial reports and notifications, including            conducted in its examinations of the firms. The results of
appropriate coordination with the SROs during FY 2007,           such DCIO testing are then compared to the workpapers of
demonstrated that the SROs were complying with Core              the SRO’s examination of the selected firms.
Principle 11.
                                                                 DCIO also reviews monthly financial reports submitted by
                                                                 FCMs for purposes of assessing whether the FCMs comply
Data Source & Validation                                         with the Commission’s and SROs’ minimum financial
                                                                 requirements, including requirements to properly safe-
Supporting documentation of DCIO’s assessment of SROs’
                                                                 guard customer funds.       DCIO further reviews notices
compliance with Core Principles is contained in reports
                                                                 submitted by an FCM stating that the firm is undercapital-
and work papers prepared by staff while carrying out the
                                                                 ized or undersegregated to assess whether the firm’s SRO
review and analyzing relevant SRO materials. Such docu-
                                                                 has taken appropriate measures to address the undercapi-
mentation is maintained in DCIO’s files.
                                                                 talization or undersegregation.
DCIO delivers a letter to the SRO requesting documents
                                                                 The methodology for collecting this statistic is based on
that reflect the systems, policies, procedures, practices, and
                                                                 ongoing oversight and planned reviews related to the afore-
internal controls implemented by the SRO. After reviewing
                                                                 mentioned areas for which the results could potentially
these materials, DCIO staff interview selected management
                                                                 indicate an SRO’s noncompliance with relevant Core
staff, followed by fieldwork at the SRO and a review of
                                                                 Principles   and   with   Commission      regulations    and
documents. The fieldwork at the SRO primarily consists of
                                                                 interpretations.
a walk-through demonstration. The purpose of the field-
work is to confirm DCIO’s understanding of the SRO’s
program and to provide reasonable assurance that it              Performance Highlights
operates in the manner represented.
                                                                 The completed review assessed the DCM’s financial and
The testing of execution of procedures is performed by           sales practice program, including staffing levels, conduct of
sample testing and documentation review. DCIO staff use          examinations of FCMs, conduct of financial statement
standard statistical techniques to size and select samples in    review, and disciplinary actions. DCIO concluded that the
the areas of disclosure documents, financial reports,            DCM’s program was consistent with the relevant Core
exemption and extension notices, compliance examina-             Principles and with Commission regulations and interpre-
tions, and sales practices. Samples are selected and tested      tations.
to facilitate an understanding of the operation of a process
or procedure in practice rather than to provide statistical
assurances.




60     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.2 Percentage of derivative clearing organizations that comply with core principles.

                                                   History of Results:       FY 2004 Actual            FY 2005 Actual          FY 2006 Actual

                                                                                 100%                       100%                    100%


FY 2007 Performance Results
                              100                                        	         Results:	       100%
                              90    100%      100%
                                                                         	   Measurement:	         Percentage
                              80
        P E R C E N T A G E




                              70
                                                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	        Documentation from DCOs under review;
                              40
                                                                                                   agency reports; and financial surveillance
                                                                                                   materials.
                              30
                              20                                         	     Verification:	      Statistical data is obtained through financial
                              10                                                                   surveillance and planned reviews.	
                               0                                                                   	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          Data Source & Validation
Division of Clearing and Intermediary Oversight                              Each of the DCOs under review submits extensive docu-
                                                                             mentation.         DCIO staff create extensive workpapers in
                                                                             conducting the reviews of DCOs. When the reviews are
Performance Trends & Variations
                                                                             complete, DCIO staff provide reports to the Commission.
Performance target was met for FY 2007.                     Reviews of       Files are maintained containing many of these materials.
compliance with certain Core Principles were completed at
                                                                             Financial surveillance materials are also maintained in
six DCOs. Reviews of five DCOs found them to be in
                                                                             files. Some of them are maintained on a DCIO shared
compliance with the Core Principles. One DCO was found
                                                                             drive called Financial Surveillance Home.              In addition,
to be in compliance with the Core Principles except that
                                                                             written reports are periodically prepared and kept on file.
further demonstration was deemed necessary in one
instance. No affirmative conclusion of noncompliance can                     A paper file is created for each DCO rule submission.
be made at this time.                                                        Typically, a staff memorandum is included in the file.

On a daily basis, DCIO staff conduct financial surveillance                  The methodology for collecting this statistic is based on
of DCOs and clearing members. Staff have identified no                       ongoing oversight and planned reviews related to the afore-
instances of noncompliance.                                                  mentioned areas for which the results potentially could
                                                                             indicate a DCO’s noncompliance with Core Principles.
During the past fiscal year, 73 rule submissions, many
containing multiple rules, were filed by DCOs under the
self-certification provisions of the Act. Staff reviewed each                Performance Highlights
of the submissions and found none that violated Core
                                                                             The reviews of six DCOs to determine compliance with
Principles.
                                                                             Core Principles represented the first comprehensive review
                                                                             of such entities since clearing organizations were required
                                                                             to register with the Commission under the CFMA and



                                                                                                                                 CFTC           61
became subject to the Commission’s oversight authority.       regarding DCO programs; 2) strengthened working rela-
DCIO chose to review multiple DCOs simultaneously             tionships with DCO staff; 3) established and strengthened
because this approach provided an opportunity to develop      relationships with settlement banks; 4) comparative
a deeper understanding of each DCO’s policies and prac-       process provided insights both for future oversight of
tices by comparing and contrasting them to the policies       DCOs and for DCIO’s financial surveillance program; 5)
and practices of other DCOs. As a result of this approach,    obtained verification of Stressing Positions at Risk (SPARK)
a number of benefits were derived, including the following:   stress test results by comparing to DCO results; and 6) the
1) established new baseline of knowledge for DCIO             process may serve as a template for future reviews.




62     CFTC
                                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.3 Percentage of professionals compliant with standards regarding testing, licensing,
  and ethics training.

                                                   History of Results:       FY 2004 Actual            FY 2005 Actual          FY 2006 Actual

                                                                                  100%                      100%                   100%


FY 2007 Performance Results
                              100
                                                                         	            Results:	    100%
                              90    100%      100%
                              80                                         	   Measurement:	         Percentage
        P E R C E N T A G E




                              70
                              60
                                                                         	             Status:		Effective
                              50
                                                                         	    Data Source:	        National Futures Association’s audit reports.
                              40
                              30                                         	     Verification:	      NFA audits and the agency’s ongoing
                              20                                                                   oversight of NFA’s compliance and
                                                                                                   registration programs.	
                              10
                                                                                                   	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          through subsequent follow-up activity for both FY 2006
                                                                             and FY 2007, NFA confirmed that with one exception, the
Division of Clearing and Intermediary Oversight
                                                                             cited firms came into compliance. NFA issued a complaint
                                                                             against this one firm in September 2007, and the matter is
Performance Trends & Variations                                              not yet resolved.

Performance target was met for FY 2007—100 percent of                        During FY 2007, DCIO completed two final and one
professionals were compliant with standards regarding                        proposed rulemaking related to registration of intermedi-
testing, licensing, and ethics training.                                     aries:

                                                                             ■	   17 CFR Part 3, Registration of Intermediaries, at 72 Fed.
Data Source & Validation                                                          Reg. 35918 (July 2, 2007) – Final amendments to regu-
                                                                                  lations; 17 CFR Part 3, Registration of Intermediaries,
The methodology for collecting this statistic is based on                         at 72 Fed. Reg. 20788 (April 26, 2007) – Proposed
information provided by NFA and DCIO’s ongoing over-                              amendments to regulations.
sight and examinations periodically conducted with respect
to NFA’s registration and compliance programs.                               ■	   17 CFR Part 3, Termination of APs and Principals, at 72
                                                                                  Fed. Reg. 45392 (August 14, 2007) – Proposed amend-
DCIO relies on information provided by NFA. In FY 2007,
                                                                                  ments to regulations.
NFA reported that, in 10 percent of the audits it completed,
it cited the firms in its audit report for failing to have                   ■	   17 CFR, Part 170, Membership in a Registered Futures
adequate ethics training procedures or failing to follow                          Association, at 72 Fed. Reg. 2614 (January 22, 2007) –
their procedures. In FY 2006, NFA reported that in 10                             Final amendments to regulations; 17 CFR Part 170,
percent of the audits it completed, it cited the firms in its                     Membership in a Registered Futures Association, at
audit report for failing to have adequate ethics training                         71 Fed. Reg. 64171 (November 1, 2006) – Proposed
procedures or failing to follow their procedures. However,                        amendments to regulations.




                                                                                                                                 CFTC           63
Performance Highlights
In January 2007, the Commission amended its regulations        By requiring NFA membership, then, this action protects
to require that all persons registered with the Commission     market users and the public. NFA audits its members, such
as FCMs must become and remain members of at least one         as FCMs, to detect and prosecute violations resulting from
registered futures association (RFA). Currently, NFA is the    their activities. By requiring NFA membership, this action
sole RFA, and it also is an SRO. This action was consistent    furthers the goal of there being no unregistered, untested
with the CFMA, which transformed the Commission’s role         or unlicensed commodity professionals.
to an oversight agency of, in the case of registration, NFA.




64     CFTC
                                                                                    P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.4 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.

                                                   History of Results:       FY 2004 Actual          FY 2005 Actual           FY 2006 Actual

                                                                                   100%                   100%                     100%


FY 2007 Performance Results
                              100
                                                                         	          Results:	    100%
                              90    100%      100%
                              80                                         	   Measurement:	       Percentage
        P E R C E N T A G E




                              70
                              60
                                                                         	           Status:		Effective
                              50
                                                                         	    Data Source:	      Agency reports and files from reviews and
                              40                                                                 analyses.
                              30
                              20                                         	     Verification:	    Interviews, walk-through demonstrations,
                                                                                                 empirical testing and site visits of DCOs.	
                              10
                                                                                                 	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          DCM Core Principle 11 provides, in relevant part, that a
                                                                             DCM shall establish and enforce rules to ensure the finan-
Division of Clearing and Intermediary Oversight
                                                                             cial integrity of FCMs and the protection of customer
                                                                             funds. DCIO and DCMs, in their capacity as SROs, receive
Performance Trends & Variations                                              and review monthly financial reports submitted by FCMs
                                                                             for the purpose of assessing whether the FCMs are in
Performance target was met for FY 2007. DCIO conducts                        compliance with the Commission’s and SROs’ minimum
periodic, routine examination of the financial and sales                     financial requirements, including requirements relating to
practice programs of the SROs for the purpose of assessing                   the    safeguarding    of   customer        funds.   In   addition,
the SROs’ compliance with relevant Core Principles, and                      Commission regulations and SRO rules require an FCM to
compliance with Commission regulations and interpreta-                       file a notification with the Commission and its designated
tions. During FY 2007, DCIO completed a review of the                        SRO whenever such FCM fails to meet its minimum capital
financial and sales practice oversight program of one DCM.                   or segregation requirement. DCIO’s review and analysis
Based upon its review, DCIO concluded that the DCM’s                         of FCM financial reports and notifications, including
program was consistent with the relevant Core Principles,                    appropriate coordination with the SROs during FY 2007,
and with Commission regulations and interpretations.                         demonstrated that the SROs were complying with Core
DCIO also initiated an examination of the financial and                      Principle 11.
sales practice program of a second DCM, during FY 2007.
This examination is currently in progress. At this stage of                  Data Source & Validation
the examination, DCIO has not identified any issues that
would indicate a failure of the DCM’s program to satisfy                     DCIO staff conduct risk-focused reviews of the financial
the relevant Core Principles and Commission regulations                      and sales practice oversight programs of SROs. Supporting
and interpretations.                                                         documentation is contained in the report and the workpa-




                                                                                                                                  CFTC         65
pers prepared by staff while carrying out the review and         DCIO also reviews monthly financial reports submitted by
analyzing relevant SRO materials. Such documentation is          FCMs for purposes of assessing whether the FCMs comply
maintained in DCIO’s files.                                      with the Commission’s and SROs’ minimum financial
                                                                 requirements, including requirements to properly safe-
DCIO delivers a letter to the SRO requesting documents
                                                                 guard customer funds.       DCIO further reviews notices
that reflect the systems, policies, procedures, practices, and
                                                                 submitted by an FCM stating that the firm is undercapital-
internal controls implemented by the SRO. After reviewing
                                                                 ized or undersegregated to assess whether the firm’s SRO
these materials, DCIO staff interview selected management
                                                                 has taken appropriate measures to address the undercapi-
staff, followed by fieldwork at the SRO and a review of
                                                                 talization or undersegregation.
documents. The fieldwork at the SRO primarily consists of
a walk-through demonstration. The purpose of the field-          The methodology for collecting this statistic is based on
work is to confirm DCIO’s understanding of the SRO’s             ongoing oversight and planned reviews related to the afore-
program and to provide reasonable assurance that it              mentioned areas for which the results potentially could
operates in the manner represented.                              indicate an SRO’s and NFA’s noncompliance with the
                                                                 requirement to enforce their rules in accordance with
The testing of execution of procedures is performed by
                                                                 applicable Core Principles and Commission regulations
sample testing and documentation review. DCIO staff use
                                                                 and interpretations.
standard statistical techniques to size and select samples in
the areas of disclosure documents, financial reports,
exemption and extension notices, compliance examina-             Performance Highlights
tions, and sales practices. Samples are selected and tested
                                                                 The completed review assessed the DCM’s financial and
to facilitate an understanding of the operations of a process
                                                                 sales practice program, including staffing levels, conduct of
or procedure in practice rather than to provide statistical
                                                                 examinations of FCMs, conduct of financial statement
assurances.
                                                                 review, and disciplinary actions. DCIO concluded that the
For further verification of compliance oversight procedures,     DCM’s program was consistent with the relevant Core
DCIO staff also visit firms whose operations were reviewed       Principles and with Commission regulations and interpre-
by the SRO. Such reviews include performing the same             tations.
testing steps that the SRO conducted in its examinations of
the firms.    The results of such DCIO testing are then
compared to the workpapers of the SRO’s examination of
the selected firms.




66     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.5 Percentage of total requests receiving CFTC responses for guidance and advice.


                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                  90%                       90%                  95%


FY 2007 Performance Results
                              100                                        	         Results:	    95%
                              90
                                     95%       95%                       	   Measurement:	      Percentage (rounded to nearest 5%)
                              80
        P E R C E N T A G E




                              70                                         	          Status:	    Effective
                              60
                              50                                         	    Data Source:	     Signed letters (formal) and email & telephone
                                                                                                responses (informal).
                              40
                              30                                         	     Verification:	   Agency files maintained in chronological
                              20                                                                files and responses to formal requests are
                              10                                                                published on Commission’s Web site.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          noted, however, that statistics on numbers of letters issued
                                                                             or email responses may not reflect the complexity of any
Division of Clearing and Intermediary Oversight                              particular matter or the resources necessary to address one
                                                                             issue versus another issue. In addition, matters commenced
Performance Trends & Variations                                              in one fiscal year may overlap into, and be completed
                                                                             during, a subsequent fiscal year, resulting in some impreci-
Performance target was met for FY 2007.                     DCIO staff       sion in statistical measures for a given year. DCIO staff
respond to numerous requests for guidance and advice on                      make every effort to respond to requests as quickly as
the CEA and Commission regulations each year. Requests                       possible, but the timeliness of a response also is affected by
are received from members of the public, market partici-                     the speed with which a requester provides additional infor-
pants, intermediaries, SROs, foreign entities, and others.                   mation sought by staff, and the length of time required by
These requests may be formal, such as written requests for                   other Commission divisions or offices to review a draft
no-action, interpretative, or exemption letters. DCIO also                   response, factors outside the control of DCIO.
receives numerous informal requests for guidance and
advice via email and phone calls.                                            Meeting the performance target was due, among other
                                                                             reasons, to the ever-increasing experience and familiarity
Although DCIO responds to all requests received, it is not                   of staff with the Act and the Commission’s regulations, and
always possible for DCIO to respond within the fiscal year                   to the use by requesters of electronic communications to
that it receives a request. Many of these requests are routine               more easily and readily present and supplement their
in nature and are responded to in a very short time frame,                   requests for guidance.
if not immediately. This is particularly true for many of
the requests that are received via email and phone calls.
Other requests that raise novel or complex issues, or
requests for formal DCIO responses in the form of no-
action letters, interpretations, or exemptions, take more
time to research and to prepare a response. It should be



                                                                                                                              CFTC           67
Data Source & Validation                                         for any violations of the Act or the Commission’s regula-
                                                                 tions committed by the foreign affiliate in connection with
Supporting documentation is in the form of responses to
                                                                 the latter’s handling of orders for these customers—
formal (by signed letter) and informal (by email and tele-
                                                                 including those orders executed by the affiliate and given
phone) requests for guidance and advice contained in
                                                                 up to another FCM. See Staff Letters 07-08, dated May 30,
DCIO’s files.
                                                                 2007, and 07-05, dated April 26, 2007, wherein DCIO
Responses to formal requests are posted on the Com-              issued this relief.
mission’s Internet Web site and are maintained by hard
                                                                 DCIO also issued two general letters of broad application
copy in DCIO’s chronological files; responses to non-
                                                                 providing guidance to registrants during FY 2007. The first
routine, informal requests similarly are recorded by hard
                                                                 letter provided guidance to CPOs on complying with the
copy and maintained in DCIO’s chronological files. The
                                                                 financial reporting requirements set forth in Part 4 of the
methodology for collecting these statistics is to compare
                                                                 Commission’s regulations.    The letter assisted CPOs in
the files of requests received with responses sent and to
                                                                 meeting their regulatory requirements by highlighting
calculate the performance statistic.
                                                                 recent regulatory changes affecting the financial filings
                                                                 required of CPOs, and identified common deficiencies
Performance Highlights                                           observed in prior year financial filings. This letter was
                                                                 issued January 31, 2007, and is available on the Com-
In FY 2007, DCIO responded favorably to several requests         mission’s Web site.
for registration relief from foreign affiliates of U.S.-regis-
tered FCMs, such that those affiliates were permitted to         The second letter was addressed to all FCMs and provided
introduce institutional U.S. customers to any registered         information to assist the FCMs in meeting their obligation
FCM for trading on U.S. commodity futures and option             under the Act and Commission regulations to prepare and
markets without having to register with the CFTC as, e.g.,       to file an audited annual financial report with the
an IB. To ensure that these affiliates met high standards in     Commission and with their designated SROs. This letter
conducting this activity and to protect the investing public,    was dated February 8, 2007, and is available on the
DCIO conditioned this relief on the registered FCM of a          Commission’s Web site.
foreign affiliate agreeing to be jointly and severally liable




68     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




Outcome 2.3: Customer complaints against persons or firms registered under the Act are handled
effectively and expeditiously.

Annual Performance Goal 2.3: Customer complaints are resolved within one year from the date
filed and appeals are resolved within six months.




  Performance Measure 2.3.1(a) Percentage of filed complaints resolved within one year of the filing date for
  Voluntary Proceedings.


                                                   History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                  67%                    100%                  71%


FY 2007 Performance Results
                              100
                                                                         	         Results:	    100%
                              90              100%
                              80                                         	   Measurement:	      Percentage
        P E R C E N T A G E




                              70
                              60
                                                                         	          Status:		Effective
                              50
                                                                         	    Data Source:	     Reparations case tracking system and
                              40    50%                                                         Judgment Officer Disposition report.
                              30
                              20
                                                                         	     Verification:	   Weekly and monthly reports and statistics
                                                                                                submitted by Judgment Officer.	
                              10
                                                                                                	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




                                                                             Prior to FY 2007, data for the voluntary, summary and
Lead Program Office
                                                                             formal proceedings were combined, with a goal of
Office of Proceedings                                                        completing all proceedings within one year of the date the
                                                                             complaint was received. In FY 2007, the performance goal
                                                                             was re-examined and revised to provide goals and results
Performance Trends & Variations
                                                                             for each of the different types of proceedings. The change
A claim of any size can be adjudicated through the volun-                    reflects the impact of the time required to correct complaint
tary proceeding if all complainants and respondents                          deficiencies, prepare and submit documentary evidence,
consent to use this approach and if the complainant                          and prepare for the hearings, as well as the complexity of
submits the required $50 filing fee.                    All evidence is      the cases.
submitted in writing and there is no oral hearing. The
                                                                             The voluntary proceedings tend to take less time because,
decision issued by the Judgment Officer (JO) is final and is
                                                                             given the non-appealable nature of the proceedings and
not appealable.
                                                                             the more informal nature of the resolution process, the
                                                                             parties are more inclined to settle and the proceeding
                                                                             completed through a review of written documentation.




                                                                                                                             CFTC           69
The summary and formal proceedings take more time              sections: complaints and hearings. The data and informa-
because of the evidentiary and hearing requirements of the     tion collected in the Complaints Section consist of the
proceedings; the summary tend to take slightly longer, in      number of cases pending the first of the month, the
part because more parties are pro se. A variety of other       number of cases received during the month, the number of
factors can affect the length of the proceeding, including     cases disposed of in complaints, and the number of cases
motions for extensions of time and stays pending payment       pending at the end of the month. The data and informa-
of penalties agreed to in settlement.                          tion collected for the Hearings Section consist of the
                                                               number of cases pending with an ALJ or JO at the begin-
In FY 2007, 100 percent of the voluntary proceeding
                                                               ning of the month, the number of cases assigned during
complaints were resolved in one year or less from the date
                                                               the month, including remands, reassignments, and
of filing, demonstrating that complaints heard in the
                                                               motions to vacate, the number and type of cases disposed
voluntary forum were processed and resolved in a timely
                                                               of during the month, and the number of cases pending
and efficient manner.     Voluntary proceedings typically
                                                               with each ALJ and JO at the end of the month.
conclude more quickly because a final decision is issued
after all written submissions are received; there is no oral   The data can be verified and validated by the reports and
hearing.                                                       statistics that the presiding officer submits on a monthly
                                                               basis. A monthly report is prepared on the reparations
                                                               cases pending one year or more.       Weekly reports are
Data Source & Validation
                                                               prepared for the executive director and a monthly report is
The reparations case tracking system generates reports that    prepared and submitted to the chairman.         The latter
provide the total number of cases decided by fiscal year,      includes monthly and yearly statistics regarding repara-
the date that each case was received, the date of the          tions and administrative enforcement cases.
decision, the number of processing days, and decision type.
There is also a report that provides the same information
by separating the data by administrative law judge (ALJ) or    Performance Highlights
JO and fiscal year. These reports are used to provide the
                                                               In FY 2007, 100 percent of the voluntary proceeding cases
statistical information for the performance measure.
                                                               were resolved in one year. This accomplishment supports
The Office of Proceedings uses “Repcase,” the integrated       the outcome measure, objective, and goal being addressed
computerized case tracking system, to collect, maintain,       because it demonstrates that all the voluntary proceeding
and analyze performance information for each reparations       cases are being resolved in one year or less from the date
case. The reparations case reports are separated into two      of filing.




70     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.1(b) Percentage of filed complaints resolved within one year and six months of the
  filing date for Summary Proceedings.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                  50%                    52%                   66%


FY 2007 Performance Results
                              100
                                                                         	         Results:	    50%
                              90
                              80                                         	   Measurement:	      Percentage
        P E R C E N T A G E




                              70
                                                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	     Reparations case tracking system and
                              40    50%       50%                                               Judgment Officer Disposition report.
                              30
                              20
                                                                         	     Verification:	   Weekly and monthly reports and statistics
                                                                                                submitted by Judgment Officer.	
                              10
                                                                                                	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office
                                                                             In FY 2007, 50 percent of the summary proceeding
Office of Proceedings                                                        complaints were resolved in one year and six months. The
                                                                             results show that the remaining 50 percent of the cases
                                                                             took longer than a year and six months to process and
Performance Trends & Variations
                                                                             resolve, due in part to the retirement of one of the two JOs
If the complainant does not select the voluntary proceeding                  at the end of FY 2006. The other JO assumed the retiring
and the claim amount is $30,000 or less, the complainant                     JO’s case load, which contributed to the length of time
must select the summary proceeding and submit a $125                         required to process the cases. In addition, some of the
filing fee. In the summary proceeding process, evidence is                   cases took more than one year and six months to process
submitted in writing and an oral hearing may be held by                      because of parties’ non-compliance with deficiency letters,
telephone. The decision by the JO is appealable to the                       delays in submitting required documents, requests for
Commission and, ultimately, to the U.S. Court of Appeals.                    extensions of time, and other processing and review factors.
                                                                             The Commission plans to assess procedures and the
As explained in Performance Measure 2.3.1(a) above, the
                                                                             amount of time it takes to process the complaints from
Commission previously measured all cases together, with a
                                                                             time of receipt to the date of the decision to determine
goal of resolving all types of cases (voluntary, summary,
                                                                             what, if any, processes may be improved.
and formal) within one year of filing. However, because of
differences in the three decisional processes and the                        In resolving the summary proceeding complaints, the
external factors that can affect them, a new goal of resolving               targets cannot be arbitrarily set at a level at which achieve-
50 percent of summary complaints within one year and six                     ment is automatic because of the various external factors
months was set.                                                              involved in processing and resolving the complaints.




                                                                                                                             CFTC           71
Data Source & Validation
The reparations case tracking system generates reports that   number of cases pending with an ALJ or JO at the begin-
provide the total number of cases decided by fiscal year,     ning of the month, the number of cases assigned during
the date that each case was received, the date of the         the month, including remands, reassignments, and
decision, the number of processing days, and decision type.   motions to vacate, the number and type of cases disposed
There is also a report that provides the same information     of during the month, and the number of cases pending
by separating the data by ALJ or JO and fiscal year. These    with each ALJ and JO at the end of the month.
reports are used to provide the statistical information for
                                                              The data can be verified and validated by the reports and
the performance measure.
                                                              statistics that the presiding officer submits on a monthly
The Office of Proceedings uses “Repcase,” the integrated      basis. A monthly report is prepared on the reparations
computerized case tracking system, to collect, maintain,      cases pending one year or more.        Weekly reports are
and analyze performance information for each reparations      prepared for the executive director and a monthly report is
case. The reparations case reports are separated into two     prepared and submitted to the chairman.         The latter
sections: complaints and hearings. The data and informa-      includes monthly and yearly statistics regarding repara-
tion collected in the Complaints Section consist of the       tions and administrative enforcement cases.
number of cases pending the first of the month, the
number of cases received during the month, the number of
                                                              Performance Highlights
cases disposed of in complaints, and the number of cases
pending at the end of the month. The data and informa-        None to report.
tion collected for the Hearings Section consist of the




72     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.1(c) Percentage of filed complaints resolved within one year and six months of the
  filing date for Formal Proceedings.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual        FY 2006 Actual

                                                                                 100%                    79%                   78%


FY 2007 Performance Results
                              100                                        	         Results:	    90%
                              90
                                                                         	   Measurement:	      Percentage
                              80               90%
        P E R C E N T A G E




                              70
                                                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	     Reparations case tracking system and
                              40    50%                                                         Administrative Law Judges’ Disposition
                                                                                                reports.
                              30
                              20                                         	     Verification:	   Weekly and monthly reports and statistics
                              10                                                                submitted by Administrative Law Judges.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office
                                                                             In FY 2007, 90 percent of the formal proceeding complaints
Office of Proceedings                                                        were resolved in one year and six months. The results
                                                                             demonstrate that problem-free reparations complaints are
                                                                             being processed in an effective and efficient manner;
Performance Trends & Variations
                                                                             however, the length of time it takes to reach a decision after
The formal proceeding can be selected if the complainant                     a complainant files a complaint can vary substantially. The
does not select the voluntary proceeding and if the claim                    time that it takes to process and resolve this type of
amount is more than $30,000. The complainant must                            complaint depends upon, among other factors, the facts
submit a $250 filing fee. In addition to the submission of                   and complexity of the case; whether the parties are cooper-
documentary evidence, an oral hearing may be held in a                       ative in discovery and prepare and submit their evidence
location that is, to the extent possible, convenient to the                  quickly; whether any procedural disputes arise; and
parties. The decision is appealable to the Commission                        whether an oral hearing is required (and if so, when it can
and, ultimately, to the U.S. Court of Appeals.                               be scheduled.)     Pro se complainants and inexperienced
                                                                             attorneys also impact the amount of time it takes to process
As explained in Performance Measure 2.3.1(a) above, the
                                                                             this type of case. The Commission will assess the process
Commission previously measured all cases together, with a
                                                                             to determine if any improvements can be made that would
goal of resolving all types of cases (voluntary, summary,
                                                                             increase the percentage of formal complaints resolved
and formal) within one year of filing. However, because of
                                                                             within one year and six months from the date of filing.
differences in the three decisional processes and the
external factors that can affect them, a new goal of resolving               In resolving the formal proceeding complaints, the targets
50 percent of formal complaints within one year and six                      cannot be arbitrarily set at a level at which achievement is
months was set.                                                              automatic because of the various external factors that are
                                                                             involved in processing and resolving the complaints.




                                                                                                                            CFTC           73
Data Source & Validation
The reparations case tracking system generates reports,          number of cases pending with an ALJ or JO at the begin-
which provide the total number of cases that were decided        ning of the month, the number of cases assigned during
by fiscal year, the date that each case was received, the date   the month, including remands, reassignments, and
of the decision, the number of processing days, and              motions to vacate, the number and type of cases disposed
decision type. There is also another report that provides        of during the month, and the number of cases pending
the same information by separating the data by ALJ or JO         with each ALJ and JO at the end of the month.
and fiscal year. These reports are used to provide the statis-
                                                                 The data can be verified and validated by the reports and
tical information for the performance measure.
                                                                 statistics that the presiding officer submits on a monthly
The Office of Proceedings uses “Repcase,” the integrated         basis. A monthly report is prepared on the reparations
computerized case tracking system, to collect, maintain,         cases pending one year or more.        Weekly reports are
and analyze performance information for each reparations         prepared for the executive director and a monthly report is
case. The reparations case reports are separated into two        prepared and submitted to the chairman.         The latter
sections: complaints and hearings. The data and informa-         includes monthly and yearly statistics regarding repara-
tion collected in the Complaints Section consist of the          tions and administrative enforcement cases.
number of cases pending the first of the month, the
number of cases received during the month, the number of
                                                                 Performance Highlights
cases disposed of in complaints, and the number of cases
pending at the end of the month. The data and informa-           None to report.
tion collected for the Hearings Section consist of the




74     CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.2 Percentage of appeals resolved within six months.


                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                  35%                    46%                     46%


FY 2007 Performance Results
                                                                         	         Results:	    66%
                              100
                              90                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70                                         	          Status:		Effective
                              60
                                              66%                        	    Data Source:	     Opinions and orders issued by the
                              50
                                                                                                Commission.
                              40    50%
                              30                                         	     Verification:	   Final opinions and orders are posted on the
                              20
                                                                                                Commission’s Web site. Pending cases are
                                                                                                maintained by the Secretariat; status reports
                              10
                                                                                                are issued monthly.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office
                                                                             Performance Analysis & Review
Office of Proceedings
                                                                             OGC maintained its productivity from FY 2005 to FY 2006
                                                                             and anticipates exceeding its planned FY 2007 goal of 50
Performance Trends & Variations                                              percent, based on actual results through the first three
                                                                             quarters.    The increased number of cases resolved within
The performance of OGC under this measure is effective,
                                                                             six months resulted primarily from the disposition of
exceeding the goal for the year (5o percent of appeals
                                                                             matters through delegated authority.
resolved within six months) and substantially exceeding
the results for the two prior fiscal years. The performance
also is effective because OGC exceeded its goal despite                      Data Source & Validation
substantial constraints on its ability to control ultimate
                                                                             The principal supporting documentation consists of the
outcomes under this measure. Once an appeal is filed, its
                                                                             opinions and orders issued by the Commission.
resolution may be delayed by one or more appealing
parties, who may seek extensions of filing deadlines. After                  Apart from this documentation, which is posted on the
OGC staff review a case and make a recommendation to                         Commission’s Web site, the Office of Proceedings, OGC,
the Commission regarding its resolution, OGC no longer                       and the Secretariat maintain dockets on the status of
controls the case. The case rests with the commissioners                     pending cases. In addition, OGC prepares monthly reports
and their advisors, who face competing priorities. Finally,                  to the Commission on the status of cases. Performance
the performance of OGC this year particularly warrants                       data is validated as follows: the date of the notice of appeal
being deemed effective because the performance measure                       or other pleading bringing a matter before the Commission
was exceeded in a year when OGC lost approximately one-                      starts the six-month time period. The Commission’s order
third of its professional staff.                                             disposing of a matter stops the time period.




                                                                                                                              CFTC           75
Performance Highlights
In FY 2007, the Commission signaled the importance of
maintaining the user-friendly nature of the customer repa-
rations forum.

■	   The Commission vacated an initial decision that
     dismissed a claim because the pro se complainant did
     not file a detailed prehearing memorandum discussing
     issues of law. The Commission remanded the case for
     a hearing (Anderson v. Beach);

■	   The Commission exercised its rarely used authority to
     take sua sponte review of an initial decision to deter-
     mine whether sanctions imposed on the complainant
     and a respondent for deficient responses to a prehearing
     order constituted an abuse of discretion (Wade v.
     Chevalier).




76       CFTC
                                              P E RF O R M A N C E S E C T I O N




   Strategic Goal Three: Industry


Goal Three: Ensure market integrity in order to foster open, competitive, and
financially sound markets

Outcome 3.1: Clearing organizations and firms holding customer funds have sound
financial practices.

Annual Performance Goal 3.1: No loss of customer funds as a result of firms’
failure to adhere to regulations. No customers prevented from transferring funds
from failing firms to sound firms.




                                                                                   CFTC   77
 Performance Measure 3.1.1(a) Lost Funds: Number of customers who lost funds.


                                             History of Results:       FY 2004 Actual          FY 2005 Actual          FY 2006 Actual

                                                                              0                       0                      0


FY 2007 Performance Results
                      100                                          	         Results:	    0
                      90
                                                                   	   Measurement:	      Number
                      80
     N u m b er




                      70                                           	          Status:	    Effective
                      60
                      50                                           	    Data Source:	     Agency database for filing financial reports,
                                                                                          1-FR-FCM and FOCUS reports.
                      40
                      30                                           	     Verification:	   Exchanges’ daily trading data and FCMs’
                      20                                                                  financial filings are maintained in SPARK
                      10       0         0                                                and 1-FR data systems. 	
                       0                                                                  	
                             PLAN     ACTUAL
                            FY 2007   FY 2007




 Performance Measure 3.1.1(b) Lost Funds: Amount of funds lost.


                                             History of Results:       FY 2004 Actual          FY 2005 Actual          FY 2006 Actual

                                                                             $0                       $0                    $0


FY 2007 Performance Results
                      100                                          	         Results:	    $0
                       90
                                                                   	   Measurement:	      Dollars
                       80
      D O L L A R S




                       70                                          	          Status:	    Effective
                       60
                       50                                          	    Data Source:	     Agency database for filing financial reports,
                       40
                                                                                          1-FR-FCM and FOCUS reports.
                       30
                                                                   	     Verification:	   Exchanges’ daily trading data and FCMs’
                       20                                                                 financial filings are maintained in SPARK
                       10     $0        $0                                                and 1-FR data systems. 	
                        0                                                                 	
                             PLAN     ACTUAL
                            FY 2007   FY 2007




78   CFTC
                                                                 P E RF O R M A N C E S E C T I O N




Lead Program Office                                         DCIO conducts financial and risk surveillance activities to
                                                            closely monitor the operations of FCMs in possession of
Division of Clearing and Intermediary Oversight
                                                            customer funds.      These surveillance activities include
                                                            DCIO’s SPARK system, combined with required financial
Performance Trends & Variations                             warning notices from the FCMs and constant market
                                                            monitoring.
Performance target was met for FY 2007. No customers
who deposited funds with FCMs for trading on DCMs
experienced any losses during FY 2007, as a result of the   Data Source & Validation
FCM’s failure to adhere to Commission regulations.
                                                            Supporting documentation is contained in DCIO’s files
However, a registered FCM filed for bankruptcy protection
                                                            and the database maintained for filing 1-FR-FCM forms
in August 2007. DCIO is continuing to monitor the FCM’s
                                                            and FOCUS reports.
bankruptcy proceedings and, as of September 30, 2007, no
customers trading on DCMs have lost funds due to the        The methodology for collecting and maintaining the data
FCM’s bankruptcy.                                           to use to analyze and validate this item is part of the daily
                                                            procedures for handling the SPARK and 1-FR data systems.
FCMs are required to segregate customer funds for trading
                                                            The data is obtained from daily trading information
on DCMs in designated accounts with a bank, trust
                                                            obtained from the exchanges, combined with the periodic
company, clearing organization, or other FCM.      FCMs
                                                            financial filings of the FCMs.
holding funds for customers trading on non-U.S. contract
markets are required to comply with Part 30 of the
Commission’s regulations with respect to the custody of     Performance Highlights
the customers’ funds.
                                                            There were no losses of regulated customer funds due to
FCMs also are required to prepare daily calculations        firm failures or the inability of customers to transfer their
demonstrating compliance with the customer funds            funds from a failing firm to a sound firm in FY 2007 or
custody requirements. These calculations must be prepared   FY 2006.
by 12:00 noon demonstrating compliance as of the end of
business on the previous business day.




                                                                                                          CFTC       79
  Performance Measure 3.1.2 Number of rulemakings to ensure market integrity and financially sound markets.


                                          History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                           1                       3                    3


FY 2007 Performance Results
                     10                                         	         Results:	    1
                     9

                     8
                                                                	   Measurement:	      Number
                     7
                                                                	          Status:	    Effective
        N u m b er




                     6

                     5      6                                   	    Data Source:	     Code of Federal Regulations: proposed and
                     4
                                                                                       final amendments to regulations.
                     3
                                                                	     Verification:	   Proposed and final regulations are published
                     2                                                                 in the Federal Register and posted on the
                     1                                                                 Commission’s Web site.	
                     0
                                      1                                                	
                           PLAN     ACTUAL
                          FY 2007   FY 2007




Lead Program Office                                                 other actions or events have taken place. This also can
                                                                    account for a difference between the FY 2007 Plan and
Division of Clearing and Intermediary Oversight
                                                                    Actual.

                                                                    DCIO completed one rulemaking that effectively addressed
Performance Trends & Variations
                                                                    regulatory efforts to ensure market integrity and financially
Not meeting the FY 2007 performance target is not viewed            sound markets. This rulemaking, concerning limitations
as a performance deficiency. Unrelated to performance, a            on withdrawals of equity, was designed to help preserve
number of factors may contribute to not meeting the plan.           and enhance the required compliance by FCMs and IBs
The number of rulemakings to ensure market integrity and            with the Commission’s minimum financial requirements,
financial soundness is not a number that can be precisely           while strengthening protection of market participants and
predetermined. The final number of rulemakings is driven,           the public. The Commission may now, by written order,
in part, by changes in the marketplace, or in the structure         temporarily prohibit an FCM from carrying out equity
of exchanges, clearing organizations, and intermediaries            withdrawal transactions that could be detrimental to the
that operate within that marketplace. The number can be a           financial integrity of the FCM or could adversely affect its
function of what is needed to allow appropriate market              ability to meet customer obligations.
interrelationships to be maintained and to allow registered
entities to operate in the most efficient manner possible.
                                                                    Data Source & Validation
These factors may not be foreseeable at the time the perfor-
mance estimate is prepared. In addition, the need for a             DCIO staff maintain files of the supporting documentation
rulemaking may not be known or may not have reached a               related to the respective rulemakings. The methodology
decision-making point until further analysis, study, and            for collecting these statistics is by tabulating the number of




80     CFTC
                                                                P E RF O R M A N C E S E C T I O N




rulemakings for the fiscal year. In addition, proposed and
final regulations are published in the Federal Register and
are posted on the Commission’s Web site.

During FY 2007, DCIO completed one final rulemaking
related to FCM net capital:

■	   17 CFR Part 1, Limitations on Withdrawals of Equity
     Capital, at 72 Fed Reg. 1148 (January 10, 2007) – Final
     amendments to regulations.


Performance Highlights
The Commission completed a rulemaking amending its
regulations to provide that the Commission may, by
written order, temporarily prohibit an FCM from carrying
out equity withdrawal transactions that would reduce the
firm’s regulatory excess adjusted net capital by 30 percent
or more. The purpose of this rule amendment was to
provide the Commission with explicit authority to prevent
an FCM from transferring equity out of the FCM during a
financial emergency. The Commission’s order would be
based on the Commission’s determination that such with-
drawal transactions could be detrimental to the financial
integrity of the FCMs or could adversely affect their ability
to meet customer obligations.        The amendment also
provides that an FCM may file with the Commission a
petition for rescission of an order temporarily prohibiting
equity withdrawals from the FCM.




                                                                                                     CFTC   81
  Performance Measure 3.1.3 Percentage of clearing organizations that comply with requirement to enforce
  their rules.

                                                       History of Results:       FY 2004 Actual            FY 2005 Actual          FY 2006 Actual

                                                                                     100%                       100%                    100%


FY 2007 Performance Results
                                   100                                       	         Results:	       100%
                                   90    100%      100%
                                                                             	   Measurement:	         Percentage
                                   80
             P E R C E N T A G E




                                   70
                                                                             	          Status:		Effective
                                   60
                                   50                                        	    Data Source:	        Documentation from DCOs under review;
                                   40
                                                                                                       agency reports & files; and financial
                                                                                                       surveillance materials.
                                   30
                                   20                                        	     Verification:	      Statistical data is obtained through financial
                                   10                                                                  surveillance and planned reviews.	
                                    0                                                                  	
                                          PLAN     ACTUAL
                                         FY 2007   FY 2007




Lead Program Office                                                              Data Source & Validation
Division of Clearing and Intermediary Oversight                                  Each of the DCOs under review submits extensive docu-
                                                                                 mentation.         DCIO staff create extensive workpapers in
Performance Trends & Variations                                                  conducting the reviews of DCOs. When the reviews are
                                                                                 complete, DCIO staff provide reports to the Commission.
Performance target was met for FY 2007.                         Reviews of       Files are maintained containing many of these materials.
compliance with Core Principles were completed at six
DCOs. Reviews of five DCOs found them to be in compli-                           Financial surveillance materials are also maintained in
ance with the Core Principles. One DCO was found to be                           files. Some of them are maintained on a DCIO electronic
in compliance with the Core Principles except that further                       shared drive called Financial Surveillance Home. In addition,
demonstration was deemed necessary in one instance. No                           written reports are periodically prepared and kept on file.
affirmative conclusion of noncompliance can be made at                           A paper file is created for each DCO rule submission.
this time.                                                                       Typically, a staff memorandum is included in the file.
On a daily basis, DCIO staff conduct financial surveillance                      The methodology for collecting this statistic is based on
of DCOs and clearing members. Staff have identified no                           ongoing oversight and planned reviews related to the afore-
instances of noncompliance.                                                      mentioned areas for which the results potentially could
During the past fiscal year, 73 rule submissions, many                           indicate a DCO’s noncompliance with the requirement to
containing multiple rules, were filed by DCOs under the                          enforce its rules.
self-certification provisions of the CEA. Staff reviewed each
of the submissions and found none that violated CEA Core
Principles.




82     CFTC
                                                                   P E RF O R M A N C E S E C T I O N




Performance Highlights
The reviews of six DCOs to determine compliance with          a number of benefits were derived, including the following:
Core Principles represented the first comprehensive review    1) established new baseline of knowledge for DCIO
of such entities since clearing organizations were required   regarding DCO programs; 2) strengthened working rela-
to register with the Commission under the CFMA and            tionships with DCO staff; 3) established and strengthened
became subject to the Commission’s oversight authority.       relationships with settlement banks; 4) comparative
DCIO chose to review multiple DCOs simultaneously             process provided insights both for future oversight of
because this approach provided an opportunity to develop      DCOs and for DCIO’s financial surveillance program;
a deeper understanding of each DCO’s policies and prac-       5) obtained verification of SPARK stress test results by
tices by comparing and contrasting them to the policies       comparing to DCO results; and 6) the process may serve as
and practices of other DCOs. As a result of this approach,    a template for future reviews.




                                                                                                          CFTC       83
Outcome 3.2: Commodity futures and option markets are effectively self-regulated.

Annual Performance Goal 3.2: No loss of funds resulting from failure of self-regulated organiza-
tions to ensure compliance with their rules.




  Performance Measure 3.2.1 Percentage of intermediaries who meet risk-based capital requirements.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                 100%                   100%                    100%


FY 2007 Performance Results
                              100                                        	         Results:	    100%
                              90    100%      100%
                                                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70
                                                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	     Agency database for filing financial reports,
                              40
                                                                                                1-FR-FCM and FOCUS reports.
                              30
                                                                         	     Verification:	   Exchanges’ daily trading data and FCMs’
                              20                                                                financial filings are maintained in SPARK and
                              10                                                                1-FR data systems. 	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          Any FCM failing to meet the risk-based capital requirement
                                                                             must provide immediate notice to the Commission and to
Division of Clearing and Intermediary Oversight                              the firm’s designated SRO.        Furthermore, Commission
                                                                             regulations provide that any FCM that fails to meet
                                                                             minimum capital requirements, including the risk-based
Performance Trends & Variations
                                                                             capital requirement, must transfer all customer accounts
Performance target was met for FY 2007.                        The Act,      and immediately cease operating as an FCM until it can
Commission regulations, and SRO rules require FCMs to                        demonstrate compliance.
comply with minimum financial requirements and related
                                                                             The Commission and SROs monitor FCMs’ compliance
reporting requirements at all times.                    Included in the
                                                                             with the risk-based capital requirement through review of
minimum financial requirements is the Commission’s and
                                                                             monthly financial reports, regulatory notices, and the
SROs’ risk-based capital requirement.
                                                                             conduct of in-field examination.         DCIO also uses the
                                                                             SPARK system, combined with required financial warning
                                                                             notices and market monitoring, to closely monitor the
                                                                             financial condition of FCMs.




84     CFTC
                                                                   P E RF O R M A N C E S E C T I O N




Data Source & Validation                                      Performance Highlights
Supporting documentation is contained in DCIO’s files         DCIO staff reviewed all regulatory notices received from
and the database maintained for the filing of 1-FR-FCM        FCMs during FY 2007. This review included assessing each
forms and FOCUS reports.                                      firm’s actions to ensure that all firms that reported a failure
                                                              to maintain the minimum capital requirement either took
The methodology for collecting and maintaining the data
                                                              the necessary steps to bring themselves back into compli-
used to analyze and validate this item is part of the daily
                                                              ance or properly transferred their customers’ accounts to
procedures for handling the SPARK and 1-FR data systems.
                                                              other, adequately capitalized FCMs. DCIO staff reviewed
The data is obtained from daily trading information
                                                              approximately 2,700 FCM financial reports submitted
obtained from the exchanges combined with the periodic
                                                              during FY 2007 for compliance with the minimum finan-
financial filings of the FCMs.
                                                              cial requirements. DCIO staff also conducted examina-
                                                              tions of several FCMs during FY 2007 to assess the firms’
                                                              compliance with Commission and SRO capital rules.




                                                                                                             CFTC        85
  Performance Measure 3.2.2 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual           FY 2006 Actual

                                                                                   100%                  100%                    100%


FY 2007 Performance Results
                              100                                        	          Results:	   100%
                              90    100%      100%
                                                                         	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70
                                                                         	           Status:		Effective
                              60
                              50                                         	    Data Source:	     Documentation from SROs under review;
                              40
                                                                                                agency reports and files; and financial
                                                                                                surveillance materials.
                              30
                              20                                         	     Verification:	   SRO financial filings are maintained in
                              10                                                                SPARK and 1-FR data systems. 	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          DCM Core Principle 11 provides, in relevant part, that a
                                                                             DCM shall establish and enforce rules to ensure the finan-
Division of Clearing and Intermediary Oversight
                                                                             cial integrity of FCMs and the protection of customer
Division of Market Oversight
                                                                             funds. DCIO and DCMs, in their capacity as SROs, receive
                                                                             and review monthly financial reports submitted by FCMs
Performance Trends & Variations                                              for the purpose of assessing whether the FCMs are in
                                                                             compliance with the Commission’s and SROs’ minimum
Division of Clearing and Intermediary Oversight                              financial requirements, including requirements relating to
                                                                             the    safeguarding   of   customer      funds.   In    addition,
Perform-ance target was met for FY 2007. DCIO conducts
                                                                             Commission regulations and SRO rules require an FCM to
periodic, routine examination of the financial and sales
                                                                             file a notification with the Commission and its designated
practice programs of the SROs for the purpose of assessing
                                                                             SRO whenever such FCM fails to meet its minimum capital
the SROs’ compliance with relevant Core Principles and
                                                                             or segregation requirement. DCIO’s review and analysis
Commission regulations and interpretations.                       During
                                                                             of FCM financial reports and notifications, including
FY 2007, DCIO completed a review of the financial and
                                                                             appropriate coordination with the SROs during FY 2007,
sales practice oversight program of one DCM. Based upon
                                                                             demonstrated that the SROs were complying with Core
its review, DCIO concluded that the DCM’s program was
                                                                             Principle 11.
consistent with the relevant Core Principles, and with
Commission regulations and interpretations.
                                                                             Division of Market Oversight
DCIO also initiated an examination of the financial and
                                                                             DMO staff conduct rule enforcement reviews (RERs) of
sales practice program of a second DCM, during FY 2007.
                                                                             DCMs on a regular cycle to ensure that exchanges enforce
This examination is currently in progress. At this stage of
                                                                             their rules. CEA Core Principle 2 specifically requires that
the examination, DCIO has not identified any issues that
                                                                             exchanges monitor and enforce compliance with their
would indicate a failure of NYMEX’s program to satisfy the
                                                                             rules. DMO reviews exchange compliance with CEA Core
relevant Core Principles and Commission regulations and
                                                                             Principle 2 when it conducts an RER of an exchange’s trade
interpretations.



86     CFTC
                                                                     P E RF O R M A N C E S E C T I O N




practice surveillance program.     RERs also examine the        ments. The fieldwork at the SRO primarily consists of a
adequacy of an exchange’s market surveillance, audit trail,     walk-through demonstration. The purpose of the field-
disciplinary, and dispute resolution programs.        When      work is to confirm DCIO’s understanding of the SRO’s
DMO examines these programs, its review includes an             program and to provide reasonable assurance that it
analysis to ensure that an exchange is enforcing its rules      operates in the manner represented.
that relate to the particular program under review. During
                                                                The testing of execution of procedures is performed by
FY 2007, DMO completed a RER of the CME that included,
                                                                sample testing and documentation review. DCIO staff use
among other things, review of CME’s trade practice surveil-
                                                                standard statistical techniques to size and select samples in
lance program, including a detailed analysis of CME’s
                                                                the areas of disclosure documents, financial reports,
surveillance systems. The CME RER resulted in a report
                                                                exemption and extension notices, compliance examina-
that found that CME maintains an adequate trade practice
                                                                tions, and sales practices. Samples are selected and tested
surveillance program that includes the use of sophisticated
                                                                to facilitate an understanding of the operations of a process
surveillance systems.   DMO also initiated a review of
                                                                or procedure in practice rather than to provide statistical
CBOT’s market surveillance program, which is expected to
                                                                assurances.
be completed in early FY 2008. Although the CBOT RER
focused on market surveillance, market surveillance issues      For further verification of compliance oversight procedures,
sometimes directly relate to trade practice abuses. In FY       DCIO staff also visit firms whose operations were reviewed
2007, or shortly thereafter, DMO expects to issue a report      by the SRO during 2004. Such reviews include performing
of its combined RER of the Chicago Climate Futures              the same testing steps that the SRO conducted in its exami-
Exchange (CCFE), USFE, and HedgeStreet. These exchanges         nations of the firms. The results of such DCIO testing are
all contract with the NFA to perform trade practice surveil-    then compared to the workpapers of the SRO’s examina-
lance. In reviewing these exchanges’ trade practice surveil-    tion of the selected firms.
lance programs, DMO is carefully reviewing and analyzing
                                                                DCIO also reviews monthly financial reports submitted by
NFA’s automated surveillance system. Finally, in FY 2007,
                                                                FCMs for purposes of assessing whether the FCMs comply
DMO initiated an RER of NYMEX which includes, among
                                                                with the Commission’s and SROs’ minimum financial
other things, review of NYMEX’s market surveillance and
                                                                requirements, including requirements to properly safe-
trade practice surveillance programs.        Although the
                                                                guard customer funds.         DCIO further reviews notices
combined RER of CCFE, USFE, and HedgeStreet and the
                                                                submitted by an FCM stating that the firm is undercapital-
NYMEX RER are still in progress, staff have not identified
                                                                ized or undersegregated to assess whether the firm’s SRO
any material deficiencies.
                                                                has taken appropriate measures to address the undercapi-
DMO also conducts ongoing daily surveillance of all             talization or undersegregation.
exchanges to ensure that exchanges are enforcing their
                                                                The methodology for collecting this statistic is based on
rules.
                                                                ongoing oversight and planned reviews related to the afore-
                                                                mentioned areas for which the results could potentially
Data Source & Validation                                        indicate an SRO’s noncompliance with the requirement to
                                                                enforce its rules in accordance with applicable Core
Division of Clearing and Intermediary Oversight                 Principles and Commission regulations.

DCIO staff conduct risk-focused reviews of the financial
                                                                Division of Market Oversight
and sales practice oversight programs of SROs and NFA on
risk-based examination cycles. DCIO delivers a letter to        Each DCM that is the subject of an RER, and its third-party
the SRO, requesting documents that reflect the systems,         service provider, if applicable, submits extensive documen-
policies, procedures, practices, and internal controls imple-   tation during the course of RERs. DMO staff also create
mented by the SRO. After reviewing these materials, DCIO        workpapers during their analysis of submitted documenta-
staff interview selected management staff, followed by          tion. Exchange submissions and staff workpapers are orga-
performing fieldwork at the exchange and a review of docu-      nized and maintained in DMO files.



                                                                                                              CFTC       87
DMO also maintains a log of its exchange floor surveil-       Performance Highlights
lance and maintains trade practice investigation files that
include exchange trade data and staff’s analysis.             Division of Clearing and Intermediary Oversight

When initiating an RER, DMO sends a letter to the             The completed review assessed the DCM’s financial and
exchange requesting documents that reflect systems,           sales practice program, including staffing levels, conduct of
policies, procedures, and practices that relate to the CEA    examinations of FCMs, conduct of financial statement
Core Principles and programs under review. After reviewing    review, and disciplinary actions. DCIO concluded that the
the requested material, DMO staff conduct an on-site visit    DCM’s program was consistent with the relevant Core
that includes interviewing senior exchange officials and      Principles   and   with   Commission      regulations    and
reviewing files that demonstrate exchange staff’s use of      interpretations.
surveillance systems as part of the investigatory process.
The verification of procedures and adequacy of exchange       Division of Market Oversight
surveillance system is measure by determining whether the
                                                              DMO found in its CME RER report that CME maintains an
exchange initiated a sufficient number of investigations
                                                              adequate trade practice surveillance program to enforce its
given exchange volume, the adequacy of investigation, and
                                                              rules. In this regard, CME monitors all trading through a
the exchange’s success in bringing disciplinary actions.
                                                              combination of visual, video, and automated computer
The methodology for collecting this statistic is based on     surveillance, and conducts investigations capable of
ongoing oversight and planned RERs relating to the afore-     detecting violations of CME rules. DMO noted that since
mentioned areas for which the results potentially could       its last RER of CME’s trade practice surveillance program in
indicate a DCM’s noncompliance with the requirement to        2002, CME refined its automated surveillance systems and
enforce its rules.                                            developed a new tool to allow compliance staff to conduct
                                                              real-time surveillance of orders and trading on Globex,
                                                              CME’s electronic trading platform.




88      CFTC
                                                                                P E RF O R M A N C E S E C T I O N




Outcome 3.3: Markets are free of trade practice abuses.

Annual Performance Goal 3.3: Minimize trade practice abuses.




  Performance Measure 3.3.1 Percentage of exchanges deemed to have adequate systems for detecting trade
  practice abuses.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                 100%                   100%                    100%


FY 2007 Performance Results
                                                                         	         Results:	    100%
                              100
                              90    100%      100%                       	   Measurement:	      Percentage
                              80
                                                                         	          Status:		Effective
        P E R C E N T A G E




                              70
                              60                                         	    Data Source:	     Agency reports and files from reviews
                              50                                                                and analyses, and documentation from
                              40
                                                                                                exchanges subject to a rule enforcement
                                                                                                review.
                              30
                              20                                         	     Verification:	   Reviews and analysis of systems,
                              10                                                                procedures, policies, practices, and
                               0                                                                manuals. Reviews include site visits.	
                                     PLAN     ACTUAL                                            	
                                    FY 2007   FY 2007




Lead Program Office                                                          which is expected to be completed in early FY 2008.
                                                                             Although the CBOT RER focused on market surveillance,
Division of Market Oversight                                                 market surveillance issues sometimes directly relate to
                                                                             trade practice abuses. In FY 2007, or shortly thereafter,
                                                                             DMO expects to issue a report of its combined RER of the
Performance Trends & Variations
                                                                             CCFE, USFE, and HedgeStreet. These exchanges all contract
DMO staff conduct RERs of DCMs on a regular cycle that                       with the NFA to perform trade practice surveillance. In
includes review and analysis of systems for detecting trade                  reviewing these exchanges’ trade practice surveillance
practice abuses. During FY 2007, DMO completed an RER                        programs, DMO is carefully reviewing and analyzing NFA’s
of the CME that included, among other things, review of                      automated surveillance system. Finally, in FY 2007, DMO
CME’s trade practice surveillance program, including a                       initiated an RER of NYMEX which includes, among other
detailed analysis of CME’s surveillance systems. The CME                     things, review of NYMEX’s market surveillance and trade
RER resulted in a report that found that CME maintains an                    practice surveillance programs. Although the combined
adequate trade practice surveillance program that includes                   RER of CCFE, USFE, and HedgeStreet and the NYMEX RER
the use of sophisticated surveillance systems. DMO also                      are still in progress, staff have not identified any material
initiated a review of CBOT’s market surveillance program,                    deficiencies.




                                                                                                                           CFTC          89
Data Source & Validation
Each DCM that is subject of an RER, and its third-party           of investigations given exchange volume, the adequacy of
service provider, if applicable, submits extensive documen-       investigations, and the exchange’s success in bringing disci-
tation during the course of RERs. DMO staff also create           plinary actions.
workpapers during its analysis of submitted documenta-
                                                                  The methodology for collecting this statistic is based on
tion. Exchange submissions and staff workpapers are orga-
                                                                  RERs relating to review and evaluation of exchange systems
nized and maintained in DMO files.
                                                                  for detecting trade practice abuses.
When initiating an RER, DMO sends a letter to the
exchange requesting documents that reflect the systems,
                                                                  Performance Highlights
policies, procedures, and practices that relate to the CEA
Core Principles and programs under review. With respect           DMO found in its CME RER report that CME maintains an
to an exchange’s surveillance systems, DMO requested              adequate trade practice surveillance program to detect
copies of all manuals, procedures, and/or guidelines              trading abuses. In this regard, CME monitors all trading
relating to any automated surveillance system used by the         through a combination of visual, video, and automated
exchange in connection with trade practice surveillance.          computer surveillance, and conducts investigations capable
After reviewing the requested material, DMO staff conduct         of detecting violations of CME rules. DMO noted that
an on-site visit that includes interviewing senior exchange       since its last RER of CME’s trade practice surveillance
officials and reviewing files that demonstrate exchange           program in 2002, CME has refined its automated surveil-
staff’s use of surveillance systems as part of their investiga-   lance systems and has developed a new tool to allow
tory process. The verification of procedures and adequacy         compliance staff to conduct real-time surveillance of orders
of exchange surveillance systems is measured by deter-            and trading on Globex, CME’s electronic trading platform.
mining whether the exchange initiated a sufficient number




90      CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 3.3.2 Percentage of exchanges that comply with requirement to enforce their rules.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                 100%                    100%                    100%


FY 2007 Performance Results
                                                                         	         Results:	    100%
                              100
                              90    100%      100%                       	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70                                         	          Status:		Effective
                              60
                                                                         	    Data Source:	     Agency reports and files from reviews
                              50
                                                                                                and analyses, and documentation from
                              40                                                                exchanges subject to a rule enforcement
                              30                                                                review.
                              20
                                                                         	     Verification:	   Statistical data is obtained through financial
                              10
                                                                                                surveillance and planned reviews.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          DCM Core Principle 11 provides, in relevant part, that a
                                                                             DCM shall establish and enforce rules to ensure the finan-
Division of Clearing and Intermediary Oversight                              cial integrity of FCMs and the protection of customer
Division of Market Oversight                                                 funds. DCIO and DCM’s, in their capacity as SROs, receive
                                                                             and review monthly financial reports submitted by FCMs

Performance Trends & Variations                                              for the purpose of assessing whether the FCMs are in
                                                                             compliance with the Commission’s and SRO’s minimum

Division of Clearing and Intermediary Oversight                              financial requirements, including requirements relating to
                                                                             safeguarding customer funds. In addition, Commission
Perform-ance target was met for FY 2007. DCIO conducts                       regulations and SRO rules require an FCM to file a notifica-
periodic, routine examination of the financial and sales                     tion with the Commission and its designated SRO
practice programs of the SROs for the purpose of assessing                   whenever such FCM fails to meet its minimum capital or
the SROs’ compliance with relevant Core Principles, and                      segregation requirement.        DCIO’s review and analysis
compliance with Commission regulations and interpreta-                       of FCM financial reports and notifications, including
tions. During FY 2007, DCIO completed a review of the                        appropriate coordination with the SROs during FY 2007,
financial and sales practice oversight program of one DCM.                   demonstrated that the SROs were complying with Core
Based upon its review, DCIO concluded that the DCM’s                         Principle 11.
program was consistent with the relevant Core Principles
and with Commission regulations and interpretations.                         Division of Market Oversight

DCIO also initiated an examination of the financial and                      DMO staff conduct RERs of DCMs on a regular cycle to
sales practice program of a second DCM, during FY 2007.                      ensure that exchanges enforce their rules.            CEA Core
This examination is currently in progress. At this stage of                  Principle 2 specifically requires that exchanges monitor
the examination, DCIO has not identified any issues that                     and enforce compliance with their rules. DMO reviews
would indicate a failure of the DCM’s program to satisfy                     exchange compliance with CEA Core Principle 2 when it
the relevant Core Principles and Commission regulations                      conducts an RER of an exchange’s trade practice surveil-
and interpretations.                                                         lance program. RERs also examine the adequacy of an



                                                                                                                              CFTC           91
exchange’s market surveillance, audit trail, disciplinary,      DCIO delivers a letter to the exchange, requesting docu-
and dispute resolution programs. When DMO examines              ments that reflect the systems, policies, procedures, prac-
these programs, its review includes an analysis to ensure       tices, and internal controls implemented by the exchange.
that an exchange is enforcing its rules that relate to the      After reviewing those materials, DCIO staff interview
particular program under review. During FY 2007, DMO            selected management staff, followed by performing field-
completed an RER of the CME that included, among other          work at the exchange and a review of documents. The
things, review of CME’s trade practice surveillance program,    fieldwork at the exchange primarily consists of a walk-
including a detailed analysis of CME’s surveillance systems.    through demonstration. The purpose of the fieldwork is to
The CME RER resulted in a report that found that CME            confirm DCIO’s understanding of the exchange and to
maintains an adequate trade practice surveillance program       provide reasonable assurance that it operated in the
that includes the use of sophisticated surveillance systems.    manner represented.
DMO also initiated a review of CBOT’s market surveillance
                                                                The testing of execution of procedures is performed by
program, which is expected to be completed in early FY
                                                                sample testing and documentation review. DCIO staff use
2008. Although the CBOT RER focused on market surveil-
                                                                standard testing and documentation review. DCIO staff
lance, market surveillance issues sometimes directly relate
                                                                use standard statistical techniques to size and select
to trade practice abuses. In FY 2007, or shortly thereafter,
                                                                samples in the areas of financial reports and audits.
DMO expects to issue a report of its combined RER of the
                                                                Samples are selected and tested to facilitate an under-
CCFE, USFE, and HedgeStreet. These exchanges all contract
                                                                standing of the operation of a process or procedure in
with the NFA to perform trade practice surveillance. In
                                                                practice rather than to provide statistical assurances.
reviewing these exchanges’ trade practice surveillance
programs, DMO is carefully reviewing and analyzing NFA’s        For further verification of compliance oversight procedures,
automated surveillance system. Finally, in FY 2007, DMO         DCIO staff also visit firms whose operations are reviewed
initiated an RER of NYMEX which includes, among other           by the exchange.     Such reviews include performing the
things, review of NYMEX’s market surveillance and trade         same testing steps that the SRO conducts in its examina-
practice surveillance programs. Although the combined           tions of the firms. The results of such DCIO testing are
RER of CCFE, USFE, and HedgeStreet and the NYMEX RER            compared to the workpapers of the exchange’s examina-
are still in progress, staff have not identified any material   tion of the selected firms.
deficiencies.
                                                                DCIO also reviews monthly financial reports submitted by
DMO also conducts ongoing daily surveillance of all             FCMs for purposes of assessing whether the FCMs comply
exchanges to ensure that exchanges are enforcing their          with the Commission’s and SROs’ minimum financial
rules.                                                          requirements, including requirements to properly safe-
                                                                guard customer funds.         DCIO further reviews notices
                                                                submitted by an FCM stating that the firm is undercapital-
Data Source & Validation
                                                                ized or undersegregated to assess whether the firm’s SRO
                                                                has taken appropriate measures to address the undercapi-
Division of Clearing and Intermediary Oversight
                                                                talization or undersegregation.
DCIO staff conduct risk-focused reviews of the financial
                                                                The methodology for collecting the statistic is based on
and sales practice oversight programs of SROs. Supporting
                                                                ongoing oversight and planned reviews related to the afore-
documentation of DCIO’s assessment of exchanges
                                                                mentioned areas for which the results could potentially
complying with requirements to enforce their rules is
                                                                indicate an exchange’s noncompliance with the require-
contained in the report and the workpapers prepared by
                                                                ment to enforce its rules.
DCIO staff while carrying out the review and analyzing
relevant exchange’s materials.     Such documentation is
contained in DCIO’s files.




92       CFTC
                                                                    P E RF O R M A N C E S E C T I O N




Division of Market Oversight                                   Performance Highlights
Each DCM that is the subject of an RER, and its third-party
                                                               Division of Clearing and Intermediary Oversight
service provider, if applicable, submits extensive documen-
tation during the course of RERs. DMO staff also create        The completed review assessed the DCM’s financial and
workpapers during their analysis of submitted documenta-       sales practice program, including staffing levels, conduct of
tion. Exchange submissions and staff workpapers are orga-      examinations of FCMs, conduct of financial statement
nized and maintained in DMO files.                             review, and disciplinary actions. DCIO concluded that the
                                                               DCM’s program was consistent with the relevant Core
DMO also maintains a log of its exchange floor surveil-
                                                               Principles   and   with    Commission     regulations    and
lance and maintains trade practice investigation files that
                                                               interpretations.
include exchange trade data and staff’s analysis.

When initiating an RER, DMO sends a letter to the              Division of Market Oversight
exchange requesting documents that reflect systems,            DMO found in its CME RER report that CME maintains an
policies, procedures, and practices that relate to the CEA     adequate trade practice surveillance program to enforce its
Core Principles and programs under review. After reviewing     rules. In this regard, CME monitors all trading through a
the requested material, DMO staff conduct an on-site visit     combination of visual, video, and automated computer
that includes interviewing senior exchange officials and       surveillance, and conducts investigations capable of
reviewing files that demonstrate exchange staff’s use of       detecting violations of CME rules. DMO noted that since
surveillance systems as part of the investigatory process.     its last RER of CME’s trade practice surveillance program in
The verification of procedures and adequacy of exchange        2002, CME has refined its automated surveillance systems
surveillance system is measured by determining whether         and has developed a new tool to allow compliance staff to
the exchange initiated a sufficient number of investigations   conduct real-time surveillance of orders and trading on
given exchange volume, the adequacy of investigation, and      Globex, CME’s electronic trading platform.
the exchange’s success in bringing disciplinary actions.

The methodology for collecting this statistic is based on
ongoing oversight and planned RERs relating to the afore-
mentioned areas for which the results potentially could
indicate a DCM’s noncompliance with the requirement to
enforce its rules.




                                                                                                             CFTC       93
Outcome 3.4: Regulatory environment is flexible and responsive to evolving market conditions.

Annual Performance Goal 3.4: Rulemakings issued and requests responded to reflect the
evolution of the markets and protect the interests of the public.




  Performance Measure 3.4.1 Percentage of CFMA Section 126(b) objectives addressed.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual         FY 2006 Actual

                                                                                 100%                   100%                   100%


FY 2007 Performance Results
                              100
                                                                         	         Results:	    100%
                              90    100%      100%
                              80                                         	   Measurement:	      Percentage
        P E R C E N T A G E




                              70
                              60
                                                                         	          Status:		Effective
                              50
                                                                         	    Data Source:	     Agency reports, files, and documentation.
                              40
                              30                                         	     Verification:	   Formal MOUs or seriatim approvals are
                              20                                                                published in the Federal Register and
                                                                                                posted on the Commission’s Web site.	
                              10
                                                                                                	
                               0
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          tionally accepted standards, enhancing international super-
Executive Direction and Support                                              visory cooperation, and improving the quality and time-
                                                                             lines of international information sharing.

Performance Trends & Variations                                              These performance measures have been met by: 1) engaging
                                                                             in discussions with foreign regulators both on a bilateral
The Commission’s Office of International Affairs (OIA)                       basis and within Treasury’s country dialogues, on an “as
assists the Commission in formulating and implementing                       needed” basis to address regulatory issues, as well as by
its international policy. OIA’s activities track the objectives              carrying forward discussions with the Committee of
set forth in section 126(b) of the CFMA, which endorsed                      European Securities Regulators (CESR); 2) participating in
the Commission’s international activities and encouraged                     meetings     and   working      groups   organized     by      the
the Commission to continue to: 1) coordinate with foreign                    International Organization of Securities Commissions
regulatory authorities; 2) participate in international regu-                (IOSCO), and the Council of Securities Regulators of the
latory organizations and forums; and 3) provide technical                    Americas (COSRA); and 3) by organizing the annual
assistance to foreign governmental bodies. These efforts                     Commission training symposium and international regu-
are intended to facilitate cross-border transactions and the                 lators meeting, as well as by coordinating technical assis-
supervision of such transactions by developing interna-                      tance missions to foreign market authorities.




94      CFTC
                                                                                       P E RF O R M A N C E S E C T I O N




OIA can anticipate certain recurring activities such as                         Performance Highlights
participating in the IOSCO Technical Committee and its
                                                                                Coordination with foreign regulatory authorities
constituent working groups, participating in Treasury
country dialogues, and organizing the annual training                           ■	   MOU (November 17, 2006), between the CFTC and
seminar and international regulators’ meeting.                       Other           United Kingdom (U.K.) Financial Services Authority
international matters are event-driven, such as the need to                          (FSA) concerning consultation, cooperation and the
engage in bilateral discussions with a foreign regulator to                          exchange of information related to market oversight.
negotiate a market surveillance arrangement, or ad hoc in                            The MOU establishes a framework for the CFTC and
nature, such as requests for technical assistance.                    Even           FSA to share information that the respective authorities
within the recurring forums of IOSCO and COSRA, for                                  need to detect potential abusive or manipulative
example, market events may result in the development of a                            trading practices that involve trading in related
new task force project, which, if it affects Commission                              contracts on U.K. and U.S. derivatives exchanges.
regulatory interests, warrants Commission involvement.                               Sharing necessary information on linked markets will
                                                                                     provide the regulators with a more complete view of
To date, OIA has been able, within the limits of its staff
                                                                                     these markets for oversight purposes.
resources, to provide international coordination, represen-
tation and technical assistance at acceptable levels as                         ■	   CFTC Initiative with the CESR—Completed “frequently
approved by the chairman. However, the electronic inte-                              asked questions” document, which provides firms and
gration of global markets, cross-border mergers, market                              market users access to compliance-type questions and
alliances and requests by foreign entities for regulated                             answers.      This resource helps firms, exchanges, and
status under the CEA, as well as increasing calls on the                             market users to understand how to comply with local
CFTC to participate in Treasury-organized dialogues with                             rules and regulations, and thereby facilitate trans-
commercially important jurisdictions such as India and                               Atlantic business.
China, have led to increasing demands that are straining
                                                                                ■	   OIA participated in, and provided staff support to the
the capacity of OIA to provide adequate levels of interna-
tional coordination, representation and technical assis-                             chairman in meetings with various global market

tance services to and on behalf of the Commission.                                   authorities, including CESR, the French market regu-

Although these demands can be met by the additional staff                            lator, and European Union officials and industry repre-

resources allocated to OIA for FY 2009, the failure to fund                          sentatives. These meetings establish relationships and

these potential resources will make it unlikely that OIA                             provide a forum for raising and resolving regulatory

will be able to address the increasing demands resulting                             issues.

from the globalization of U.S. futures markets.                                 Participation in international regulatory organizations and
                                                                                forums

Data Source & Validation                                                        ■	   Participated in work projects of the IOSCO.                     Staff
                                                                                     participated actively in the standing committees on
OIA staff maintain files of supporting documentation
                                                                                     secondary markets and intermediaries, and provided
under key words that reflect the Section 126(b) topics.
                                                                                     support for the work of the standing committee on
Projects are also found in the Commission Secretariat’s file,
                                                                                     collective investments, which addressed issues such as
e.g., formal Memoranda of Understanding (MOUs) or
                                                                                     guidance on information sharing for cross-border
seriatim7 approvals of IOSCO documents, and published
                                                                                     market supervision, and electronic recordkeeping,
Federal Register notices. IOSCO projects are also contained
                                                                                     point of sale disclosure issue and hedge fund valuation,
in those final reports adopted by the IOSCO Technical
                                                                                     respectively, as well as on the IOSCO Implementation
Committee and published on the IOSCO Web site.
                                                                                     Task Force, which developed and encourages IOSCO’s


7
    Latin for “in a series” or “in order.” CFTC issues are approved seriatim; meaning issues are approved by the Commissioners in order of hierarchy, or
        time in office.




                                                                                                                                         CFTC          95
     member jurisdictions to undergo assisted assessment         ■	   International Symposium and Training Program on
     of compliance with the IOSCO Principles. These                   Regulation of Derivative Products, Markets, and
     projects help foster a higher level of global regulation.        Financial Intermediaries (October 2006) – This annual
                                                                      symposium, attended by over 70 participants from 27
■	   Participated    in     Treasury-organized      regulatory
                                                                      countries, allows the CFTC to share its experiences and
     dialogues—Participated in Treasury-led dialogues in
                                                                      exchange ideas concerning how derivatives regulators
     China and India, which support Treasury’s policy goals,
                                                                      can better meet new risks and challenges. This training
     and encourage foreign jurisdictions to foster conditions
                                                                      program will help facilitate cooperation and essential
     favoring access to products and market, as well as
                                                                      dialogue so that the CFTC may continue to ensure
     discussions under the North American Free Trade
                                                                      customer and market protections.
     Agreement (NAFTA). OIA staff also provide issues of
     concern to staff at Treasury in connection with             ■	   International Regulators Meeting (March 2007) –
     Treasury’s participation in the Financial Stability              Annual international regulators meeting held in
     Forum.                                                           conjunction with the FIA annual conference, brought
                                                                      together over 40 global regulators to address regulatory
Providing technical assistance
                                                                      challenges of a changing marketplace. Such meetings
■	   China – CFTC senior staff mission to the China                   allow regulators to identify issues of common concern
     Securities Regulatory Commission (CSRC) to provide               and to share ideas about different approaches to
     technical information relevant to the trading of finan-          address such issues.
     cial futures contracts. This technical assistance program
     supported the general policy goals of Treasury with
     respect to China’s currency.

■	   India – CFTC senior staff mission, funded by the U.S.
     Agency for International Development (USAID), to
     Mumbai, India (May 23-29, 2007) to provide technical
     assistance to the Forward Markets Commission (FMC).
     This technical assistance program, which follows the
     signing of a technical assistance arrangement between
     the CFTC and FMC, fosters ongoing cooperation
     between the CFTC and FMC. Domestic and foreign
     market participants benefit from developed markets
     that are financially sound and free from abusive
     practices.




96       CFTC
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 3.4.2 Number of rulemakings, studies, interpretations, and guidances to ensure market
  integrity and exchanges’ compliance with regulatory requirements.

                                           History of Results:       FY 2004 Actual          FY 2005 Actual        FY 2006 Actual

                                                                            6                      6                     20


FY 2007 Performance Results
                     30
                                                                 	         Results:	    19

                     25
                                                                 	   Measurement:	      Number

                                                                 	          Status:		Effective
        N u m b er




                     20

                                      19                         	    Data Source:	     Federal Register; proposed and final
                     15    18                                                           amendments to regulations; notices and
                                                                                        orders; and staff statements of guidance.
                     10

                                                                 	     Verification:	   Proposed and final regulations are published
                      5
                                                                                        in the Federal Register and posted on the
                                                                                        Commission’s Web site.	
                      0
                                                                                        	
                           PLAN     ACTUAL
                          FY 2007   FY 2007




Lead Program Office                                                  intermediaries to operate in the most efficient manner
                                                                     possible. These factors may not be foreseeable at the time
Division of Clearing and Intermediary Oversight                      the performance estimate is prepared. In addition, the
Division of Market Oversight                                         need for a rulemaking, study, interpretation, or guidance
                                                                     may not be known or may not have reached a decision-
                                                                     making point until further analysis and other actions or
Performance Trends & Variations
                                                                     events have taken place. This also can account for a differ-
Division of Clearing and Intermediary Oversight                      ence between the FY 2007 Plan and Actual.

DCIO completed a combined total of 10 rulemakings,                   Division of Market Oversight
studies, interpretations, and statements of guidance that
                                                                     The number of rulemakings, studies, interpretations,
addressed regulatory efforts to ensure market integrity and
                                                                     and statements of guidance is not a number that can be
exchanges’ compliance with regulatory requirements.
                                                                     forecasted precisely. The final number is driven, in part,
The number of rulemakings, studies, interpretations, and             by changes in the marketplace or in the operations of
statements of guidance to ensure market integrity and                exchanges that may not be foreseeable at the time the
exchanges’ compliance with regulatory requirements is                performance estimate is prepared.
not a number that can be precisely predetermined. The
final number of these combined statistics reported by
DCIO is driven, in part, by changes in the marketplace, or           Data Source & Validation
in the structure of the exchanges, clearing organizations,
                                                                     Division of Clearing and Intermediary Oversight
and intermediaries that operate within that marketplace.
The number can be a function of what is needed to allow              The supporting documentation is maintained in DCIO’s
appropriate market interrelationships to be maintained               files related to the respective rulemakings, studies, interpre-
and to allow the exchanges, clearing organizations, and              tations, and statements of guidance.




                                                                                                                     CFTC           97
DCIO staff maintain files of the supporting documentation        ■	   17 CFR Part 4, Electronic Filing of Notices of Exemption
related to the respective rulemakings, studies, interpreta-           and Exclusion Under Part 4 of the Commission’s regu-
tions, and statements of guidance. The methodology for                lations, at 72 Fed. Reg. 1658 (January 16, 2007) – Final
collecting these statistics is by tabulating the number of            amendments to regulations; 17 CFR Part 4, Electronic
such rulemakings, studies, interpretations, and statements            Filing of Notices of Exemption and Exclusion Under
of guidance for the fiscal year. In addition, proposed and            Part 4 of the Commission’s regulations, at 71 Fed. Reg.
final regulations are published in the Federal Register and,          60454 (October 13, 2006).
along with staff statements of guidance, are posted on the
                                                                 ■	   17 CFR Part 1, Limitations on Withdrawals of Equity
Commission’s Web site.
                                                                      Capital, at 72 Fed. Reg. 1148 (January 10, 2007) – Final
During FY 2007, DCIO completed the following rulemak-                 amendments to regulations.
ings, studies, interpretations, and statements of guidance:
                                                                 ■	   17 CFR Part 1, Financial Reporting Requirements for
■	   17 CFR Parts 1, 3, 4, 15 and 166, Exemption from                 Introducing Brokers, at 71 Fed. Reg. 67462 (November
     registration for certain foreign persons, at 72 Fed. Reg.        22, 2006) – Final amendments to regulations.
     15637 (April 2, 2007) – Proposed amendments to
     regulations.                                                Division of Market Oversight

■	   17 CFR Part 3, Registration of Intermediaries at 72 Fed.    DMO staff maintain files of the supporting documentation
     Reg. 35918 (July 2, 2007) – Final amendments to regu-       related to the referenced rulemakings and study. The meth-
     lations; 17 CFR Part 3, Registration of Intermediaries,     odology for collecting these statistics is by tabulating the
     at 72 Fed. Reg. 20788 (April 26, 2007) – Proposed           number of such rulemakings and studies for the fiscal year.
     amendments to regulations.                                  In addition, the referenced rulemakings and study were
                                                                 published in the Federal Register and posted on the
■	   17 CFR Part 3, Termination of APs and Principals, at 72     Commission’s Web site.
     Fed. Reg. 45392 (August 14, 2007) – Proposed amend-
     ments to regulations.                                       ■	   17 CFR Part 140 - Boards of Trade Located Outside of
                                                                      the United States and No-Action Relief From the
■	   17 CFR Part 4, Advertising by Commodity Pool                     Requirement To Become a Designated Contract Market
     Operators, Commodity Trading Advisors, and the                   or Derivatives Transaction Execution Facility, at 71 Fed.
     Principals Thereof, at 72 Fed. Reg. 8106 (February 23,           Reg. 64443 (November 2, 2006) – Final amendments
     2007) – Final amendments to regulations.                         to regulations.
■	   17 CFR Part 30, Foreign Futures and Options                 ■	   17 CFR Part 38 - Conflicts of Interest in Self-Regulation
     Transactions, at 72 Fed. Reg. 14413 (March 28, 2007)             and Self-Regulatory Organizations, at 72 Fed. Reg. 6936
     – Order.                                                         (February      14,   2007)   –   Final   amendments   to
■	   17 CFR Part 30, Foreign Futures and Options                      regulations.
     Transactions, at Fed. Reg. 50646 (September 4, 2007)        ■	   Staff Letter 07-02 dated March 6, 2007, granting no-
     – Order.                                                         action relief to permit the Tokyo Financial Exchange,
■	   17 CFR Part 170, Membership in a Registered Futures              Inc. (TFX), to make its electronic trading and order
     Association, at 72 Fed. Reg. 2614 (January 22, 2007) –           matching system, LIFFE CONNECT™, as well as its
     Final amendments to regulations; 17 CFR Part 170,                Application Program Interface, available to TFX
     Membership in a Registered Futures Association, at 71            members in the U.S. without obtaining contract
     Fed. Reg. 64171 (November 1, 2006) – Proposed                    market designation or registration as a derivatives
     amendments to regulations.                                       transaction execution facility pursuant to Sections 5
                                                                      and 5a of the Act.




98       CFTC
                                                                    P E RF O R M A N C E S E C T I O N




■	   17 CFR Part 38 Conflicts of Interest in Self-Regulation   Performance Highlights
     and Self-Regulatory Organizations, at 72 Fed. Reg.
     14051 (March 26, 2007) – Proposed amendments to           Division of Clearing and Intermediary Oversight
     regulations.
                                                               In February 2007, the Commission strengthened its regula-
■	   Staff Letter 07-06 dated May 24, 2007, granting no-       tions on advertising by CPOs, CTAs, and the principals
     action relief to permit the DME, to make its electronic   thereof in response to the evolving nature of the managed
     trading and order matching system, DME Direct, avail-     money marketplace and in order to protect the interests of
     able to DME members and guaranteed customers in           prospective CPO and CTA clients. Thus, with respect to
     the U.S. without obtaining contract market designation    CPO and CTA advertising, these amendments: 1) restrict
     or registration as a derivatives transaction execution    the use of testimonials; 2) clarify the required placement
     facility pursuant to Sections 5 and 5a of the Act.        of the prescribed simulated or hypothetical performance
                                                               disclaimer; and 3) include within the regulation’s coverage
■	   17 CFR Part 21 Special Calls, at 72 Fed. Reg. 5029
                                                               advertisements through electronic media. The Commission
     (August 31, 2007) – Final amendments to regulations;
                                                               also amended its capital rules in January 2007 by autho-
■	   17 CFR Part 21 Special Calls, at 72 Fed. Reg. 34417       rizing the Commission, by order, to temporarily restrict the
     (June 22, 2007) – Proposed amendments to                  withdrawal of equity capital from an FCM if, in the
     regulations.                                              Commission’s judgment, such withdrawal would have a
                                                               material adverse consequence on the FCM’s ability to
■	   17 CFR Parts 40 and 41, Confidential Information and
                                                               protect customer funds and otherwise operate as a market
     Commission Records and Information, at 72 Fed. Reg.
                                                               intermediary.
     39764 (July 20, 2007) – Proposed amendments to
     regulations.                                              Division of Market Oversight
■	   17 CFR Parts 36 and 40, Amendments Pertinent to           In November 2006, after analyzing a substantial number
     Registered Entities and Exempt Commercial Markets, at     of comment letters and conducting a public hearing, the
     72 Fed. Reg. 45185 (August 13, 2007) – Proposed           Commission issued a Statement of Policy that affirms the
     amendments to regulations.                                use of the no-action process to permit foreign boards of
                                                               trade to provide direct access to their electronic trading
                                                               systems to U.S. members or authorized participants. The
                                                               Statement of Policy also provides additional guidance and
                                                               endorses procedural enhancements intended to protect the
                                                               integrity of the futures markets and market participants. In
                                                               August 2007, the Commission expanded its access to
                                                               market data for surveillance purposes by adopting several
                                                               amendments relating to special calls for information not
                                                               routinely submitted under the large trader reporting
                                                               system. The amendments add to the types of information
                                                               which must be furnished upon special call and directly
                                                               apply the Commission’s authority to issue special calls to
                                                               foreign brokers.




                                                                                                            CFTC       99
  Performance Measure 3.4.3 Percentage of requests for no-action or other relief completed within six months
  related to novel market or trading practices and issues to facilitate innovation.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual           FY 2006 Actual

                                                                                 100%                    100%                    100%


FY 2007 Performance Results
                                                                         	         Results:	    100%
                              100
                              90    100%      100%                       	   Measurement:	      Percentage
                              80
                                                                         	          Status:		Effective
        P E R C E N T A G E




                              70
                              60                                         	    Data Source:	     Applicant’s letter requesting relief and
                              50                                                                Commission letter of response.
                              40
                                                                         	     Verification:	   Applicant’s letter and supporting
                              30
                                                                                                documentation maintained in internal
                              20                                                                tracking system, FILAC. Responses
                              10                                                                to formal request published on
                               0                                                                Commission’s Web site.	
                                     PLAN     ACTUAL                                            	
                                    FY 2007   FY 2007




Lead Program Office                                                          Performance Highlights
Division of Market Oversight
                                                                             On May 24, 2007, DMO issued a no-action relief to the
                                                                             DME, to make its electronic trading and order matching
Performance Trends & Variations                                              system, DME Direct, available to DME members and guar-
                                                                             anteed customers in the United States without obtaining
In FY 2007, DMO issued nine no-action letters in response                    contract market designation or registration as a derivatives
to requests for formal no-action relief from requirements                    transaction execution facility pursuant to Sections 5 and 5a
of the CEA. Each letter was issued by DMO within six                         of the CEA. The relief letter enabled U.S.-based traders to
months of the receipt of the relief request.                                 directly access DME’s products, including its Oman sour
                                                                             crude contract—the first physically-delivered, Middle East-
                                                                             based energy futures contract to ever be offered by a futures
Data Source & Validation
                                                                             exchange.
Supporting documentation is in the form of the applicant’s
letter requesting relief and the DMO’s signed letter in
response to the formal requests for guidance and advice.

DMO maintains the FILAC internal tracking system for
recording DMO actions, such as the issuance of no-action
letters, which reflects the dates for relief requests and
responsive letters, as well as the length of staff review.
Responses to formal requests are posted on the
Commission’s Web site.




100    CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 3.4.4 Percentage of total requests receiving CFTC responses for guidance and advice.

                                                   History of Results:       FY 2004 Actual         FY 2005 Actual          FY 2006 Actual

                                                                                  90%                    90%                     95%


FY 2007 Performance Results
                              100                                        	         Results:	    95%
                              90
                                    95%        95%                       	   Measurement:	      Percentage
                              80
        P E R C E N T A G E




                              70
                                                                         	          Status:		Effective
                              60
                              50                                         	    Data Source:	     Signed letters (formal) and email &
                              40
                                                                                                telephone responses (informal).
                              30
                                                                         	     Verification:	   Agency files maintained in chronological
                              20                                                                files and responses to formal request are
                              10                                                                published on Commission’s Web site.	
                               0                                                                	
                                     PLAN     ACTUAL
                                    FY 2007   FY 2007




Lead Program Office                                                          formal DCIO responses in the form of no-action letters,
                                                                             interpretations, or exemptions, may take more time
Division of Clearing and Intermediary Oversight                              because of the need for research and for preparation of an
Division of Market Oversight                                                 appropriate response.      It is noted that the statistics on
                                                                             numbers of letters issued or email responses may not
                                                                             reflect the complexity of any particular matter or the
Performance Trends & Variations
                                                                             resources necessary to address one particular issue.            In
                                                                             addition, matters commenced in one fiscal year may
Division of Clearing and Intermediary Oversight
                                                                             overlap into, and be completed during, a subsequent fiscal
Perform-ance target was met for FY 2007.                    DCIO staff       year, resulting in some imprecision in statistical measure
respond to numerous requests for guidance and advice on                      for a given year. DCIO staff make every effort to respond
the Act and Commission regulations each year. Requests                       to requests as quickly as possible, but the timeliness of a
are received from members of the public, market partici-                     response also is affected by the speed with which a
pants, intermediaries, SROs, foreign entities, and others.                   requester provides additional information sought by staff,
These requests may be formal, such as written requests for                   and the length of time required by other Commission divi-
no-action, interpretative, or exemption letters. DCIO also                   sions or offices to review a draft response, factors outside
receives numerous informal requests for guidance and                         the control of DCIO. All these factors contributed to DCIO
advice via email and phone calls.                                            responding to requests, on a percentage basis, as planned.

Although DCIO responds to all requests received, it is not
                                                                             Division of Market Oversight
always possible for DCIO to respond within the fiscal year
that it receives a request. Many requests are routine in                     DMO staff respond to numerous requests for guidance and
nature and are responded to in a very short time frame, if                   advice on the CEA and Commission regulations each year.
not immediately. This is particularly true for many of the                   These requests may be informal, via email or phone calls,
requests that are received via email and phone calls. Other                  or formal in the form of requests for no-action, interpreta-
requests that raise novel or complex issues, or requests for                 tive, or exemptive letters.       Staff respond to informal




                                                                                                                              CFTC          101
guidance and advice request in a very short period of time,     DMO maintains the FILAC internal tracking system for
usually no longer than a period of days. To the extent that     recording DMO actions, such as the issuance of no-action,
staff are unable to provide an informal response to such        interpretative and exemptive letters, which reflects the dates
requests, the requester is advised to submit a formal request   of request and responsive letters, as well as the length of
for guidance. DMO staff strive to address such formal           staff review. Responses to formal requests are posted on
requests within six months of receipt.                          the Commission’s Web site.


Data Source & Validation                                        Performance Highlights

Division of Clearing and Intermediary Oversight                 Division of Clearing and Intermediary Oversight

Support-ing documentation is in the form of responses to        In FY 2007, DCIO responded favorably to several requests
formal (by signed letter) and informal (by email and tele-      for registration relief from foreign affiliates of U.S.-regis-
phone) requests for responses for guidance and advice.          tered FCMs, such that those affiliates were permitted to
                                                                introduce institutional U.S. customers to any registered
Responses to formal requests are posted on the Com-
                                                                FCM for trading on U.S. commodity futures and option
mission’s Web site and are maintained by hard copy in the
                                                                markets without having to register with the CFTC, e.g., as
chronological files; responses to non-routine, informal
                                                                an IB. This action was intended to foster a flexible regula-
requests similarly are recorded by hard copy and main-
                                                                tory environment by being responsive to evolving interme-
tained in the chronological files. The methodology for
                                                                diary activities. For the proper protection of the public,
collecting these statistics is by comparing the files of
                                                                however, DCIO conditioned this relief on the registered
requests received with responses sent and calculating the
                                                                FCM of a foreign affiliate agreeing to be jointly and sever-
performance statistic.
                                                                ally liable for any violations of the Act or the Commission’s
                                                                regulations committed by the foreign affiliate in connec-
Division of Market Oversight
                                                                tion with the latter’s handling of orders for these
DMO does not track the length of time needed to respond         customers—including those orders executed by the affiliate
to informal requests for guidance. Staff, however, operate      and given up to another FCM. See Staff Letters 07-08,
under the presumption that, if guidance cannot be               dated May 30, 2007, and 07-05, dated April 26, 2007,
provided in response to informal requests, the requester is     wherein DCIO issued this relief.
advised to submit a written request for a no-action, inter-
pretative, or exemptive letter. Supporting documentation,
with respect to no-action, interpretative, and exemptive
requests, is in the form of an email or signed letter from
the requesting entity and DMO’s signed letter in response.




102    CFTC
        FINANCIAL SECTION




A Message from the Chief Financial Officer......... 105

Limitations of Financial Statements.................... 106

Principal Financial Statements........................... 107

Notes to the Financial Statements........................112

Report of the Independent Auditors...................... 123
A Message From the Chief Financial Officer

  F
        or the third consecutive year, the public accounting      E-Government Act of 2002 and OMB Circular A-130,
        firm KPMG LLP, on behalf of our Inspector General,        Management      of     Federal   Information   Resources.   The
        reported that the financial statements included in        Commission was able to substantially comply with FISMA
  this report were presented fairly, in all material respects,    in this audit cycle.
  and in conformity with the U.S. generally accepted
  accounting principles (GAAP) for Federal agencies.              Last year, Commission error and other deficiencies led
                                                                  KPMG to find that there were material weaknesses in the
  We have also greatly improved our audit results over            controls over financial reporting, and that there were
  previous years by having no material weaknesses, and for        reportable conditions in the controls over financial
  the first time, becoming compliant with laws and                management systems, undelivered orders, and fixed assets.
  regulations. This was greatly facilitated by migrating to a
  financial management systems platform operated by the           Although the three reportable conditions were resolved,
  U.S. Department of Transportation’s (DOT) Enterprise            the Commission was only able to successfully remediate
  Services Center, an OMB-designated financial management         two of the three components of the material weakness. The
  line of business service provider. During the last year, this   component of the material weakness in the controls over
  business arrangement has enabled the CFTC to accumulate,        Recording Accruals and Preparing Financial Statements was
  analyze and present reliable financial information, or          revised and repeated as a significant deficiency. A corrective
  provide reliable, timely information for managing current       action plan to improve the process controls used to estimate
  operations and timely reporting of financial information        accounts payable and accruals will be issued within the
  to central agencies.   Furthermore, our new system was          next 30 days.        The Commission recognizes that this
  found to be in substantial compliance with the Federal          condition impacts reporting balances, and if left uncorrected
  Financial Management Improvement Act of 1996 (although          it increases the risk that future statements could be
  CFTC is not required to comply with FFMIA, it has elected       misstated.
  to do so).

  Since FY 2004, KPMG had disclosed noncompliance with
  the Federal Information Security Management Act (FISMA).
  Specifically, KPMG recommended that the Commission
                                                                                  Mark Carney
  continue to improve entity-wide security and contingency                        Chief Financial Officer
  planning programs, access controls, segregation of duties,
  and service continuity to fully meet guidelines of the                          November 15, 2007



                                                                                                                    CFTC      105
         Limitations of Financial Statements


      Management has prepared the accompanying financial statements to report the financial position and operational results
      for the CFTC for FY 2007 and FY 2006 pursuant to the requirements of Title 31 of the U.S. Code, section 3515 (b).

      While these statements have been prepared from the books and records of the Commission in accordance with GAAP for
      Federal entities and the formats prescribed by OMB Circular A-136, Financial Reporting Requirements, these statements
      are in addition to the financial reports used to monitor and control budgetary
      resources, which are prepared from the same books and records.

      The statements should be read with the understanding that they represent a
      component of the U.S. government, a sovereign entity. One implication of this is
      that the liabilities presented herein cannot be liquidated without the enactment
      of appropriations, and ongoing operations are subject to the enactment of future
      appropriations.




106     CFTC
             Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2007 and 2006

                                                                                        2007                 2006


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 2)                                    $	   19,507,914    $	    20,055,508
  	   Accounts Receivable (Note 3)                                                     5,806                     -
  	   Prepayments (Note 1H)                                                          131,142             461,038
  	   Total Intragovernmental                                                     19,644,862          20,516,546

  Custodial Receivables, Net (Note 3)                                                620,311           5,756,605
  Accounts Receivable (Note 3)                                                       120,470                63,855
  General Property, Plant and Equipment, Net (Note 4)                              2,850,911           3,674,493

  Total Assets                                                               $	   23,236,554    $	    30,011,499

  Liabilities
  Intragovernmental:
  	   FECA Liabilities                                                       $	       32,787    $	          29,484
  	   Accounts Payable                                                               274,334             236,108
  	   Advances Received from Federal Source                                                 -                    -
  	   Total Intragovernmental                                                        307,121             265,592

  Accounts Payable                                                                 2,686,039           2,338,427
  Accrued Funded Payroll                                                           2,566,433           4,099,832
  Annual Leave                                                                     4,849,189           5,083,005
  Actuarial FECA Liabilities (Note 7)                                                190,216             281,801
  Custodial Liabilities                                                              620,311           5,756,605
  Contingent Liabilities (Note 9)                                                    310,000                11,600
  Deposit Fund Liabilities                                                            47,563                47,488
  Other - Deferred Lease Liabilities (Note 8)                                      3,169,541           2,837,403
  Other                                                                               10,001                     -
  Total Liabilities                                                          $	   14,756,414    $	    20,721,753

  Net Position
  Cumulative Results of Operations                                           $	   (5,700,823)   $	    (4,568,800)
  Unexpended Appropriations                                                       14,180,963          13,858,546
  Total Net Position                                                               8,480,140           9,289,746

  Total Liabilities and Net Position                                         $	   23,236,554    $	    30,011,499
The accompanying notes are an integral part of these financial statements.

                                                                                                     CFTC     107
Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2007 and 2006

                                                                                               2007                 2006


  Goal 1: Ensure the economic vitality of the commodity futures and option markets

  Gross Costs                                                                $		 37,675,178           $	   	 33,361,940
  Less: Earned Revenue                                                       	        	    (33,952)   		          (7,407)

  Net Cost of Operations- Goal One                                           $		 37,641,226           $		 33,354,533

  Goal 2: Protect market users and the public

  Gross Costs                                                                $	       	 35,638,682    $	   	 40,659,866
  Less: Earned Revenue                                                       		            (32,117)   		          (9,029)

  Net Cost of Operations- Goal Two                                           $	       	 35,606,565    $	   	 40,650,837


  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets

  Gross Costs                                                                    $	   	 28,510,946    $	   	 30,234,259
  Less: Earned Revenue                                                       	             (25,694)   		          (6,714)

  Net Cost of Operations- Goal Three                                             $		 28,485,252       $	   	 30,227,545

  Grand Total

  Gross Costs                                                                    $	   	 101,824,806   $	   	 104,256,065
  Less: Earned Revenue                                                       		            (91,763)   		        (23,150)

  Total Net Cost of Operations                                                   $		 101,733,043      $	   	 104,232,915
The accompanying notes are an integral part of these financial statements.




108    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2007 and 2006

                                                                                              2007                     2006


  Cumulative Results of Operations
  Beginning Balances, October 1                                                $		      (4,568,800)   $		        (6,106,083)

  Budgetary Financing Sources

  Appropriations Used:                                                        		        96,725,117    		 101,840,088

  Other Financing Sources

  	   Imputed Financing Sources                                               		         3,875,903    		         3,930,110

  Net Cost of Operations                                                      		 (101,733,043)        		(104,232,915)

  Net Change                                                                  		         1,132,023    		         1,537,283

  Total Cumulative Results of Operations, September 30                         $		      (5,700,823)   $		        (4,568,800)

  Unexpended Appropriations
  Beginning Balances, October 1                                                $	   	   13,858,546    $	    	 19,085,210

  Budgetary Financing Sources
  	   Appropriations Received                                                 		        97,981,140    		 98,386,000
  	   Less: Rescinded                                                         		                 -    		          (983,860)
  	   Less: Canceled                                                          		          (933,606)   		          (788,716)
  	   Appropriations Used                                                     		 (96,725,117)         		(101,840,088)
  		 Total Budgetary Financing Sources                                        		          322,417     		         (5,226,664)

  Total Unexpended Appropriations, September 30                                $		      14,180,963    $		 13,858,546

  Net Position                                                                 $		       8,480,140    $	    	    9,289,746
The accompanying notes are an integral part of these financial statements.




                                                                                                                CFTC    109
Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2007 and 2006

                                                                                            2007                2006

  Budgetary Resources
  Unobligated Balance, October 1                                                 $	    4,734,164    $	    3,768,541
  Recoveries of Prior Year Unpaid Obligations                                          4,715,177          5,598,356
  Total Prior Resources                                                                9,449,341          9,366,897
  New Resources:
  		 Appropriations                                                                   97,981,140         98,386,000
  		 Spending Authority from Offsetting Collections
  		 Collected                                                                           98,788             208,371
  		 Change in Receivables from Federal sources                                          73,467            (175,595)
  	 Change in Unfilled Customer Orders
  		 Advance Received                                                                   10,001      	              -
  		 Without Advance from Federal Sources                                                  951      	              -
  	 Total New Resources                                                          $	 98,164,347      $	   98,418,776
  Permanently Not Available:
  	   Cancellation of Expired Accounts                                       	          (933,606)          (788,716)
  	   Enacted Reduction                                                      	                 -           (983,860)

  Total Budgetary Resources                                                      $	 106,680,082     $	 106,013,097

  Status of Budgetary Resources
  Obligations Incurred, Direct                                                   $	 99,575,548      $	 101,255,783
  Obligations Incurred, Reimbursable                                                    118,453             23,150
  	 Total Obligations Incurred (Note 12)                                             99,694,001        101,278,933
  Unobligated Balance Apportioned                                                     3,475,149            552,827
  Unobligated Balance Not Available                                                   3,510,932          4,181,337
  Total Status of Budgetary Resources                                            $	 106,680,082     $	 106,013,097

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	 Unpaid Obligations                                                           $	 15,273,855      $	   19,851,847
  	 Uncollected customer payments from Federal sources                       	                 -           (175,595)
  Net Obligated Balance, October 1                                               $	 15,273,855           19,676,252
  Gross Obligations Incurred                                                         99,694,001         101,278,933
  Gross Outlays                                                                     (97,703,992)       (100,258,569)
  Recoveries of Prior Year Unpaid Obligations                                        (4,715,177)         (5,598,356)
  Change in Receivables from Federal sources                                            (74,417)            175,595
                                                                                 $	 12,474,270      $	   15,273,855
  Net Obligated Balance, September 30
  	 Unpaid Obligations                                                           $	 12,548,687      $	   15,273,855
  	 Uncollected customer payments from Federal sources                                 (74,417)     	              -
  	 Net Obligated Balance, September 30                                          $	 12,474,270      $	   15,273,855

  Net Outlays
  Gross Outlays                                                                  $	 97,703,992      $	 100,258,569
  Offsetting Collections Received                                                     (108,789)           (208,371)
  Distributed Offsetting Receipts                                                      (12,378)             (5,499)

  Net Outlays                                                                    $	 97,582,825      $	 100,044,699
The accompanying notes are an integral part of these financial statements.



110    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2007 and 2006

                                                                                                   2007                2006



  Revenue Activity
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                  $	     287,615     $	    1,239,020
  	       Fines, Penalties, and Forfeitures                                                  12,143,639         12,395,880
  	       General Proprietary Receipts                                                          12,378                5,499
  Total Cash Collections                                                                     12,443,632         13,640,399
  Change in Accounts Receivable                                                              (5,136,294)        (22,907,240)
  Total Custodial Revenue                                                               $	    7,307,338    $	    (9,266,841)


  Disposition of Collections
  	       Transferred to Others, by Recipient:
  		 Treasury                                                                                12,443,632    	    (13,640,399)
  		 Change in Custodial Liabilities                                                          5,136,294         22,907,240

  Net Custodial Activity                                                                $	            -    $	             -
The accompanying notes are an integral part of these financial statements.




                                                                                                                CFTC     111
    Notes to the Financial Statements
                    As of and For the Fiscal Years Ended September 30, 2007 and 2006


Note 1. Summary of Significant                                  are appropriate for presenting fairly the entity’s assets,
Accounting Policies                                             liabilities, net cost of operations, changes in net position,
                                                                and budgetary resources.
A. Reporting Entity
                                                                The financial statements report on the CFTC’s financial
The Commodity Futures Trading Commission (CFTC) is an           position, net cost of operations, changes in net position,
independent agency of the executive branch of the Federal       budgetary resources, and custodial activities. The books
Government. Congress created the CFTC in 1974 under             and records of the agency served as the source of informa-
the authorization of the Commodity Exchange Act (CEA)           tion for preparing the financial statements in the prescribed
with the mandate to regulate commodity futures and              formats. All agency financial statements and reports used
option markets in the United States. The agency’s mandate       to monitor and control budgetary resources are prepared
was renewed and expanded under the Futures Trading              from the same books and records. The statements should
Acts of 1978, 1982, and 1986; under the Futures Trading         be read with the understanding that they are for a compo-
Practices Act of 1992; and under the CFTC Reauthorization       nent of the U.S. Government, a sovereign entity.
Act of 1995. The Commodity Futures Modernization Act
of 2000 reauthorized the Commission. Since its inception,       The Balance Sheets present the financial position of the
the CFTC has continuously operated through authorized           agency. The Statements of Net Cost present the agency’s
appropriations.                                                 operating results; the Statements of Changes in Net Position
                                                                display the changes in the agency’s equity accounts. The
The CFTC is responsible for ensuring the economic utility of    Statements of Budgetary Resources present the sources,
futures markets by encouraging their competitiveness and        status, and uses of the agency’s resources and follows the
efficiency, ensuring their integrity, and protecting market     rules for the Budget of the United States Government.
participants against manipulation, abusive trade practices,     The Statements of Custodial Activity present the sources
and fraud.                                                      and disposition of collections for which the CFTC is the
                                                                fiscal agent, or custodian, for the Treasury General Fund
B. Basis of Presentation                                        Miscellaneous Receipt accounts.

The financial statements have been prepared to report the       Throughout these financial statements, assets, liabilities,
financial position and results of operations for the CFTC, as   revenues and costs have been classified according to the
required by the Chief Financial Officers’ Act of 1990 along     type of entity with whom the transactions were made.
with the Accountability of Tax Dollars Act of 2002, and         Intragovernmental assets and liabilities are those from
the Government Management Reform Act of 1994. They              or to other federal entities.     Intragovernmental earned
are presented in accordance with the form and content           revenues are collections or accruals of revenue from other
requirements contained in Office of Management and              federal entities, and intragovernmental costs are payments
Budget (OMB) Circular No. A-136, “Financial Reporting           or accruals to other federal entities. The CFTC does not
Requirements,” dated June 29, 2007.                             transact business among its own operating units, and there-
                                                                fore, intra-entity eliminations were not needed.
The principal financial statements have been prepared in
all material respects from the agency’s books and records in
                                                                C. Budgetary Resources and Status
conformity with U.S. generally accepted accounting prin-
ciples (GAAP), as prescribed for the federal government by      The CFTC is funded through congressionally approved
the Federal Accounting Standards Advisory Board (FASAB).        appropriations. The CFTC is responsible for administering
The application and methods for applying these principles       the salaries and expenses of the agency through the execu-
                                                                tion of these appropriations.

112    CFTC
                                                                        FINANCIAL SECTION




Congress annually enacts one-year appropriations that              outside of Treasury. Treasury disburses funds for the agency
provide the CFTC with the authority to obligate funds within       on demand. Spending authority from offsetting collections is
the respective fiscal year for necessary expenses to carry         recorded in the agency’s expenditure account and is available
out mandated program activities. In addition, Congress             for agency use subject to certain limitations. (See Note 2)
enacted a permanent indefinite appropriation that is avail-
able until expended. All appropriations are subject to quar-       F. Accounts Receivable
terly apportionment as well as Congressional restrictions.
                                                                   Accounts receivable consists of amounts owed by other
The CFTC’s budgetary resources for FY 2007 consist of:             federal agencies and the public to the CFTC and is valued net
                                                                   of an allowance for uncollectible amounts. The allowance
■	 Unobligated    balances of resources brought forward from
                                                                   is based on past experience in the collection of receivables
  the prior year,
                                                                   and analysis of the outstanding balances. Accounts receiv-
■	 Recoveries   of obligations in prior years, and                 able arise from reimbursable operations, earned refunds or
                                                                   the Civil Monetary Sanctions program. (See Note 3)
■	 New   resources in the form of appropriations and
  spending authority from offsetting collections.
                                                                   G. Property, Equipment, and Software
Unobligated balances associated with resources expiring at         Property, equipment, and software represent furniture,
the end of the fiscal year remain available for five years after   fixtures, equipment, and information technology hardware
expiration only for upward adjustments of prior year obli-         and software, which are capitalized and depreciated or
gations, after which they are canceled and may not be used.        amortized over their useful lives.
All unused monies related to canceled appropriations are
returned to Treasury and the canceled authority is reported        The CFTC capitalizes assets annually if they have useful lives
as a line item on the Statements of Budgetary Resources            of at least two years and an individual value of $25,000 or
and the Statements of Changes in Net Position.                     more. Bulk or aggregate purchases are capitalized when the
                                                                   individual useful lives are at least two years and a value of
D. Entity and Non-Entity Assets                                    $25,000 or more. Property, equipment, and software that
                                                                   do not meet the capitalization criteria are expensed when
Assets consist of entity and non-entity assets. Entity assets      acquired. Depreciation and amortization is computed on
are those assets that the CFTC has authority to use for its        a straight-line basis using a 5-year life. The Commission’s
operations. Non-entity assets are those held by the CFTC           assets are valued net of accumulated depreciation. (See
that are not available for use in its operations. Non-entity       Note 4)
assets held by the CFTC include deposit fund balances,
custodial fines, and interest receivable, net. (See Note 3)        H. Prepayments

                                                                   Payments in advance of the receipt of goods and services are
E. Fund Balance with Treasury
                                                                   recorded as prepayments, and recognized as expenses when
Fund Balance with Treasury is the aggregate amount of the          the related goods and services are received. Prepayments
CFTC’s funds with Treasury in expenditure, receipt, and            reported on the Balance Sheet were made primarily to the
deposit fund accounts. Appropriated funds recorded in              Department of Transportation (DOT) for the transit subsidy
expenditure accounts are available to pay current liabili-         program, and the Postal Service for postage services.
ties and finance authorized purchases. Custodial collec-
tions recorded in the deposit fund account and miscella-           I. Liabilities
neous receipts accounts of the Treasury are not available for
agency use. At fiscal year end, receipt account balances are       The CFTC’s liabilities consist of actual and estimated
cleared and returned to Treasury.                                  amounts that are likely to be paid as a result of transactions
                                                                   covered by budgetary resources for which Congress has
The CFTC does not maintain bank accounts of its own, has           appropriated funds or funding, or are otherwise available
no disbursing authority, and does not maintain cash held           from reimbursable transactions to pay amounts due.



                                                                                                                  CFTC      113
Liabilities include those covered by budgetary resources in         For employees under FERS, the CFTC contributes an
existing legislation and those not yet covered by budgetary         amount equal to one percent of the employee’s basic pay to
resources (See Note 5). The CFTC liabilities not covered by         the tax deferred Thrift Savings Plan and matches employee
budgetary resources include:                                        contributions up to an additional four percent of pay.
                                                                    FERS and CSRS employees can contribute a portion their
■	 Annual    leave benefits which will be funded by annual          gross earnings to the plan up to IRS limits; however, CSRS
  appropriations as leave is taken,                                 employee receive no matching agency contribution.

■	 Actuarial   Federal Employees Compensation Act (FECA)
  liabilities,                                                      L. Leases

■	 Custodial     liabilities for custodial revenue transferred to   The CFTC does not have any capital lease liabilities. The
  Treasury at fiscal year end,                                      operating leases consist of commercial property leases
                                                                    for the CFTC’s headquarters and regional offices. Lease
■	 Contingent     liabilities,                                      expenses are recognized on a straight-line basis.
■	 Deposit   funds, and
                                                                    M. Deposit Funds
■	 Other-   Deferred Lease Liabilities.
                                                                    Deposit funds are expenditure accounts used to record
The CFTC’s liabilities that are covered by budgetary                monies that do not belong to the Federal government.
resources are considered current liabilities.                       They are held awaiting distribution based on a legal deter-
                                                                    mination or investigation. The CFTC deposit fund is used to
J. Accounts Payable                                                 record and later distribute monetary awards to the appro-
                                                                    priate defendants as restitution.
Accounts payable consists primarily of contracts for goods
or services, such as leases, utilities, telecommunications,
                                                                    N. Net Position
and consulting and support services.
                                                                    Net position consists of unexpended appropriations and
K. Accrued Payroll and Benefits and                                 cumulative results of operations. Unexpended appro-
Annual Leave Liability                                              priations are appropriations that have not yet been
                                                                    used to acquire goods and services or provide benefits.
The accrued payroll liability represents amounts for salaries
                                                                    Appropriations are considered expended, or used, when
and benefits owed for the time since the payroll was last
                                                                    goods and services have been acquired by the CFTC or
paid through the end of the fiscal year. The annual leave
                                                                    benefits have been provided using the appropriation
liability is the amount owed employees for unused annual
                                                                    authority, regardless of whether monies have been paid
leave as of the end of the fiscal year. At the end of each
                                                                    or payables for the goods, services, or benefits have been
quarter, the balance in the accrued annual leave account is
                                                                    established. Appropriations were used primarily to acquire
adjusted to reflect current balances and pay rates. Sick leave
                                                                    goods and services to operate the CFTC’s programs or to
and other types of non-vested leave are expensed as taken.
                                                                    provide benefits.
The agency’s employees participate in the Civil Service
                                                                    Cumulative results of operations represent the excess of
Retirement System (CSRS) or the Federal Employees’
                                                                    financing sources over expenses since inception. Cumulative
Retirement System (FERS). On January 1, 1987, FERS went
                                                                    results of operations are derived from the net effect of capi-
into effect pursuant to Public Law 99-335. Most employees
                                                                    talized assets, expenses, exchange revenue, and unfunded
hired after December 31, 1983, are automatically covered
                                                                    liabilities.
by FERS and Social Security. Employees hired prior to
January 1, 1984, could elect to either join FERS and Social
Security or remain in CSRS.




114     CFTC
                                                                        FINANCIAL SECTION




O. Earmarked Funds                                                R. Custodial Activity

As of September 30, 2007, the CFTC’s financing sources did        The CFTC collects penalties and fines levied against firms for
not have any earmarked funds. Earmarked funds were not            violation of laws as described in the Commodity Exchange
received by the agency for designated activities, benefits or     Act as codified at 7 U.S.C. § 1, et seq, and the Commodities
purposes as specifically required by statute.                     Futures Modernization Act of 2000, Appendix E of P.L. 106-
                                                                  554, 114 Stat. 2763. Unpaid fines, penalties and accrued
P. Revenues                                                       interest are reported as custodial receivables, with an asso-
                                                                  ciated custodial liability. The receivables and the liability
The CFTC receives reimbursement and earns revenue for
                                                                  are reduced amounts determined to be uncollectible.
the following activities:
                                                                  Revenues earned and the losses from bad debts are reported
                                                                  to Treasury.
■	 Reimbursement       for travel, subsistence, and related
  expenses from non-federal sources for attendance at
                                                                  Collections made by the CFTC during the year are depos-
  meetings or similar functions that an employee has been
                                                                  ited and reported into designated Treasury miscellaneous
  authorized to attend in an official capacity on behalf of
                                                                  receipt accounts for:
  the Commission.
                                                                  ■	 Registrations   and filing fees,
■	 Reimbursement       for Intergovernmental Personnel Act
  Mobility Program assignments from state and local               ■	 Fees,   fines, penalties and forfeitures, and
  governments, institutions of higher education, and other
                                                                  ■	 General    miscellaneous recoveries and refunds.
  eligible organizations for basic pay, supplemental pay,
  fringe benefits, and travel and relocation expenses.
                                                                  At fiscal year end, custodial collections made by the CFTC
■	 Reimbursement from non-federal sources for registration
                                                                  are returned to Treasury. The CFTC does not retain any
  fees to cover the cost of expenses related to the CFTC’s        amount for custodial activities including reimbursement of
  annual International Regulators Conference.                     the cost of collection.


Q. Net Cost of Operations                                         S. Use of Management Estimates

Net cost of operations is the difference between the              The preparation of the accompanying financial statements
CFTC’s expenses and its earned revenue. The presenta-             in accordance with accounting principles generally accepted
tion of program results by strategic goals is based on the        in the United States of America requires management to
CFTC’s current Strategic Plan established pursuant to the         make certain estimates and assumptions that directly affect
Government Performance and Results Act of 1993.                   the results of reported assets, liabilities, revenues, and
                                                                  expenses. Actual results could differ from these estimates.
The mission statement of the CFTC is to protect market
users and the public from fraud, manipulation, and abusive        T. Tax Status
practices related to the sale of commodity and financial
                                                                  The CFTC is not subject to Federal, state or local income
futures and options, and to foster open, competitive, and
                                                                  taxes.     Accordingly, no provision for income taxes is
financially sound futures and option markets. The mission
                                                                  recorded.
is accomplished through three strategic goals, each focusing
on a vital area of regulatory responsibility:
                                                                  U. Reconciliation of Net Obligations
■	 Ensure    the economic vitality of the commodity futures       and Net Cost of Operations
  and option markets,
                                                                  In compliance with Office of Management and Budget
■	 Protect   market users and the public, and                     (OMB) Circular No. A-136, the Commission has added a
                                                                  reconciliation of net obligations and net cost of operations
■	 Ensure    market integrity in order to foster open, competi-
                                                                  (See Note 15).
  tive, and financially sound markets.


                                                                                                                     CFTC   115
Note 2. Fund Balance with Treasury

A. Reconciliation to Treasury

There are no differences between the Fund Balance reflected in the CFTC Balance Sheets and the balance in the Treasury
accounts.


B. Fund Balance with Treasury

Fund Balances with Treasury consist of entity assets such as appropriations and reimbursements for services rendered.
Obligation of these funds is controlled by quarterly apportionments made by OMB. Work performed under reimbursable
agreements is initially financed by the annual appropriation and is subsequently reimbursed. Other funds include non-
entity deposit fund receipts.

Fund Balance with Treasury at September 30, 2007 and 2006 consisted of the following:


                                                                                                  2007              2006
  Appropriated Funds                                                                 $	      19,460,351   $	   20,008,020
      	   Other Funds:
  	       Deposit Fund                                                                          47,563            47,488

  TOTAL APPROPRIATED FUND BALANCE WITH TREASURY                                      $	      19,507,914   $	   20,055,508



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2007 and 2006 consisted of the following:

                                                                                                  2007              2006
  Appropriated Funds
      Unobligated Fund Balance
  	       Available                                                                  $	       3,261,296   $	      42,385
  	       Expired                                                                              213,853           510,443
  	       Unavailable                                                                         3,510,932         4,181,337
  Obligated Balance Not Yet Disbursed                                                        12,474,270        15,273,855
  Total Appropriated Funds                                                                   19,460,351        20,008,020

  Deposit Fund                                                                                  47,563            47,488

  Total Fund Balance with Treasury                                                   $	      19,507,914   $	   20,055,508




Note 3. Accounts Receivable
Accounts receivable consist of amounts owed to the CFTC by other Federal agencies and the public. Accounts receivable
are valued net of estimated uncollectibles. Non-custodial accounts receivable are primarily for overpayments of expenses
to other agencies, or vendors, and repayment of employee benefits. Historical experience has indicated that most of the
non-custodial receivables are collectible and there are no material uncollectible amounts.

Custodial receivables (non-entity assets) are those for which fines and penalties have been assessed and levied against
businesses for violation of law. The CFTC litigates against defendants for alleged violations of the CEA, as amended.



116        CFTC
                                                                            FINANCIAL SECTION




Violators may be subject to a variety of sanctions including fines, injunctive orders, bars or suspensions, rescissions of
illegal contracts, disgorgements, and restitutions to customers.

Historical experience has indicated that a high percentage of custodial receivables prove uncollectible. The methodology
used to estimate the allowance for uncollectible amounts related to custodial accounts is that custodial receivables are
considered 100% uncollectible unless otherwise noted in the judgment. An allowance for uncollectible accounts has
been established and included in accounts receivable on the balance sheets. The allowance is based on past experience in
the collection of accounts receivable and analysis of outstanding balances. Accounts are re-estimated quarterly based on
account reviews and the agency determination that changes to the net realizable value are needed.

Accounts receivable, as of September 30, 2007 and 2006, consisted of the following:

                                                                                                               2007                    2006
  Custodial Receivables, Net:
  	   Civil Monetary Penalty Interest                                                         $	        28,980,636     $	         9,438,316
  	   Civil Monetary Penalties, Fines, and Administrative Fees                                 1,145,896,795                    530,489,941
  	   Less: Allowance for Loss on Interest                                                              (28,980,222)             (9,421,924)
  	   Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                    (1,145,633,370)              (524,749,728)
  	   Registration and Filing Fees                                                                         356,472     	                  -
  Net Custodial RECEIVABLES                                                                   $	           620,311     $	         5,756,605
  	   Other Intragovernmental Accounts Receivable                                             $	              5,806    $	                 -
  	   Other Accounts Receivable with the Public                                               $	           120,470     $	           63,855
  Other Accounts Receivable                                                                   $	           126,276     $	           63,855



Note 4. Property, Equipment, and Software, Net
Assets are capitalized annually if they have useful lives of at least two years and an individual value of $25,000 or more.
Bulk or aggregate purchases are capitalized when the individual useful lives are at least two years and a value of $25,000
or more. Depreciation and amortization is computed on a straight-line basis using a 5-year life. The CFTC did not defer
any maintenance in FY 2007 or FY 2006. Property and Equipment as of September 30, 2007 and 2006 consisted of the
following:

  2007                                                                                             Accumulated
                                                                                                   Amortization/
  Major Class                                     Service Life and Method          Cost            Depreciation            Net Book Value

  Equipment                                       5 Years/Straight Line      $	   1,146,835    $	         (564,103)        $	       582,732
  IT Software                                     5 Years/Straight Line           2,966,169    	          (697,990)                2,268,179

                                                                              $	 4,113,004     $	 (1,262,093)              $	     2,850,911


  2006                                                                                             Accumulated
                                                                                                   Amortization/
  Major Class                                     Service Life and Method          Cost            Depreciation            Net Book Value

  Equipment                                       5 Years/Straight Line      $	   1,146,835        $	      (334,735)       $	       812,100
  IT Software                                     5 Years/Straight Line           2,966,169                (103,776)               2,862,393

                                                                              $	 4,113,004         $	      (438,511)       $	     3,674,493




                                                                                                                                CFTC     117
Note 5. Liabilities Not Covered by Budgetary Resources
As of September 30, 2007 and 2006, the following liabilities not covered by budgetary resources exist:

                                                                                                    2007               2006
  Intragovernmental - FECA Liabilities                                                  $	        32,787   $	        29,484
  Annual Leave                                                                                 4,849,189          5,083,005
  Actuarial FECA Liabilities                                                                     190,216           281,801
  Custodial Liabilities                                                                          620,311          5,756,605
  Contingent Liabilities                                                                         310,000             11,600
  Deposit Fund Liabilities                                                                        47,563             47,488
  Deferred Lease Liabilities                                                                   3,169,541          2,837,403
  Other                                                                                           10,001                   -

  Total Liabilities Not Covered by Budgetary Resources                                  $	     9,229,608   $	   14,047,386



Note 6. Retirement Plans and Other Employee Benefits
The CFTC imputes costs and the related financing sources for its share of retirement systems accruing to its past and present
employees that are in excess of the amount of contributions from the CFTC and its employees, which are mandated by
law. The Office of Personnel Management (OPM), which administers federal civilian retirement programs, provides
the cost information to the CFTC. The CFTC recognizes the full cost of providing future pension and Other Retirement
Programs (ORB) for current employees as required by Statement of Federal Financial Accounting Statement (SFFAS) No.
5, “Accounting for Liabilities of the Federal Government”.

Full costs include pension and ORB contributions paid out of the CFTC’s appropriations and costs financed by OPM. The
amount financed by OPM is recognized as an imputed financing source. This amount was $3,875,903 for the year ended
September 30, 2007 and $3,930,110 for the year ended September 30, 2006. Reporting amounts such as plan assets, accu-
mulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

Liabilities for future pension payments and other future payments for retired employees who participate in the Federal
Employees Health Benefits Program and the Federal Employees Group Life Insurance Program are reported by OPM rather
than CFTC.


Note 7. Actuarial FECA Liabilities
FECA provides income and medical cost protections to covered federal civilian employees injured on the job, to employees
who have incurred work-related occupational diseases and to beneficiaries of employees whose deaths are attributable to
job-related injuries or occupational diseases. The FECA program is administered by the U.S. Department of Labor (DOL),
which pays valid claims against the CFTC and subsequently seeks reimbursement from the CFTC for these paid claims.
Accrued FECA liabilities represent amounts due to DOL for claims paid on behalf of the agency. Accrued FECA liabilities
at September 30, 2007 and September 30, 2006 were $32,787 and $29,484, respectively.

Actuarial FECA liability represents the liability for future workers compensation (FWC) benefits, which includes the
expected liability for death, disability, medical, and miscellaneous cost for approved cases. The liability is determined
using a formula provided by DOL annually as of September 30th using a method that utilizes historical benefits payment
patterns related to a specific incurred period to predict the ultimate payments related to that period. The projected annual
benefits payments are discounted to present value using OMB’s economic assumptions for ten-year Treasury notes and



118     CFTC
                                                                     FINANCIAL SECTION




bonds. To provide more specifically for effects of inflation on liability for FWC benefits, wage inflation factors (Consumer
Price Index-Medical) are applied to the calculation of projected future benefits. These factors are also used to adjust
historical payments so benefits are stated in current-year constant dollars. Actuarial FECA liabilities at September 30, 2007
and September 30, 2006 were $190,216 and $281,801, respectively.


Note 8. Leases
The CFTC leases office space in publicly owned buildings for its locations in Washington D.C., Chicago, New York, and
Kansas City. The lease contracts for publicly-owned buildings are operating leases. The CFTC has no real property. Future
estimated minimum lease payments are not accrued as liabilities and are expensed on a straight-line basis.

As of September 30, 2007, future estimated minimum lease payments through FY 2011, and thereafter, is as follows:

  Fiscal Year                                                                                                         Dollars
  2008                                                                                                      $	 10,608,222
  2009                                                                                                            10,801,167
  2010                                                                                                            10,970,480
  2011                                                                                                            11,268,766
  2012                                                                                                             9,898,728
  Thereafter                                                                                                      24,737,283
  Total Minimum lease payments                                                                                    78,284,646
  Add: Amount representing estimated executory costs (such as taxes, maintenance, and insurance)                  18,329,439

  Total minimum lease payments, including estimated executory costs                                             $	 96,614,085


Lease expense is recognized on a straight-line basis. Because the lease payment amounts vary, and in some cases, CFTC
received periods of up-front free rent, a deferred lease liability representing expense amounts in excess of payments to
date, has been recorded. The deferred lease liabilities at September 30, 2007 and September 30, 2006 were $3,169,541
and $2,837,403, respectively.


Note 9. Contingent Liabilities
The CFTC records commitments and contingent liabilities for legal cases in which payment has been deemed probable
and for which the amount of potential liability has been estimated, including certain judgments that have been issued
against the agency and which have been appealed. In FY 2007, the Commission estimates a probable liability of $310,000
in connection with a Merit Systems Protection Board suit.


Note 10. Undelivered Orders
The amount of budgetary resources obligated for undelivered orders as of September 30, 2007 and 2006 consisted of the
following:

                                                                                                    2007                2006
  Undelivered Orders                                                                   $	      7,204,942   $	       8,599,488


The amount of undelivered orders represents the value of unpaid and paid obligations recorded during the fiscal year,
upward adjustments of obligations that were originally recorded in a prior fiscal year, and recoveries resulting from
downward adjustments of obligations that were originally recorded in a prior fiscal year.



                                                                                                                CFTC      119
Note 11. Apportionment Categories of Obligations Incurred

Obligations incurred and reported in the Statements of Budgetary Resources in 2007 and 2006 consisted of the
following:

                                                                                                 2007               2006
  Direct Obligations, Category A                                                     $	    99,575,548   $	   101,255,783
  Reimbursable Obligations, Category A                                                        118,453             23,150

  Total Obligations Incurred                                                         $	    99,694,001   $	   101,278,933



Note 12. Permanent Indefinite Appropriations
The CFTC’s permanent indefinite appropriation as authorized by Public Law 107-38 funds emergency expenses to respond
to the terrorist attacks on the United States that occurred on September 11, 2001. The fund provides support to deal with
consequences of the attacks and support national security.




Note 13. Explanation of Differences between the Statement of Budgetary Resources and
Budget of the United States Government
The CFTC had no material differences between the amounts reported in the Statement of Budgetary Resources and the
actual amounts reported in the Budget of the U.S. Government for FY 2006. The Budget of the U.S. Government with
actual numbers for FY 2007 has not yet been published. The expected published date is February 2008. A copy of the
Budget can be obtained from OMB’s Internet site at http://www.whitehouse.gov/omb/.




Note 14. Intra-governmental Cost and Exchange Revenue by Goal
As required by the Government Performance and Results Act of 1993, the agency’s reporting has been aligned with the
following major goals presented in the 2004 – 2009 CFTC Strategic Plan, Keeping Pace with Change:

1. Ensure the Economic Vitality of the Commodity Futures and Option Markets;

2. Protect Market Users and the Public; and

3. Ensure Market Integrity in Order to Foster Open, Competitive, and Financially Sound Markets.

The Net Cost of Operations is derived from transactions between the Commission and public entities, as well as with
other federal agencies. The details of the intra-governmental costs and revenues, as well as those with the public, are as
follows:




120    CFTC
                                                                      FINANCIAL SECTION




                                                                                             2007                        2006

  Goal 1: Ensure the economic vitality of the commodity futures and option markets
  Intragovernmental Gross Costs                                          $	            9,335,684     $	          5,254,073
  Less: Earned Revenue                                                                    (1,332)    	                     -
  Intragovernmental Net Cost of Operations                               $	            9,334,352     $	          5,254,073

  Gross Costs with the Public                                            $	          28,339,494      $	         28,107,867
  Less: Earned Revenue                                                                   (32,620)                    (7,407)
  Net Cost of Operations with the Public                                 $	          28,306,874      $	         28,100,460

  Total Net Cost of Operations – Goal One                                $	          37,641,226      $	         33,354,533

  Goal 2: Protect market users and the public
  Intragovernmental Gross Costs                                          $	            8,831,052     $	          6,403,402
  Less: Earned Revenue                                                                    (1,260)    	                     -
  Intragovernmental Net Cost of Operations                               $	            8,829,792     $	          6,403,402

  Gross Costs with the Public                                            $	          26,807,630      $	         34,256,464
  Less: Earned Revenue                                                                   (30,857)                    (9,029)
  Net Cost of Operations with the Public                                 $	          26,776,773      $	         34,247,435

  Total Net Cost of Operations – Goal Two                                $	          35,606,565      $	         40,650,837


  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets
  Intragovernmental Gross Costs                                          $	            7,064,842     $	          4,761,504
  Less: Earned Revenue                                                                    (1,008)    	                     -
  Intragovernmental Net Cost of Operations                               $	            7,063,834     $	          4,761,504

  Gross Costs with the Public                                            $	          21,446,104      $	         25,472,755
  Less: Earned Revenue                                                                   (24,686)                    (6,714)
  Net Cost of Operations with the Public                                 $	          21,421,418      $	         25,466,041

  Total Net Cost of Operations – Goal Three                              $	          28,485,252      $	         30,227,545


  Net Cost of Operations                                                 $	         101,733,043      $	        104,232,915




Note 15. Reconciliation of Net Obligations and Net Cost of Operations
The schedule presented in this footnote reconciles the net obligations with the net cost of operations. Resources Used to
Finance Activities reflects the budgetary resources obligated and other resources used to finance the activities of the agency.
Resources Used to Finance Items Not Part of the Net Cost of Operations adjusts total resources used to finance the activi-
ties of the entity to account for items that were included in net obligations and other resources but were not part of the net
cost of operations. Components Requiring or Generating Resources in Future Periods identifies items that are recognized
as a component of the net cost of operations for the period but the budgetary resources (and related obligation) will not
be provided (or incurred) until a subsequent period. Components Not Requiring or Generating Resources includes items



                                                                                                               CFTC       121
recognized as part of the net cost of operations for the period but will not generate or require the use of resources. Net
Cost of Operations agrees with the Net Cost of Operations as reported on the Statements of Net cost.


                                                                                                           2007                  2006

  Resources Used to Finance Activities
  Budgetary Resources Obligated
  Obligations Incurred                                                                          $	   99,694,001       $	 101,278,933
  Less: Spending Authority from Offsetting Collections and Recoveries                                (4,898,384)           (5,631,132)
  Obligations Net of Offsetting Collections and Recoveries                                           94,795,617            95,647,801
  Less: Offsetting Receipts                                                                             (12,378)               (5,499)
  Net Obligations After Offsetting Receipts                                                          94,783,239            95,642,302

  Other Resources
  Imputed Financing from Cost Absorbed by Others                                                      3,875,903             3,930,110
  Total Resources Used to Finance Activities                                                    $	   98,659,142       $	 99,572,412


  Resources Used to Finance Items Not Part of the Net Cost of Operations
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but
                                                                                                      1,587,752             6,707,559
  not yet Provided
  Resources That Fund Expenses Recognized in Prior Periods (Decrease in unfunded liabilities)          (325,401)             (465,635)
  Offsetting Receipts                                                                                   12,378        	         5,499
  Resources that Finance the Acquisition of Fixed Assets                                                          -        (2,447,064)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations                  $	    1,274,729       $	    3,800,359



  Components of the Net Cost of Operations That Will not Require or Generate
  Resources in the Current Period
  Increase in Contingent Liabilities                                                                   298,400                11,600
  Increase in Unfunded Deferred Leases and FECA Liability                                              335,441               670,885
  Decrease in Prepayments                                                                              329,896        	             -
  Increase in exchange revenue receivable from the public                                               (40,300)              (53,523)
  Total Components of Net Cost of Operations that will Require or Generate Resources
                                                                                                $	     923,437        $	     628,962
   in Future Periods


  Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                                        823,582               225,049
  Revaluation of Assets or Liabilities                                                          	             -                 6,133
  Other                                                                                                 52,153        	             -
  Total Components of Net Cost of Operations that will Not Require or
                                                                                                $	     875,735        $	     231,182
   Generate Resources

  Total Components of Net Cost of Operations that will Not Require or
                                                                                                $	    1,799,172       $	     860,144
   Generate Resources in the Current Period

  Net Cost of Operations                                                                        $	 101,733,043        $	 104,232,915


		




122 CFTC
Report of the Independent Auditors
                                    KPMG LLP
                                    2001 M Street, NW
                                    Washington, DC 20036




                                         Independent Auditors’ Report


     Acting Chairman and Inspector General of the
     U.S. Commodity Futures Trading Commission:

     We have audited the accompanying balance sheets of the Commodity Futures Trading
     Commission (CFTC) as of September 30, 2007 and 2006, and the related statements of net cost,
     changes in net position, and custodial activity, and statements of budgetary resources (hereinafter
     referred to as “financial statements”) for the years then ended. The objective of our audits was to
     express an opinion on the fair presentation of these financial statements. In connection with our
     fiscal year 2007 audit, we also considered CFTC’s internal controls over financial reporting and
     performance measures and tested CFTC’s compliance with certain provisions of applicable laws,
     regulations, contracts, and grant agreements that could have a direct and material effect on these
     financial statements.

     SUMMARY

     As stated in our opinion on the financial statements, we concluded that CFTC’s financial
     statements as of and for the years ended September 30, 2007 and 2006, are presented fairly, in all
     material respects, in conformity with U.S. generally accepted accounting principles.

     As discussed in our opinion, CFTC changed its method of reporting the reconciliation of
     budgetary resources obligated to the net cost of operations in fiscal year 2007.

     Our consideration of internal control over financial reporting resulted in the following condition
     being identified as a significant deficiency:

     x   Improvement is Needed over Recording Accruals

     However, we do not consider the significant deficiency above to be a material weakness.

     We noted no deficiencies involving the design of the internal control over the existence and
     completeness assertions related to key performance measures.

     The results of our tests of compliance with certain provisions of laws, regulations, and contracts
     disclosed no instances of noncompliance or other matters that are required to be reported herein
     under Government Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for
     Federal Financial Statements.

     The following sections discuss our opinion on CFTC’s financial statements; our consideration of
     CFTC’s internal controls over financial reporting and performance measures; our tests of CFTC’s
     compliance with certain provisions of applicable laws, regulations, contracts, and grant
     agreements; and management’s and our responsibilities.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.




124 CFTC
                                                         FINANCIAL SECTION




OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the Commodity Futures Trading
Commission as of September 30, 2007 and 2006, and the related statements of net cost, changes
in net position, and custodial activity, and the statements of budgetary resources for the years then
ended.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Commodity Futures Trading Commission as of September 30, 2007
and 2006, and its net costs, changes in net position, budgetary resources, and custodial activity for
the years then ended, in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1 to the financial statements, CFTC changed its method of reporting the
reconciliation of budgetary resources obligated to the net cost of operations in fiscal year 2007.

The information in the Management Discussion and Analysis is not a required part of the
financial statements, but is supplementary information required by U.S. generally accepted
accounting principles and OMB Circular No. A-136, Financial Reporting Requirements. We have
applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not
audit this information and, accordingly, we express no opinion on it.

The information in the FY 2007 Performance Section, Other Accompanying Information,
Appendices, and pages 2 and 3 are presented for purposes of additional analysis and are not
required as part of the financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects CFTC’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of CFTC’s
financial statements that is more than inconsequential will not be prevented or detected by
CFTC’s internal control over financial reporting. A material weakness is a significant deficiency,
or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the financial statements will not be prevented or detected by CFTC’s
internal control.

In our fiscal year 2007 audit, we consider the deficiency described in Exhibit I to be a significant
deficiency in internal control over financial reporting. However, we believe that the significant
deficiency described in Exhibit I is not a material weakness. Exhibit II presents the status of prior
year comments.




                                                                                                CFTC 125
     We also noted certain additional matters that we reported to the management of CFTC in a
     separate letter dated November 15, 2007.

     INTERNAL CONTROL OVER PERFORMANCE MEASURES

     Our tests of internal control over performance measures, as described in the Responsibilities
     section of this report, disclosed no deficiencies involving the design of the internal control over
     the existence and completeness assertions related to key performance measures.

     COMPLIANCE AND OTHER MATTERS

     The results of our tests of compliance described in the Responsibilities section of this report,
     exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other
     matters that are required to be reported herein under Government Auditing Standards or OMB
     Bulletin No. 07-04.

     The results of our tests of FFMIA disclosed no instances in which CFTC’s financial management
     systems did not substantially comply with the three requirements discussed in the Responsibilities
     section of this report.

                                                  * * * * *
     RESPONSIBILITIES

     Management’s Responsibilities. The United States Code Title 31 Section 3515 and 9106 require
     agencies to report annually to Congress on their financial status and any other information needed
     to fairly present their financial position and results of operations. To meet these reporting
     requirements, CFTC prepares and submits financial statements in accordance with OMB Circular
     No. A-136.

     Management is responsible for the financial statements, including:

     x     Preparing the financial statements in conformity with U.S. generally accepted accounting
           principles;

     x     Preparing the Management Discussion and Analysis (including the performance measures);

     x     Establishing and maintaining effective internal control; and

     x     Complying with laws, regulations, and contracts applicable to CFTC, including FFMIA.

     In fulfilling this responsibility, management is required to make estimates and judgments to
     assess the expected benefits and related costs of internal control policies.

     Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2007
     and 2006 financial statements of CFTC based on our audits. We conducted our audits in
     accordance with auditing standards generally accepted in the United States of America; the
     standards applicable to financial audits contained in Government Auditing Standards, issued by
     the Comptroller General of the United States; and OMB Bulletin No. 07-04. Those standards and
     OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable




126 CFTC
                                                        FINANCIAL SECTION




assurance about whether the financial statements are free of material misstatement. An audit
includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
express no such opinion.

An audit also includes:

x   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;

x   Assessing the accounting principles used and significant estimates made by management; and

x   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2007 audit, we considered CFTC’s internal control
over financial reporting by obtaining an understanding of CFTC’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards and OMB
Bulletin No. 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our
audit was not to express an opinion on the effectiveness of CFTC’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of CFTC’s internal
control over financial reporting.

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect to internal
control related to performance measures determined by management to be key and reported in the
Management Discussion and Analysis and Performance sections, we obtained an understanding
of the design of internal controls relating to the existence and completeness assertions and
determined whether these internal controls had been placed in operation. We limited our testing
to those controls necessary to report deficiencies in the design of internal control over key
performance measures in accordance with OMB Bulletin 07-04. However, our procedures were
not designed to provide an opinion on internal control over reported performance measures and,
accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2007 financial
statements are free of material misstatement, we performed tests of CFTC’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a
direct and material effect on the determination of the financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including certain
provisions referred to in FFMIA. We limited our tests of compliance to the provisions described
in the preceding sentence, and we did not test compliance with all laws, regulations, and contracts
applicable to CFTC. However, providing an opinion on compliance with laws, regulations, and
contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether financial
management systems for executive departments and agencies subject to the Chief Financial




                                                                                               CFTC 127
     Officers Act of 1990 substantially comply with (1) Federal financial management systems
     requirements, (2) applicable Federal accounting standards, and (3) the United States Government
     Standard General Ledger at the transaction level. As an agency requiring financial statement
     reporting under the Accountability of Tax Dollars Act of 2002, CFTC is not subject to FFMIA.
     However, it has elected to implement the provisions as described above. Therefore, we performed
     tests of compliance with FFMIA Section 803(a) requirements.

                                   ______________________________

     CFTC’s response to the finding identified in our audit is presented in Exhibit I. We did not audit
     CFTC’s response and, accordingly, we express no opinion on it.

     This report is intended solely for the information and use of CFTC’s management, CFTC’s Office
     of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress
     and is not intended to be and should not be used by anyone other than these specified parties.




     November 15, 2007




128 CFTC
                                                          FINANCIAL SECTION




                                                                                            Exhibit I

                 U.S. COMMODITY FUTURES TRADING COMMISSION

                                       Significant Deficiency


Improvement is Needed over Recording Accruals

Condition:

Although CFTC has developed and implemented a process for estimating its interim and year-end
accounts payable and accruals, the process needs improvement. At year-end, each individual
Contracting Officer’s Technical Representative (COTR) evaluates contracts for open obligations
to determine whether a liability should be accrued, and informs the Office of Financial
Management.

We noted that CFTC did not properly record accruals for five out of eight items tested, resulting
in a net overstatement of $466,650. In addition, we identified six unrecorded liabilities and one
improperly recorded liability out of 35 subsequent cash disbursements tested, resulting in a net
understatement of $189,399.

As part of our accruals testing, we noted that certain amounts recorded into Markview, CFTC’s
online procurement approval system, by the COTR as being payable as of September 30, 2007
were not properly recorded in the general ledger because they were awaiting approval in the
system. Per further investigation by CFTC, approximately $2,425 of invoices entered into
Markview were not recorded in the general ledger in addition to the exceptions noted above.

Separately, we noted an overstatement of $71,772 in CFTC’s year-end reconciliation of the
Accounts Payable sub-ledger to the general ledger.

Criteria:

Office of Management and Budget’s Circular No. A-136, Financial Reporting Requirements,
defines accounts payable as the amounts owed by the reporting agency for goods and services
received from other entities, progress in contract performance made by other entities, and rents
due to other entities.

Statement of Federal Financial Accounting Standards No. 1, Accounting for Selected Assets and
Liabilities, paragraph 74, states that when the entity accepts title to goods, whether goods are
received or in transit, the entity should recognize a liability for the unpaid amount of the goods. If
invoices for those goods are not available when the financial statements are prepared, the
amounts should be estimated.

Cause:

Differences in the accrual amount are a result of inadequate knowledge of the COTRs over the
purpose of the accrual and inadequate review of the estimated payables. The Office of Financial
Management (OFM) did not discover these errors during its review of the accruals.




                                                                                                 CFTC 129
                                                                                             Exhibit I

                       U.S. COMMODITY FUTURES TRADING COMMISSION

                                            Significant Deficiency

       Unrecorded liabilities which were identified through subsequent disbursements were not included
       in CFTC’s year end accrual because these contracts were not reviewed or were overlooked by the
       COTRs. CFTC did not identify these contracts as having potential unrecorded liabilities and
       therefore they were not reviewed in the accrual process.

       CFTC did not accrue for some liabilities which were not approved in Markview. In these
       instances, CFTC assumed that all invoices entered into Markview prior to year end were posted to
       USSGL account 2110, Accounts Payable (AP). This was not true. Only invoices that were
       approved in Markview were posted to USSGL account 2110. Therefore, all invoices that were
       pending approval were not recorded in AP as of September 30, 2007.

       The difference noted in the AP reconciliation was due to cancelled invoices in the AP subledger,
       which were not properly reversed in the accounting system due to management oversight.

       Effect:

       The aggregated amount of all known differences identified in our sample totaled to a net
       overstatement of accounts payable of $346,598. CFTC management adjusted its general ledger
       for most of the errors, resulting in a remaining understatement of accounts payable of $2,500.

       Recommendations:

       We recommend that CFTC Office of Financial Management, in coordination with the COTRs:

       1   Ensure that COTRs receive the necessary training over the purpose and intent of estimating
           accruals, and understand the proper year-end cutoff procedures;

       2   Review a sample of estimated accruals submitted by the COTRs for reasonableness by
           examining the related contracts, or inquiring of the COTRs if the payment details are not
           clearly set out in the contract;

       3   Ensure that all invoices entered into Markview are approved in a timely manner;

       4   Review the posting processes in Delphi to ensure all invoices entered into Markview are
           included in accounts payable; and

       5   Perform monthly reconciliations between the AP subledger to the general ledger and resolve
           any discrepancies.

       Agency Response:

       We concur with this finding and agree with the recommendations.




130   CFTC
                                                        FINANCIAL SECTION




                                                                                         Exhibit II

                  U.S. COMMODITY FUTURES TRADING COMMISSION

                        Fiscal Year 2007 – Status of Prior Year Comments


The status of prior year material weaknesses, reportable conditions, and compliance matters is
presented below.


    Internal Control Over Financial Reporting                 Fiscal Year 2007 Status


                 Material Weakness

Improvement Needed over Financial Reporting

x   Allowance for Custodial Fines Receivable   x            Resolved.
x   Accounting for Leases and Knowledge of x                Resolved.
    Accounting Principles
x   Recording Accruals and Preparing Financial x            Revised and repeated as a
    Statements                                              significant deficiency.

               Reportable Conditions

Financial Management Systems Need Improvement           Resolved.

Improvement is Needed in the Fixed Asset System         Resolved.

Improvement is Needed in Evaluating Undelivered         Resolved.
Orders and Recording Budgetary Transactions


      Compliance with Laws and Regulations

Noncompliance with the Federal Information              Resolved.
Security Management Act

Noncompliance with the Federal Financial                Resolved.
Management Improvement Act of 1996 (although
CFTC is not required to comply with FFMIA, it has
elected to do so)




                                                                                                 CFTC   131
O t h e r A ccompanying I nfo r mation




  Management Challenges....................................... 133

  Summary of Audit and Management Assurances..... 135
                        Management Challenges

Management Address Inspector General’s                                FY 2007 Actions Taken or Actions in Progress:
FY 2006 Assessment
                                                                      ■	   Guidance issued to strengthen futures exchange gover-
The Commission has addressed or is addressing the                          nance by calling for increased public representation
concerns identified in the FY 2006 PAR. In FY 2006, the IG                 at key levels of decision-making, including boards of
identified two “serious management challenges” facing the                  directors.
Commission: 1) Industry Consolidations, and 2) Exchange
Traded Revolutions.                                                   Challenge #2, Exchange Traded Revolutions

The following is the IG’s FY 2006 assessment for each chal-           FY 2006 IG Assessment: “The passage of the Commodity
lenge and the Commission’s actions taken in FY 2007 to                Futures Modernization Act on December 15, 2000 fundamen-
address these challenges.                                             tally changed the role of the CFTC from a prescriptive regulator
                                                                      to more of a principles based regulator. Since then the sheer
Challenge #1, Industry Consolidations                                 volume of on exchange trading of derivatives has grown dramati-
                                                                      cally to over 2 billion derivative contracts traded annually on
FY 2006 IG Assessment: “Recently, the two largest floor based
                                                                      U.S.-based exchanges. Along with this tremendous growth in
derivatives exchanges have agreed to merge. This consolida-
                                                                      trading volume we have witnessed structural changes in the
tion wave in the derivatives industry will likely continue and
                                                                      industry that challenge the flexibility and resourcefulness of the
combined with the trend towards demutualization in ownership
                                                                      regulatory paradigm ushered in by the CFMA. Recently the
result in fewer non-publicly traded exchanges. Consequently, the
                                                                      agency has responded to these changes by expanding its views
CFTC will have to evaluate its decisions and actions relative to
                                                                      on best practices issues such as corporate governance which may
other regulatory agencies such as the SEC and others (exchange
                                                                      foster greater responsiveness to exchange stakeholders.
shareholders, non-U.S. regulators and other stakeholders) that
are now directly affected by actions undertaken by the CFTC           Further the agency has historically relied on floor based surveil-
affecting the consolidated entity.     Active consultation with       lance of derivatives markets which now are rapidly dwindling
members of the President’s Working Group on Financial Markets         in trading volume prominence.       Currently over sixty percent
will be essential in order to effectively address any unanticipated   of exchange traded derivatives are conducted on an electronic
market disruptions.”                                                  platform. This raises the question of whether the agency has
                                                                      the information technology infrastructure and staff to efficiently
                                                                      and effectively conduct timely surveillance of these dynamic and
                                                                      economically essential global markets.”



                                                                                                                       CFTC 133
FY 2007 Actions Taken or Actions in Progress:                    ■	   In addition, the Commission is in the process of
                                                                      purchasing a software product that will be used in
■	   As part of the Commission’s overall mission to ensure            conjunction with the database system in order to
     market integrity and customer protection, it collects            support its TSS program.       Full deployment of the
     trade data from all U.S. future exchanges and conducts           database system and new software began in FY 2007 and
     investigations to detect possible trading abuses through         should be fully operational in late FY 2009. The new
     the Exchange Database System (EDBS), which was devel-            software will perform sophisticated pattern recognition
     oped in the mid-1980s. Presently, the Commission is              using advanced data analysis techniques to automate
     developing a new trade surveillance system, TSS, to              basic trade practice surveillance. The software will also
     replace EDBS because it has not been significantly               have the capability to detect novel and complex abusive
     upgraded since its inception.     New technology will            practices in today’s high-speed, high-volume global
     enhance staff’s ability to effectively detect and deter          trading environment. Several new and important func-
     trade practice violations in a rapidly changing envi-            tions that do not exist in its current systems will enable
     ronment, especially with respect to electronic trading           the Commission to conduct inter-market surveillance
     data, and will provide staff with greater efficiency and         across different trading platforms and exchanges.
     flexibility. TSS also will fill a vacuum in inter-market
     surveillance that only the Commission can address,
     e.g., side-by-side and simultaneous trading of a contract
     on a DCM’s floor and the DCM’s electronic trading
     platform.




134 CFTC
                        Summary of Audit and
                       Management Assurances
Summary of FY 2007 Financial Statement Audit
Audit Opinion:                Unqualified
Restatement:                  No
     Material Weakness        Beginning Balance          New              Resolved    Consolidated     Ending Balance
     Financial Reporting              1                   0                  1              0                0


Summary of Management Assurances
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance:       Unqualified
     Material Weakness        Beginning Balance     New        Resolved    Consolidated   Reassessed   Ending Balance
        Financial Reporting           1              0            1              0              0            0
Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance:       Unqualified
     Material Weakness        Beginning Balance     New        Resolved    Consolidated   Reassessed   Ending Balance
        No Items to Report            0              0            0              0              0            0
Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance:       Systems conform to financial management system requirements
        Non-Conformance       Beginning Balance     New        Resolved    Consolidated   Reassessed   Ending Balance
        Federal Information           1              0            1              0              0            0
           Security Act
Compliance with Federal Financial Management Improvement Act (FFMIA)
                                            Agency                                          Auditor
Overall Substantial                           Yes                                               Yes
Compliance
1. System Requirements                                                Yes
2. Accounting Standards                                               Yes
3. USSGL at Transaction                                               Yes
Level



                                                                                                       CFTC 135
                           A ppendi x




FY 2007 Commissioners..................................................137

Enforcement Litigation by Strategic Goal..........................140

CFTC Information Technology Systems.............................153

Glossary of Abbreviations and Acronyms...........................154
                                   FY 2007 Commissioners

The Commissioners

Walter L. Lukken, Acting Chairman


                                   W          alter Lukken was appointed
                                              Acting Chairman by the
                                   Commission on June 27, 2007.
                                                                                             sents the Commission before international organizations
                                                                                             and forums, including the International Organization of
                                                                                             Securities Commissions (IOSCO) and the Committee of
                                   In     September           2007,       President          European Securities Regulators (CESR). He spoke before
                                   Bush nominated Mr. Lukken to be                           the U.S.-China Joint Economic Committee hosted by the
                                   Chairman of the Commission. He                            U.S. Department of Treasury on the developing role of
                                   was first appointed Commissioner                          derivatives markets in China.
                                   in 2002 and is now serving his
                                   second term due to expire in 2010.                        Prior to joining the CFTC, Acting Chairman Lukken served
                                                                                             for five years as counsel on the professional staff of the U.S.
Acting Chairman Lukken has testified several times before                                    Senate Agriculture Committee under Chairman Richard
Congress and represents the agency as part of the President’s                                Lugar (R-IN), specializing in futures and derivatives
Working Group on Financial Markets. He works frequently                                      markets. In this capacity, he was prominently involved
with other domestic and foreign financial regulators.                                        in the development, drafting and passage of the CFMA
                                                                                             (H.R. 5660).
Acting Chairman Lukken serves as chairman of the CFTC’s
Global Markets Advisory Committee (GMAC).                                          The       A native of Richmond, Indiana, he received his B.S. degree
GMAC was created by the Commission to provide an                                             with honors from the Kelley School of Business at Indiana
industry forum in which it can discuss the many complex                                      University, and his Juris Doctor degree from Lewis and
and novel issues raised by the ever-increasing globaliza-                                    Clark Law School in Portland, Oregon. Acting Chairman
tion of futures markets. In this role, he frequently repre-                                  Lukken is a member of the Illinois Bar.



PHOTO ABOVE: Acting Chairman Lukken and Commissioner Sommers stand in the foreground of a photograph of the brass CFTC seal recovered from the Ground Zero rubble of
the World Trade Center in the aftermath of the September 11, 2001 terrorist attack. The original seal is in remarkably fine condition and presently displayed in the main reception area
of the CFTC’s relocated New York Office at 140 Broadway. Thankfully, all CFTC employees were safely evacuated on September 11. (See http://www.cftc.gov/newsroom/cftcev-
ents/archive/opaspotlight080703.html for more information on the Homecoming Ceremony for the CFTC’s seal held at the New York Office on August 7, 2003.)




                                                                                                                                                                  CFTC 137
Michael V. Dunn, Commissioner                                    Jill E. Sommers, Commissioner



                        M       ichael V. Dunn was nomi-
                                nated to a second term as a
                        Commissioner of the Commodity
                                                                                         J     ill E. Sommers was sworn in as a
                                                                                               CFTC Commissioner on August
                                                                                         8, 2007 to a term that expires April
                        Futures Trading Commission by                                    13, 2009. Commissioner Sommers
                        President Bush on June 16, 2006,                                 has worked in the commodity
                        and confirmed by the Senate on                                   futures and options industry in a
                        August 3, 2006.      Mr. Dunn has                                variety of capacities throughout her
                        served as a Commissioner since                                   career. In 2005, she was the Policy
                        December 6, 2004.        On January                              Director and Head of Government
9, 2006, he was chosen by his colleagues to chair the            Affairs for the International Swaps and Derivatives
Commission’s     Agriculture   Advisory    Committee     and     Association, where she worked on a number of over-the-
on March 13, 2006, he was appointed chairman of the              counter derivatives issues.
Commission’s Forex Task Force.
                                                                 Prior to that, Ms. Sommers worked for the Chicago
Prior to joining the CFTC, Mr. Dunn served as Director, Office   Mercantile Exchange, including overseeing regulatory and
of Policy and Analysis at the Farm Credit Administration         legislative affairs for the exchange. During her tenure with
(FCA). Prior to this position, in January 2001 he served         the exchange, she had the opportunity to work closely
briefly as a member of the FCA Board.                            with congressional staff drafting the Commodity Futures
                                                                 Modernization Act of 2000.
Prior to joining FCA, Mr. Dunn was the Under Secretary of
Agriculture for Marketing and Regulatory Programs at the         Commissioner Sommers started her career in Washington
U.S. Department of Agriculture (USDA). He also served as         in 1991 as an intern for Senator Robert J. Dole (R-KS),
the Acting Under Secretary for Rural Economic Community          where she worked in various capacities until 1995. She
Development and as Administrator of the Farmers Home             later worked as a legislative aide for two consulting firms
Administration (FmHA) at USDA.                                   specializing in agricultural issues, Clark & Muldoon, P.C.
                                                                 and Taggart and Associates.
Mr. Dunn has had a long involvement in agricultural credit
dating back to the late 1970s, when he was the Midwest           A native of Fort Scott, Kansas, Ms. Sommers holds a
Area Director for the FmHA. He has been a loan officer and       Bachelor of Arts degree from the University of Kansas. She
vice president of the Farm Credit Banks of Omaha and has         and her husband, Mike, currently reside in the Washington,
served as a member of the Professional Staff of the Senate       DC area and have three children ages 5, 4, and 3.
Agricultural Committee, specializing in agricultural credit.
At the USDA, Mr. Dunn also served as a member of the
Commodity Credit Corporation and Rural Telephone Bank
Board. He is a past member of the Iowa Development
Commission and has served as the Chairman of the State
of Iowa’s City Development Board.

A native of Keokuk, Iowa, and a current resident of Harpers
Ferry, West Virginia, Mr. Dunn received his B.A. and M.A.
degrees from the University of New Mexico.




138 CFTC
                                                                      A ppendI C E S




Bart Chilton, Commissioner



                         B   art Chilton was sworn in
                             as CFTC Commissioner on
                         August 8, 2007. He was formerly
                                                                 key positions just below the top Presidential appointees.
                                                                 As an SES member, Chilton served as a major link between
                                                                 Secretary Glickman and the rest of the Federal work force
                         the Chief of Staff and Vice President   at USDA.
                         for Government Relations at the
                         National Farmers Union—one of           From 1985 - 1995, Mr. Chilton worked in the U.S. House
                         the oldest and largest trade associa-   of Representatives as Legislative Director for three different
                         tions.                                  Members of Congress on Capitol Hill. He also worked in
                                                                 the U.S. House as the Executive Director of the bipartisan
                         In 2005, Mr. Chilton was a              Congressional Rural Caucus.
Schedule C political appointee of President Bush at the
U.S. Farm Credit Administration where he served as an            Mr. Chilton previously served on the Board of Directors
Executive Assistant to the Board. From 2001 - 2005, Mr.          of Bion Environmental Technologies, and the Association
Chilton was a Senior Advisor to Senator Tom Daschle, the         of Family Farms—where he also served on the Executive
Democrat Leader of the U.S. Senate where he worked on            Committee and as Treasurer.
myriad issues including, but not limited to, agriculture and
                                                                 Mr. Chilton was born in Delaware and spent his youth
transportation policy.
                                                                 in Indiana where he attended Purdue University (1979 -
From 1995 - 2001, Mr. Chilton was a Schedule C political         1982). He studied political science and communications
appointee of President Clinton where he rose to Deputy           and was a collegiate leader of several organizations. Mr.
Chief of Staff to the U.S. Secretary of Agriculture Dan          Chilton and his wife, Sherry Daggett Chilton, reside on the
Glickman. In this role, Chilton became a member of the           Western Shore of the Chesapeake Bay.
Senior Executive Service (SES)—government executives
selected for their leadership qualifications to serve in the




                                                                                                               CFTC 139
                       Enforcement Litigation
                          by Strategic Goal

Enforcement Litigation by Goal One                             defendants intended to lower the prices of the NYMEX
                                                               natural gas futures contracts to benefit defendants’ larger
Manipulation, Attempted Manipulation                           swaps positions on ICE and elsewhere. The complaint
& False Reporting                                              also alleges that, in response to an inquiry from NYMEX
                                                               about the April 26, 2006 trading, Amaranth Advisors L.L.C.
■	   CFTC v. Amaranth Advisors, L.L.C., et al.                 made false statements to NYMEX to cover up defendants’
                                                               attempted manipulation. The Commission received coop-
On July 25, 2007, the Commission filed a civil enforce-        eration from the Federal Energy Regulatory Commission
ment action charging Amaranth Advisors, L.L.C., Amaranth       (FERC), SEC, and NYMEX in connection with this matter.
Advisors (Calgary) ULC (collectively Amaranth), and Brian      CFTC v. Amaranth Advisors, L.L.C., et al., No. ’07 CIV 6682
Hunter with attempted manipulation.        Specifically, the   (S.D.N.Y. filed July 25, 2007).
complaint alleges that the defendants intentionally and
unlawfully attempted to manipulate the price of natural gas    ■	   CFTC v. Energy Transfer Partners, L.P.
futures contracts on the NYMEX on February 24 and April
26, 2006. February 24, 2006 was the last day of trading        On July 26, 2007, the Commission filed a civil enforcement
(expiry day) for the March 2006 NYMEX natural gas futures      action charging Energy Transfer Partners, L.P. (ETP), and
contract and April 26, 2006 was the expiry day of the May      three ETP subsidiaries (Energy Transfer Company (a/k/a La
2006 NYMEX natural gas futures contract. The settlement        Grange Acquisition, L.P.) (ETC), Houston Pipeline Company
price of each NYMEX natural gas futures contract is deter-     (HPLC), and ETC Marketing, Ltd. (ETC Marketing)) with
mined by the volume weighted average of trades executed        attempted manipulation.           Specifically, the complaint
from 2:00-2:30 p.m. (the closing range) on the expiry day      alleges that the defendants attempted to manipulate the
of such contracts. The complaint alleges that, for each of     price of physical natural gas at the Houston Ship Channel
the expiry days at issue, the defendants acquired more than    (HSC) delivery hub during September and November
3,000 NYMEX natural gas futures contracts in advance           2005. The complaint further alleges that the defendants
of the closing range, which they planned to, and for the       attempted to manipulate the October 2005 and December
most part did, sell during the closing range. The complaint    2005 HSC monthly index prices of natural gas published
also alleges that defendants held large short natural gas      by Platts (a division of The McGraw-Hill Companies, Inc.)
financially-settled swaps positions, primarily held on the     in its Inside FERC’s Gas Market Report (Inside FERC). The
IntercontinentalExchange (ICE). The settlement price of        complaint alleges that the defendants used Hurricane Rita
the ICE swaps is based on the NYMEX natural gas futures        as a pretext for their scheme. Specifically, the complaint
settlement price determined by trading done during the         states that Hurricane Rita made landfall in the Texas and
closing range on expiry day. The complaint alleges that        Louisiana Gulf region on September 24, 2005, and demand


140 CFTC
                                                                     A ppendI C E S




for natural gas in Houston dropped as residents fled the        Marathon Oil Corporation, finding that MPC attempted to
hurricane. Anticipating this occurrence, the defendants         manipulate a price of spot cash WTI crude oil delivered at
allegedly devised a four-step plan to take advantage of—        Cushing, Oklahoma on November 26, 2003, by attempting
and financially benefit from—Hurricane Rita’s impact. As        to influence downward the Platts market assessment for
alleged, the first step in the defendants’ plan was to build    spot cash WTI for that day. The Platts market assessment
their short position in the October 2005 HSC financial          for WTI is derived from trading activity during a particular
basis swap. A basis swap is a swap whose cash settlement        30-minute period of the physical trading day. The Platts
price is calculated based on the basis between a futures        market assessment for WTI is used as the price of crude oil
contract and the spot price of the underlying commodity         in certain domestic and foreign transactions. At the time
or a closely related commodity on a specified date. In this     in question, MPC priced approximately 7.3 million barrels
instance, the two legs of the swap are the monthly HSC          of physical crude oil per month off the Platts market
index price published by Inside FERC and the final settle-      assessment for WTI. As a net purchaser of foreign crude
ment price of the Henry Hub futures contract traded on          oil priced off the Platts spot cash WTI assessment, if its
the NYMEX. As a short, the defendants were obligated            conduct was successful, MPC would have benefited from
to pay the longs the HSC index price; thus they benefited       a lower Platts spot cash WTI assessment. The order finds
from a lower HSC index price. Second, in the days just          that, on November 26, 2003, MPC purchased NYMEX WTI
before and after Hurricane Rita, the defendants allegedly       contracts with the intention of selling physical WTI during
built up a huge inventory of physical gas with the intent to    the Platts window at prices intended to influence the Platts
deliver that gas to HSC, despite the lack of demand in the      WTI spot cash assessment downward. Further, during
Houston area. Third, on September 28, 2005, the defen-          the Platts window, MPC knowingly offered WTI through
dants sold a vast quantity of natural gas for delivery during   the prevailing bid at a price level calculated to influence
October 2005 at HSC with the intent to push down, or cap,       downward the Platts WTI assessment. The Commission
the price of physical natural gas at HSC. They purportedly      assessed sanctions, including a cease and desist order, and
made most of these sales on ICE. In fact, the defendants        a civil monetary penalty ($1,000,000).      In re Marathon
represented 96 percent by volume of all the trades that took    Petroleum Company, CFTC Docket No. 07-09 (CFTC filed
place that day on ICE in the HSC contract. The fourth and       Aug. 1, 2007).
final step in the defendants’ plan allegedly occurred when
they reported the September 28, 2005, sales to Platts with      Enforcement Litigation by Goal Two
the intent and belief that Platts would use these transac-
tions in calculating the October Inside FERC monthly price      Commodity Pools, Hedge Funds, Commodity Pool
index at HSC—presumably at lower or stabilized prices to        Operators, and Commodity Trading Advisors
the benefit of the defendants’ short swaps positions. The
complaint further alleges that the defendants attempted to      ■	   CFTC v. Hoffman.
manipulate the price for November 2005 physical natural
                                                                On November 28, 2006, the Commission filed a civil
gas at HSC and attempted to manipulate the December
                                                                enforcement action against Peter D. Hoffman alleging
Inside FERC monthly index price. Defendants purport-
                                                                that, while acting as an unregistered CTA, Hoffman fraudu-
edly repeated the same course of action in the November/
                                                                lently solicited customers to open discretionary trading
December 2005 time period as they did during September/
                                                                accounts and violated the trading prohibition in a previous
October 2005.     The Commission received cooperation
                                                                Commission order.       Specifically, the complaint alleges
from the FERC in connection with this matter. CFTC v.
                                                                that, since at least February 2000 and continuing through
Energy Transfer Partners, L.P., No. 3-07CV1301-K (N.D. Tex.
                                                                April 2004, Hoffman circumvented the trading prohibition
filed July 26, 2007).
                                                                against him by funding and/or directing trading in a series
■	   In re Marathon Petroleum Company.                          of commodity futures accounts. See In re Hoffman, CFTC
                                                                Docket No. 99-9 (CFTC March 30, 1999) (simultaneously
On August 1, 2007, the Commission filed and simultane-          filing and settling an administrative action finding that
ously settled an administrative enforcement action against      Hoffman fraudulently solicited customers for a commodity
Marathon Petroleum Company (MPC), a subsidiary of               trading advisory service while acting as an unregistered


                                                                                                             CFTC      141
CTA and imposing sanctions including a five-year trading       ■	     CFTC v. Renaissance Asset Management, LLC, et al.
ban). The complaint further alleges that, during that same
time period and thereafter, Hoffman defrauded his clients      On January 24, 2007, the Commission filed an injunc-
by falsely claiming he was a successful trader, failing to     tive    enforcement     action     against   Renaissance   Asset
disclose the prior Commission order against him, and           Management, LLC (RAM), a registered CPO and CTA,
acting as a CTA without the benefit of Commission regis-       and Anthony Ramunno, Jr., RAM’s chief operating officer,
tration. On November 29, 2006, the court entered a statu-      alleging commodity pool fraud. The complaint alleges
tory restraining freezing assets and preserving books and      that, since at least June 2005, RAM and Ramunno have
records. CFTC v. Hoffman, No. 06C 6473 (N.D. Ill. Nov.         received investor funds and operated a commodity pool
28, 2006).                                                     sequentially under the names RAM 1 LLP and RAM 1 LLC.
                                                               The complaint alleges that, during the week of January 15-
■	   In re Acceleration Capital, LLC.                          29, 2007, NFA commenced an emergency audit of RAM
                                                               based on a potential RAM investor’s suspicions regarding
On January 16, 2007, the Commission simultaneously             the Pool Annual Reports. During the audit, Ramunno
filed and settled an administrative enforcement action         purportedly provided NFA staff with copies of what he
against Acceleration Capital, LLC (Acceleration Capital),      claimed were RAM’s audited Pool Annual Reports prepared
a registered CPO and CTA. The charges are based on the         by Grant Thornton LLP for 2004 and 2005—despite
activities of Toby Wayne Denniston II, a former agent of       the fact that Grant Thornton LLP has never performed
Acceleration Capital, who in August 2006 settled identical     any services for RAM. An internal RAM report, for the
charges brought by the Commission. See In re Denniston,        period ending December 31, 2006, reflects that there are
CFTC Docket No. 06-05 (CFTC filed Aug. 7, 2006). The           approximately 94 investor accounts and total pool assets
order finds that between November 2004 and August              of at least $32 million.         Furthermore, according to the
2005, Denniston misappropriated more than $190,000             complaint, Ramunno contacted staff at the Atlanta FBI
from Acceleration Mercury Fund 4X LP, a commodity              office and admitted to “committing fraud.” On the same
pool located in Northridge, California, for his own use        day the complaint was filed, the court entered a statutory
and benefit. Denniston carried out the misappropriation        restraining order freezing assets and preserving books
by forging signatures on at least 58 checks. According to      and records. To date, the Federal Bureau of Investigations
the order, to conceal his misappropriation, Denniston          (FBI) has seized an estimated $5.5 million in assets from
regularly altered the pool’s bank and trading account state-   Ramunno and RAM. The Commission received coopera-
ments and created false account statements to be sent to       tion from the NFA, the FBI field office in Atlanta, and the
pool participants. Based on the liability of the company       DOJ in connection with this matter. CFTC v. Renaissance
for its agents’ activities, the order accordingly finds that   Asset Management, LLC, et al., No. 1:07-CV-0200 (N.D. Ga.
Acceleration Capital is liable for Denniston’s misappropria-   filed Jan. 24, 2007).
tion of funds and false statements to customers in violation
of the CEA. Without admitting or denying the findings,         ■	     CFTC v. Cornerstone Capital Management, LLC.
Acceleration Capital consented to entry of the order that
included the following sanctions: a cease and desist order;    On January 31, 2007, the Commission filed an injunc-
revocation of Acceleration Capital’s registration; payment     tive enforcement action against Cornerstone Capital
of $218,000 restitution; and order to comply with certain      Management, LLC (Cornerstone), which is a hedge fund
undertakings, including not applying for registration with     that is registered as a CPO and CTA, and Joseph Profit II,
the Commission. The order further orders Acceleration          Cornerstone’s CEO. The complaint alleges that, from at
Capital’s principal, Yuri Plyam, and any entities controlled   least May 2005 through January 24, 2007, the defendants
by him, to comply with the undertaking to neither act as a     employed schemes to defraud actual and prospective
CPO or AP of a CPO, or claim exemption from registration       commodity pool participants and clients by misrepre-
as a CPO or AP of a CPO. In re Acceleration Capital, LLC,      senting the rates of return Cornerstone generated for its
CFTC Docket No. 07-03 (CFTC filed Jan. 16, 2007).              pool participants and the value of assets it managed in
                                                               its Icon Fund. For example, the defendants claimed that
                                                               Cornerstone had assets under management ranging from



142 CFTC
                                                                    A ppendI C E S




$20 million to $60 million, though Profit admitted that as     defendants only had three open futures accounts that,
of January 23, 2007, the Cornerstone Capital Management        as of February 28, 2007, had a cumulative value of only
Icon Fund had at most received a little more than $2.25        $120,000. The complaint further alleges that the defen-
million in assets from participants. In addition to the        dants provided account statements to at least three Futures
U.S. mail and other means, defendants allegedly solicited      Pool participants that, in the aggregate, represented that
participants and clients through the Web site www.corner-      the Futures Pool had a value of at least $407,244 at the end
stonecapitalmanagement.com.        The complaint further       of 2005, $645,181 at the end of 2006, and $970,300 as of
alleges that Profit willfully concealed material information   February 28, 2007. In reality, since January 1, 2005, the
from the NFA, and further failed to submit an NFA-required     total value of Futures Pool assets never exceeded $150,000,
Annual Report for 2005. On the same day the complaint          the complaint alleges. Finally, the complaint charges the
was filed, the court entered a statutory restraining order     defendants with failing to register with the CFTC and to
freezing assets and preserving books and records.       The    operate the Futures Pool consistent with Federal law. The
Commission received cooperation from the NFA and               Commission received cooperation form the SEC and the
the U.S. Attorney for the Northern District of Georgia in      U.S. Attorney’s Office for the District of South Carolina
connection with this matter. CFTC v. Cornerstone Capital       in connection with this matter. CFTC v. Parish, et al., No.
Management, LLC, No. 1:07-CV-0274 (N.D. Ga. filed Jan.         2:07-cv-01044-DCN (D.S.C. filed Apr. 17, 2007).
31, 2007).
                                                               ■	   CFTC v. Demasi, et al.
■	   CFTC v. Parish, et al.
                                                               On April 26, 2007, the Commission filed a civil enforce-
On April 17, 2007, the Commission filed an injunc-             ment action charging Anthony A. Demasi and his
tive enforcement action against Parish Economics, LLC          company, Tsunami Capital, LLC (Tsunami Capital), with
(Parish Economics) and its president and owner, Albert E.      fraud in their operation of a commodity pool. Specifically,
Parish Jr., alleging commodity pool fraud. Specifically, the   the complaint alleges that, from at least December 2004
complaint alleges that the defendants, among other things,     to the present, Demasi and Tsunami Capital fraudulently
offered and sold interests in four investment pools. One       solicited and accepted at least $300,000 from at least three
of these pools, the Futures Pool, purportedly invested in      individuals for the purpose of trading financial futures as
“the commodity and stock futures and options markets.”         part of a commodity pool called Tsunami Lakeshore. As
Beginning in January 2003, the defendants misrepresented       alleged, Demasi convinced at least one pool participant
the total amount of funds contained in the investment          to invest by providing him with a false track record that
pools as a whole and the total amount of funds invested        showed two years of trading profits, when, in fact, Tsunami
in the Futures Pool individually, the complaint charges.       Lakeshore did not have an active account during most of
Additionally, defendants purportedly provided Futures          the period and had lost money during the months when it
Pool participants with false periodic account statements       did. The complaint also alleges that Demasi and Tsunami
showing that participants’ funds were invested in the          Capital distributed false statements to at least two pool
Futures Pool when, in fact, such participants’ funds were      participants throughout 2005 showing that their invest-
misappropriated by the defendants. Specifically, the defen-    ments were earning substantial profits in 2005 and the
dants represented on their Web site, www.parisheconomics.      first quarter of 2006. However, the Tsunami Lakeshore
com, and to an investment advisor (IA) that at the end of      trading account was closed in January 2005, and the only
2006 the total value of the investment pools was approxi-      other trading accounts maintained by Tsunami Capital
mately $134 million, and that the value of the Futures         sustained losses or were less profitable than represented in
Pool was approximately $52 million. On March 21, 2007,         five of the six quarterly statements they received. On the
defendants provided the IA with a futures account trading      same day the action was filed, the court entered a statutory
statement purporting to show that the Futures Pool had an      restraining order freezing assets and preserving books and
account value as of February 28, 2007, of approximately        records. CFTC v. Demasi, et al., No. 07C 2256 (N.D. Ill.
$52 million. However, according to the complaint, the          filed Apr. 26, 2007).




                                                                                                            CFTC 143
■	   CFTC v. Heierle, et al.                                    funding for his companies, World Alliance, Amerman Inc.,
                                                                and Zero Doubt. Tech Traders, along with other companies
On September 12, 2007, the Commission filed a civil             and individuals, is a subject in an ongoing Commission
enforcement action charging Joerg Heierle and the               action in which it and other defendants have been ordered
company he managed, INH-Interholding SA (INH),                  by the U.S. District Court for the District of New Jersey
alleging commodity pool fraud. Specifically, the complaint      to pay more than $30 million in sanctions (See CFTC v.
alleges that, since at least October 2001 through April 2007,   Equity Financial Group LLC, et al., No. 04 CV 1512 (D.N.J.
defendants fraudulently solicited at least $4.4 million         entered June 28, 2007)). As alleged, during the relevant
from participants to invest in an INH commodity futures         time period, Amerman invested more than $1 million of
and options pool that Heierle would operate and manage,         the solicited funds with Tech Traders. In turn, Tech Traders
and concealed trading losses by issuing false statements        sent almost $1.3 million back to the DVG bank account.
to participants regarding the profitability of their INH        Though, at best, Amerman was entitled to approximately
investments. As alleged, defendants’ solicitations falsely      $135,000 in fees under the undisclosed fee agreement, he
represented that the INH commodity pools were histori-          allegedly took more than $810,000 for himself and the
cally profitable and that Heierle was a successful trader.      companies he controlled. Accordingly, at least $675,000
However, as alleged, there are no trading accounts in the       of the $810,000 that Amerman retained from the funds
name of INH, and the known trading accounts controlled          he received from Tech Traders was misappropriated. The
by Heierle sustained losses during that time period             CFTC’s complaint also alleges that Amerman: 1) distrib-
totaling $80,000. Moreover, during the relevant time            uted false account statements to customers, which reported
period, the known trading accounts controlled by Heierle        profits that were higher than the profits Tech Trader
allegedly sustained overall net trading losses of approxi-      reported to him; 2) commingled pool funds with his
mately $1,000,000. In addition to the fraud charges, the        personal funds and the funds of the relief defendants; and
complaint charges INH and Heierle with registration and         3) acted illegally as an unregistered CPO. The Commission
other regulatory violations. According to the complaint,        received cooperation from the Office of the U.S. Attorney
Heierle disappeared in April 2007, and pool participants        for the Northern District of Georgia in connection with
have not been able to access their funds since that time.       this matter. CFTC v. Amerman, et al., No. 1:07-CV-2280
On September 18, 2007, the court entered a statutory            (N.D. Ga. filed Sept. 18, 2007).
restraining order freezing assets and preserving books and
records. The Commission received cooperation from the           CTAs, Managed Accounts, and Trading Systems
State of Florida Office of Financial Regulation in connec-
tion with this matter. CFTC v. Heierle, et al., No. 07-22396    ■	   In re Camp, et al.
CIV-LENARD/TORRES (S.D. Fla. filed Sept. 12, 2007).
                                                                On February 20, 2007, the Commission filed and simul-
■	   CFTC v. Amerman, et al.                                    taneously settled an administrative enforcement action
                                                                against Man Financial, Inc. (Man), a registered FCM,
On September 18, 2007, the Commission filed a civil             and Steven M. Camp, a registered AP of Man. The order
enforcement action charging Gregg R. Amerman, and               finds that Camp fraudulently solicited customers to open
three companies he controlled (World Alliance Group,            commodity futures and options on futures accounts at
Inc. (World Alliance), Gregg Amerman Companies, Inc.            Man, and finds that Man failed to diligently supervise
(Amerman Inc.), and Zero Doubt, LLC (Zero Doubt). The           Camp. Specifically, the CFTC order, entered on February
complaint alleges that, from at least September 2002 to         20, 2007, finds that, from September 2002 through March
April 2004, Amerman solicited nearly $1.2 million from          2003, Camp solicited customers of a Web-based members-
22 customers to invest in a commodity pool he operated          only trading system called the Natural Trigger Point System
named Dream Venture Group LLC (DVG). DVG, in turn,              (NTPS) to trade through Man. NTPS provided online
allegedly invested the funds in a hedge fund named Tech         signals for the purchase and sale of commodity futures and
Traders, Inc. (Tech Traders), and negotiated an undisclosed     options on commodity futures. While Camp knew that the
fee arrangement that would ultimately provide Amerman           trading for his customers using NTPS signals was not prof-



144 CFTC
                                                                    A ppendI C E S




itable, Camp, nevertheless, misrepresented that the system     misappropriation by sending customers false account state-
was successful and that his customers who traded the           ments that misrepresented the nature of their investment.
system had made profits. Customers who funded accounts         The complaint against Evors alleges that he solicited funds
at Man to be traded pursuant to NTPS signals collectively      for investment with Tech Traders as many as 12 months
lost a total of approximately $73,000. Meanwhile, supervi-     after Tech Traders had ceased doing business. As noted
sory employees at Man did not reasonably monitor Camp’s        above in the discussion of Amerman, Tech Traders, along
sales solicitations of accounts to be traded pursuant to       with other companies and individuals, is a subject of an
letters of direction in favor of third-party system devel-     ongoing Commission action. On September 18, 2007, the
opers. Separately, the order also finds that, during the       court entered a statutory restraining order freezing assets
period August 2004 through June 2005, Camp fraudulently        and preserving books and records. CFTC v. Evors, No. 8:07-
solicited customers to open accounts at Man to be traded       cv-01658-RAL-MAP (M.D. Fla. filed Sept. 17, 2007).
by a CTA, who purportedly created a program for trading
commodity futures and options on commodity futures.            ■	   In re Miklas.
Camp defrauded at least six customers during that period
                                                               On September 20, 2007, the Commission filed an admin-
by misrepresenting the profitability of the CTA’s purported
                                                               istrative enforcement action against Maros Miklas alleging
trading program and failing to disclose that customers for
                                                               that he misappropriated a customer’s funds under the guise
whom he placed trades using the CTA’s recommendations
                                                               of trading commodity futures. Specifically, the complaint
sustained overall losses. Those six customers collectively
                                                               alleges that Miklas became acquainted with the customer,
sustained losses totaling approximately $165,000. At the
                                                               Kim Lim, in late 2005 through an Internet chat room
time, due to deficiencies in Man’s supervisory system, Man
                                                               Miklas ran on Paltalk.com. Miklas provided Lim with ficti-
did not detect that Camp was making material misrep-
                                                               tious trading reports that portrayed Miklas as a successful
resentations about the profitability of the CTA’s trading
                                                               futures trader. In January 2006, Miklas persuaded Lim to
system and failing to disclose to prospective customers
                                                               open two futures trading accounts and to sign a power of
losses sustained by the CTA’s accounts. Without admitting
                                                               attorney to Miklas to trade those accounts. As alleged, on
or denying the findings, the defendants consented to entry
                                                               December 21, 2006, Miklas, while trading his own account
of the order that included the following sanctions, among
                                                               and Lim’s accounts on the Chicago Board of Trade’s eCBOT
others: permanent trading ban against Camp; injunction
                                                               electronic trading platform, cheated and defrauded Lim by
from Camp applying for registration or acting in a capacity
                                                               engaging in a series of illegal trades that resulted in losses
requiring such registration; and payment of restitution
                                                               totaling $213,066 to Lim and gains of $211,304 to Miklas.
(Man – $196,990) and civil monetary penalties (Man –
                                                               In re Miklas, CFTC Docket No. 07-10 (CFTC filed Sept. 20,
$120,000, and Camp – $120,000). Also, Man was ordered
                                                               2007).
to strengthen its supervisory system for overseeing sales
solicitations by employees pursuant to letters of direction
in favor of third-party providers. In re Camp, et al., CFTC    Foreign Currency
Docket No. 07-04 (CFTC filed Feb. 20, 2007).
                                                               ■	   CFTC v. Financial Risk Int’l, et al.
■	   CFTC v. Evors.
                                                               On December 4, 2006, the Commission filed an injunctive
On September 17, 2007, the U.S. District Court for the         enforcement action against Financial Risk International,
Middle District of Florida against Edward J. Evors of Tampa,   Inc. (FRI), Financial Risk Management, Inc. (FRM), and
Florida, and two Nevada companies controlled by him:           Stephanie Ann Gallitano, the incorporator and a director
Bally Lines Ltd. (Bally Lines) and GPS Fund, Ltd. (GPS).       of both FRI and FRM, alleging fraud in connection with
The complaint alleges that Evors solicited and received        forex option transactions.      Specifically, the complaint
at least $450,000 from members of the general public           alleges that, between approximately March and June 2004,
to invest with Tech Traders to trade commodity futures         FRI employees, including Gallitano, engaged in the fraud-
contracts. However, as alleged, instead of investing the       ulent solicitation of at least 257 members of the retail
customer funds with Tech Traders, Evors purportedly spent      public to open accounts and engage in speculative forex
the funds for his personal use, and attempted to conceal his   options trading at both registered and unregistered FCMs.


                                                                                                             CFTC 145
According to the complaint, FRI and Gallitano’s fraudu-           ments that falsely reported that their accounts were profit-
lent sales pitches included false representations that large      able. However, in October 2004, UForex sent customers
profits were likely or virtually guaranteed; that risks were      statements, accompanied by a letter from Correa, informing
minimal or could be substantially eliminated; that profit         them that most of the funds were lost trading foreign
opportunities were only available if investments were made        currencies. Based on the October 2004 statements, UForex
quickly; that previous FRI customers had made substantial         customers in aggregate lost approximately 70 percent—
profits and new customers could expect similar profits;           or $2.9 million—of their investment.        Additionally, as
that any previous losses could be recouped with additional        alleged, Correa misappropriated at least $2 million of the
investments; and that Gallitano was an expert in trading          customers’ funds for his personal use. On the same day the
commodity options. In fact, as the complaint alleges, FRI         complaint was filed, the court issued an ex parte statutory
customers sustained more than $3 million in losses during         restraining order freezing defendants’ assets and preserving
the relevant period.     While making these false repre-          books and records. CFTC v. UForex Consulting, LLC, et al.,
sentations, FRI and Gallitano failed to disclose material         No. 6:07-CV-0046 (W.D. La. filed Jan. 9, 2007).
information, including the substantial risks associated
with trading forex options; and FRI’s consistently losing         ■	   CFTC v. Rusfeldt, et al.
trading track record, including that nearly 100 percent of
                                                                  On March 12, 2007, the Commission filed an injunc-
FRI’s customers lost money during the relevant period,
                                                                  tive enforcement action against Rusfeldt Investments LLP
according to the complaint. The complaint also alleges
                                                                  and its owner, Aden Rusfeldt, alleging fraudulent solici-
that FRI is liable as principal for the fraud violations of its
                                                                  tation of customers to trade forex futures.     Specifically,
employees, Gallitano is liable for FRI’s fraud as controlling
                                                                  the complaint alleges that, beginning in at least October
person of the firm, and both Gallitano and FRM aided and
                                                                  2005, defendants fraudulently solicited members of the
abetted FRI’s commission of fraud. On the same day the
                                                                  retail public to engage in speculative forex futures trading
complaint was filed, the court entered an ex parte statutory
                                                                  through accounts managed by Rusfeldt. According to the
restraining order freezing assets and preserving books and
                                                                  complaint, Rusfeldt’s fraudulent sales pitches included false
records. CFTC v. Financial Risk Int’l, et al., No. 06-61812
                                                                  representations that large profits were likely or virtually
(S.D. Fla. filed Dec. 4, 2006).
                                                                  guaranteed, that risks were minimal or could be substan-
■	   CFTC v. UForex Consulting, LLC, et al.                       tially eliminated, and that new customers could expect to
                                                                  benefit from Rusfeldt’s profitable past trading performance.
On January 9, 2007, the Commission filed a civil enforce-         In fact, Rusfeldt’s customers sustained more than $1.5
ment action against UForex Consulting, LLC, (UForex),             million in losses during the relevant period. Additionally,
Paulo Correa (UForex’s president and CEO), and Mario              while their Web site represented that Rusfeldt was compen-
Garcia (UForex’s chief forex advisor) alleging fraudu-            sated only if his trading made profits in client accounts,
lent solicitation of customers to trade off-exchange forex        in reality the defendants received commission rebates on
futures.   Specifically, the complaint alleges that, from         all trades made in client accounts regardless of whether
January 2002 through at least November 2004, Correa               those trades were profitable. Further, the complaint alleges
(individually, doing business as, and as the controlling          that the defendants failed to disclose material information,
person of UForex) and Garcia fraudulently solicited and           including Rusfeldt’s losing trading track record and his
accepted more than $3.7 million from at least 127 retail          collection of commission rebates from the FCMs at which
customers for the purported purpose of trading OTC forex          his clients opened trading accounts. On March 13, 2007,
contracts that purportedly cleared through yet another            the court entered a statutory restraining order preserving
company controlled by Correa. As alleged, Correa’s and            books and records. On March 31, 2007, the Court issued
Garcia’s sales pitches touted historical returns of between       an Order of Preliminary Injunction, which, among other
five percent and 10 percent per month and promised high           things, prohibits the defendants from engaging in any
profits with limited or no risk. According to the complaint,      commodity interest trading. CFTC v. Rusfeldt, No. 07-130
for months, UForex sent customers monthly account state-          (S.D. Tex. filed Mar. 12, 2007).




146 CFTC
                                                                     A ppendI C E S




■	   CFTC v. Millenium Trading Group, Inc., et al.              restraining order freezing assets and preserving books and
                                                                records. The Commission received cooperation from the
On April 9, 2007, the Commission filed an injunctive            Florida Office of Financial Regulations in connection with
enforcement action against Millenium Trading Group, Inc.        this matter. CFTC v. Addison Financial Group, Inc., et al.,
(MTG), Cedric R. Stanton, the president and owner of MTG,       No. 07-21267 CIV-LENAR/TORRES (S.D. Fla. filed May 16,
and Worldwide Clearing, LLC (WWC), a registered FCM.            2007).
The complaint alleges that MTG and Stanton fraudulently
solicited customers to open commodity trading accounts          ■	   CFTC v. Lavin, et al.
by misrepresenting 1) the company’s profitability, 2) the
risks involved in trading forex futures, 3) MTG’s purported     On August 1, 2007, the Commission filed a civil enforce-
success, and 4) the commissions charged to customers.           ment action charging Joseph Clark Lavin (a/k/a Joseph
The complaint further alleges that MTG was an agent of          Ivcevic) and his companies (Global Asset Partners, LTD (a/
WWC, thereby making WWC liable for MTG’s fraudu-                k/a Global Asset Partners, LLC); Global Currency Trading
lent activities.   Also, as alleged, WWC was significantly      Group, LLC; and Global Currency Trading Fund, LLC) with
involved in supervising MTG’s activities and furthered the      fraudulent solicitation of retail customers throughout the
fraudulent activity by, for example, informing at least one     United States, Canada, France, and Panama to trade forex
MTC customer that WWC was so satisfied with MTG and             options. Specifically, the complaint alleges that, beginning
Stanton’s trading guidelines and strategies that it was using   in or about January 2001, Lavin, individually, and as the
those same guidelines and strategies with other IBs with        agent of his Global companies, engaged in a scheme to
whom it worked. CFTC v. Millenium Trading Group, Inc., et       defraud customers of more than $16 million. Lavin alleg-
al., No. 2:07-cv-11626 (E.D. Mich. filed Apr. 9, 2007).         edly told potential customers that customer funds would
                                                                earn profits of 2.5 percent per month, or greater, and
■	   CFTC v. Addison Financial Group, Inc., et al.              failed to disclose that the defendants were receiving one
                                                                percent per month as a commission. As further alleged
On May 16, 2007, the Commission filed a civil enforce-          in the complaint, the defendants, after accepting money
ment action charging The Liberty Mutual Group, Inc.,            from customers, issued false reports to these customers
Addison Financial Group, Inc., Hamlin Mercer Group, Inc.,       that misrepresented “profits” and concealed the commis-
Colfax Management Group, Inc. (collectively, the Addison        sions. The Commission received cooperation from the
Enterprise), Alan Lerner, Forefront Investment LP, Todd         SEC, the U.S. Attorney’s Office for the Western District of
Guthrie, and Benji Dayan for, among other things, fraud in      Washington, the F.B.I, and the Internal Revenue Service in
connection with the offer and sale of illegal off-exchange      connection with this matter. CFTC v. Lavin, et al., No. 2:07-
forex options. Specifically, the complaint alleges that, from   cv-01185-RSL (W.D. Wash. filed Aug. 1, 2007).
at least February 2005 through at least June 2006, Lerner, as
president of the Addison Enterprise, induced and/or caused      Other Illegal Off-Exchange
its account executives to fraudulently solicit members of
the retail public to engage in illegal off-exchange forex       ■	   CFTC v. New York Options Exchange, et al., CFTC v.
options transactions with Forefront Investments LP. The         International Energy Exchange, et al., New York Petroleum
account executives failed to disclose the abysmal trading       Option Exchange, et al., and American Futures and Options
results in Addison Enterprise customers’ accounts. The          Exchange, et al.
complaint further alleges that, while Addison Enterprise
account executives touted the large profit potential and        On March 22, 2007, the Commission filed four injunctive
minimal risk of loss in trading forex options, most, if not     enforcement actions against 1) New York Options Exchange
all, customers were losing money. During the relevant           (NYOEX) and Tahoe Futures (Tahoe), 2) International
period, Addison Enterprise customers suffered losses of         Energy Exchange (INTENX) and Vitol Capital Management
more than $7 million—$3 million of which was paid to            (Vitol), 3) New York Petroleum Option Exchange
the Addison Enterprise as commissions.        On the same       (NYPOE) and HPR Commodities (HPR), and 4) American
day the action was filed, the court entered a statutory         Futures and Options Exchange (AFOEX), Metro Financials



                                                                                                              CFTC 147
(Metro), and American Futures and Options Trading                solicited customers to trade options on commodity futures
Commission (AFOTC) alleging fraud in the solicitation            contracts, and imposed sanctions including a permanent
of customers to purchase commodity futures and options           injunction from further violations, ordered the payment of
contracts.   Combined, the complaints allege that the            restitution ($5 million) and civil monetary penalties ($3.5
defendants, through misrepresentations on their Web sites,       million). In re Worldwide Commodity Corp., CFTC Docket
defrauded customers out of millions of dollars. In each          No. SD 07-02 (CFTC filed Dec. 7, 2006), and In re South
of the cases, customers were solicited to trade commodity        Coast Commodities, Inc., CFTC Docket No. SD 07-01 (CFTC
futures and/or options, including on energy and currency.        filed Dec. 7, 2006).
Customers were duped into believing that: 1) NYOEX,
INTENX, NYPOE and AFOEX are futures exchanges; 2)                ■	   In re Next Financial Services, et al.
Tahoe, Vitol, HPR and Metro are their respective brokers;
and 3) all these entities are located in the United States.      On July 23, 2007, the Commission issued a Notice of Intent

As alleged, Tahoe, Vitol, HPR and Metro leased the use of        to Revoke Registration against registered IBs Next Financial

fax numbers with U.S. area codes to deceive customers into       Services Unlimited, Inc. (Next) and New World Trading,

believing that they are all U.S.-based companies. As part of     LLC (New World) seeking to determine whether registrants

the fraud, the complaints allege that INTENX, NYOEX and          were subject to statutory disqualification of their registra-

NYPOE on their Web sites listed firms as their members           tions based upon the entry of a permanent injunction

when, in fact, none were members and had never heard of          order and final judgment against them in a Commission

INTENX, NYOEX and NYPOE. In addition, Metro, in order            civil enforcement action. CFTC v. Next Financial Services

to bolster its credibility, directed customers to AFOTC’s        Unlimited, Inc., et al., No. 04-80562-CIV-RYSKAMP/

Web site, which purported to be the regulatory body that         VITUNAC, Consent Order (S.D. Fla. entered Jan. 12, 2007)

regulates the commodity futures and option markets in            (imposing sanctions including permanent injunction,

the United States when, in fact, AFOTC is a fictitious entity.   trading and registration bans, restitution ($3 million) and

CFTC v. New York Options Exchange, et al., No. 07 CV 2376        civil monetary penalties ($2 million)). The district court

(S.D.N.Y. filed March 22, 2007); CFTC v. International Energy    found that the registrants, from at least September 2003

Exchange, et al., No. 07 CV 2378 (S.D.N.Y. filed March 22,       through at least June 2004, fraudulently solicited nearly

2007); CFTC v. New York Petroleum Option Exchange, et al.,       $3.4 million from at least 199 retail customers in and

No. 07 CV 2379 (S.D.N.Y. filed March 22, 2007); and CFTC         outside the United States to invest in options on forex. The

v. American Futures and Options Exchange, et al., No. 07 CV      order further found that the defendants misrepresented the

2377 (S.D.N.Y. filed Mar. 22, 2007).                             profit potential and risk involved in trading forex options,
                                                                 and also misrepresented the level of trading experience
                                                                 of Next and New World employees. In re Next Financial
Statutory Disqualification
                                                                 Services, et al., CFTC Docket No. SD 07-03 (CFTC filed July
■	   In re Worldwide Commodity Corporation and In re             23, 2007).
South Coast Commodities, Inc.
                                                                 ■	   In re Commodity Investment Group, Inc.
On December 7, 2006, the Commission filed Notices
of Intent to Revoke Registration against registered IBs          On July 26, 2007, the Commission issued a Notice of Intent
Worldwide Commodity Corporation (Worldwide) and                  to Revoke Registration against registered IB Commodity
its successor corporation South Coast Commodities,               Investment Group, Inc. (CIG) seeking to determine
Inc. (South Coast). The Commission seeks to determine            whether CIG was subject to statutory disqualification of its
whether Worldwide’s and South Coast’s registrations              registration based upon the entry of a permanent injunc-
should be revoked based upon entry of a consent order of         tion order and final judgment against it in a Commission
permanent injunction against them. CFTC v. Worldwide             civil enforcement action. CFTC v. Commodity Investment
Commodities Corp., et al., No. CV 2-04-cv 3461 (E.D. Pa.         Group, Inc., et al., No. 05-CV-5741 (HB), Consent Order
entered Sept. 19, 2006). The consent order found, among          (S.D.N.Y. entered Feb. 27, 2007). The consent order finds
other things, that Worldwide and South Coast fraudulently        that CIG, through its APs, engaged in fraudulent sales



148 CFTC
                                                                   A ppendI C E S




solicitations by, among other things: misrepresenting the     a FB in a timely fashion, and, that during the course of a
likelihood of profiting from trading commodity options;       Commission investigation, RCG failed to produce trading
minimizing the risk of loss; and (in light of the profit      cards of that FB to the Commission. Specifically, the order
representations made) failing to disclose that more than 90   finds that the Division of Enforcement issued document
percent of CIG’s customers lost money trading commodity       requests to RCG to produce trading cards, records that
options. The consent order prohibits CIG from, among          FCMs are required to maintain and produce upon request.
other things, seeking registration with the Commission in     RCG was unable to produce 49 of the requested trading
any capacity and imposes $11,819,785 in restitution and       cards. Without admitting or denying the findings, RCG
$7 million in civil monetary penalties. In re Commodity       consented to entry of the order that included, among other
Investment Group, Inc., Docket No. SD 07-04 (CFTC filed       sanctions, a $25,000 civil monetary penalty. In re Rosenthal
July 26, 2007).                                               Collins Group, CFTC Docket No. 07-02 (CFTC filed Jan. 10,
                                                              2007).
■	   In re Rotmistrenko.
                                                              ■	   In re Pioneer Futures Inc.
On July 30, 2007, the Commission issued a Notice of
Intent to Revoke Registration against registered CTA and      On March 7, 2007, the Commission simultaneously filed
AP Udo Rotmistrenko seeking to determine whether              and settled an administrative enforcement action against
he was subject to statutory disqualification based on a       Pioneer Futures Inc. (Pioneer), a registered FCM, for failure
Federal criminal action in which Rotmistrenko pled guilty     to maintain and produce required trading records to the
to 24 counts of mail and wire fraud in soliciting invest-     Commission upon request. Specifically, the order finds
ments in forex trading. On June 18, 2007, the U.S. District   that, during the course of an investigation of trading at
Court for the Southern District of New York sentenced         the CME and in response to document requests from the
Rotmistrenko to 51 months in prison and ordered him           Commission’s Division of Enforcement, Pioneer failed
to pay $1,800,410 in restitution.     On March 18, 2005,      to produce trading cards of two local traders and trading
prior to Rotmistrenko’s May 31, 2005 entering of a guilty     records relating to customer orders filled by FBs on behalf
plea in the criminal action, the Commission suspended         of Pioneer customers.     Pioneer’s failure to produce the
Rotminstrenko’s registrations based on the filing of the      requested trading records impaired the Division’s ability
criminal charges. In re Rotmistrenko, CFTC Docket No. SD      to fully investigate the trading activities of persons under
04-05, Order (CFTC entered March 18, 2005). Under the         investigation. The Commission assessed sanctions against
Act, Rotmistrenko’s suspension remains in effect until his    Pioneer, including a $25,000 civil monetary penalty. In re
indictment is disposed of or until the Commission termi-      Pioneer Futures Inc., CFTC Docket No. 07-05 (CFTC filed
nates the suspension.      Rotmistrenko’s guilty plea and     Mar. 7, 2007).
sentencing disposes of the criminal indictment against
him and now constitutes a basis for revoking his registra-    ■	   CFTC v. Forefront Investments Corporation.
tion. In re Rotmistrenko, CFTC Docket No. SD 07-05 (CFTC
                                                              On March 20, 2007, the Commission filed an injunc-
filed July 30, 2007).
                                                              tive enforcement action against Forefront Investments
                                                              Corporation (Forefront), a registered FCM, alleging viola-
Enforcement Litigation by Goal Three                          tions of the Commission’s minimum net capital and
                                                              recordkeeping requirements. Specifically, the complaint
Financial, Supervision, Compliance
                                                              alleges that, as of January 31, 2007, and perhaps earlier,
and Recordkeeping
                                                              Forefront’s net capitalization was below the adjusted

■	   In re Rosenthal Collins Group.                           net capital required by the Act and a Commission regu-
                                                              lation.   As of March 19, 2007, the complaint charges,
On January 10, 2007, the Commission simultaneously filed      Forefront’s adjusted net capitalization remained below
and settled an administrative enforcement action against      the required adjusted net capital with Forefront’s total
Rosenthal Collins Group (RCG), a registered FCM. The          liabilities equaling $8,000,000 while its assets were
order finds that RCG failed to collect trading cards from     only $6,760,000.     Furthermore, the complaint charges


                                                                                                            CFTC 149
Forefront with failing to maintain books and records that     ■	   In re Interactive Brokers LLC.
it is required to maintain pursuant to a Commission regu-
lation. On March 21, 2007, the court issued a statutory       On July 17, 2007, the Commission filed and simultane-
restraining order freezing assets and preserving books and    ously settled an administrative enforcement action against
records. On March 27, 2007, the court issued a prelimi-       registered FCM Interactive Brokers LLC (IBL) finding that
nary injunction appointing a receiver to marshal the assets   IBL failed to diligently supervise its compliance employees’
of Forefront. The Commission received cooperation from        handling of a customer account. Specifically, Commission
the NFA and the U.S. Attorney for the Eastern District of     found that IBL failed to supervise diligently its compli-
Virginia in connection with this matter. CFTC v. Forefront    ance employees’ handling of a commodity futures trading
Investments Corporation, No. 3:07CV152 (E.D. Va. filed Mar.   account maintained in the name of Kevin J. Steele, a
20, 2007).                                                    Canadian who used the account to defraud more than 200
                                                              Canadian, German, and U.S. citizens of approximately $8.1
■	   CFTC v. Lake Shore Asset Management Limited.             million in a commodity pool fraud that was the subject
                                                              of an earlier Commission enforcement action.           CFTC
On June 26, 2007, the Commission filed a civil enforce-       v. Steele, No. 05-3130 (N.D.Ill. filed May 25, 2005). The
ment action charging Lake Shore Asset Management              Commission found that, from February 2003 through May
Limited (LAM), a registered CPO and CTA, refused to           2005, IBL accepted 135 third-party deposits in the form of
make its books and records available for inspection and       wire transfers and checks totaling $7.7 million into Steele’s
was unable or unwilling to provide required information       personal account, but did not have procedures reasonably
about its pool participants and trading performance. The      designed to detect the deposit of third-party funds in an
complaint alleges that LAM’s director, Laurence Rosenberg,    individual trading account. The frequency and magnitude
told the NFA that none of LAM’s business is conducted         of deposits and withdrawals to Steele’s account, relative
in Bermuda and that all telephone calls to the Bermuda        to his stated liquid net worth, and the pattern of deposits
office are forwarded to an office in Toronto, Canada, where   followed by withdrawals suggested that Steele might be
all trading is done and all books and records are main-       operating as an unregistered CPO. IBL compliance staff
tained. Nevertheless, the address for the Toronto office      telephoned Steele on at least three occasions to inquire
provided by LAM in NFA registration materials is actually a   about the trading activity in his account. Each time, IBL
mail drop, not a business address. The complaint further      compliance staff accepted Steele’s explanations as reason-
alleges that on June 14, 2007, Rosenberg represented that     able without conducting any additional or independent
LAM managed approximately 250 accounts and operated           inquiries. The Commission assessed sanctions against IBL
several commodity pools, and the total assets of the pools    including: a cease and desist order; and an order for IBL to
and managed accounts were approximately $1 billion.           disgorge $175,000 in commissions it earned from Steele’s
However, a day later, Rosenberg provided the NFA with         account and to remit those funds to the Clerk of the
access to LAM’s protected Web pages and the NFA learned       Provincial Court of British Columbia, which will distribute
that assets for all commodity pools and managed accounts      the funds to the defrauded investors. The Commission
totaled $466,710,761, dramatically less than Rosenberg’s      received cooperation from the NFA, the Integrated Market
estimate of $1 billion. The complaint also alleges that,      Enforcement Branch of the Royal Canadian Mounted
between June 14, 2007 and the present, LAM’s principals,      Police’s Federal and International Operations Directorate,
including Rosenberg, made several inconsistent statements     and the British Columbia Securities Commission in
concerning assets in the pools and managed accounts,          connection with this matter. In re Interactive Brokers LLC,
LAM’s ownership, U.S. investors in the pools, and the         CFTC Docket No. 07-07 (CFTC filed July 17, 2007).
location of its books and records. On June 27, 2007, the
court issued an ex parte restraining order preserving books   ■	   In re Merrill Lynch Investment Managers, LLC, et al.
and records and freezing assets, which was vacated by the
Seventh Circuit on August 2, 2007. CFTC v. Lake Shore         On July 31, 2007, the Commission simultaneously filed
Asset Management Limited, No. 07 C 3598 (N.D. Ill. filed      and settled an administrative enforcement action against
June 26, 2007).                                               registered CPOs Merrill Lynch Investment Managers, LLC




150    CFTC
                                                                    A ppendI C E S




(MLIM) and Merrill Lynch Alternative Investments, LLC          the Commission found that RIIL and RICL are CPOs for
(MLAI). The Commission found that, beginning in 2001           commodity pools that operate as funds and as funds
and continuing through at least 2005, MLIM and MLAI            of funds, whose fiscal year on March 31st. Accordingly,
repeatedly failed to distribute to pool participants and       RIIL and RICL were required to file with the NFA their
file with the NFA their commodity pools’ annual reports        commodity pools’ annual reports on or around June 30th
in a timely manner. The Commission assessed sanctions          for the fund, and August 31st for the fund of funds. The
including: a cease and desist order; and a civil monetary      order finds that, for the fiscal years ending March 31, 2002
penalty ($500,000). In re Merrill Lynch Investment Managers,   and March 31, 2004, RIIL and RICL failed to distribute
LLC, et al., CFTC Docket No. 07-08 (CFTC filed July 31,        to pool participants and to file with the NFA in a timely
2007).                                                         manner any of their commodity pools’ annual reports.
                                                               The Commission assessed sanctions against RIIL and RICL
■	   CFTC v. Nations Investments, LLC.                         including, an order to pay a civil monetary penalty of
                                                               $120,000. In re Russell Investments Ireland Limited, et al.,
On July 30, 2007, the Commission filed a civil enforce-
                                                               CFTC Docket No. 07-12 (CFTC filed Sept. 27, 2007).
ment action charging Nations Investments, LLC (Nations),
a registered FCM, with violations of the minimum net
                                                               Trade Practice
capital requirements of the Act and Commission regula-
tions. Specifically, the complaint alleges that, as of July    ■	   In re Karkazis.
21, 2007, and perhaps earlier, Nations’ net capitalization
was below the adjusted net capital required by the Act         On December 27, 2006, the Commission simultaneously
and a Commission regulation with Nations’ total liabili-       filed and settled an administrative enforcement action
ties equaling $5 million while its assets were less than $2    against Harry Karkazis, a registered FB. The Commission
million. On July 30, 2007, the court entered a statutory       found that, between April 2002 and July 2002, Karkazis
restraining order freezing assets and preserving books         profited from indirectly trading opposite his customers
and records.     The court also froze the assets of relief     orders in the Standard and Poor’s 500 commodity futures
defendants, Sulaiman “Sal” Husain, a Director, Chief           contract at the CME. That is, Karkazis took the opposite
Financial Officer, and principal of Nations, and Sammy         side of his customer orders into his own account through
Joe Goldman, an owner and former principal of Nations.         noncompetitive round-turn trades. The order also finds
Husain and Goldman allegedly contributed to the under-         that 64 percent of Karkazis’ trading cards produced by
capitalization—which ultimately rose to approximately          his clearing member during the investigation were time-
$4.5 million—by withdrawing a total of $1 million              stamped late. Finally, the order finds that Karkazis was
from Nations’ accounts. On August 7, 2007, the court           unable to account for the whereabouts of one of his pre-
approved the appointing of a receiver to marshal the assets    numbered trading cards that he had failed to submit
of Nations. The Commission received cooperation from           to his clearing member. Without admitting or denying
the NFA in connection with this matter. CFTC v. Nations        the findings, Karkazis consented to entry of the order
Investments, LLC, No. 07-61058 CIV-COOKE (S.D. Fla. filed      that included the following sanctions among others: a
July 30, 2007)                                                 three-month registration suspension and a $35,000 civil
                                                               monetary penalty. In re Karkazis, CFTC Docket No. 07-01
■	   In re Russell Investments Ireland Limited, et al.         (CFTC filed Dec. 27, 2006).

On September 27, 2007, the Commission simultane-               ■	   In re Lui.
ously filed and settled an administrative enforcement
action against Russell Investments Ireland Limited (RIIL)      On April 25, 2007, the Commission simultaneously filed
and Russell Investments Cayman Ltd. (RICL), both of            and settled an administrative action against Pak Tong Lui
whom were registered with the Commission as CPOs,              (a/k/a Patrick Lui) finding that Lui knowingly prearranged
finding that they failed to timely file with NFA annual        trading in customer accounts he controlled. Specifically,
reports for commodity pools they operated. Specifically,       the Commission found that Lui, who is not registered




                                                                                                            CFTC      151
with the Commission, traded during thinly traded over-          certain of the defendants’ assets and preserving books and
night hours in November and December 2005 at least              records. The Commission received cooperation from the
15 customer accounts opposite each other in the E-Mini          NYMEX, Man Financial Inc, and Dubai FSA in connection
Russell 2000 futures contract traded on the CME’s Globex        with this matter. CFTC v. Supama Int’l DMCC, et al., No. 07
electronic trading platform. The electronic trading resulted    CV 2770 (S.D.N.Y. filed Apr. 5, 2007).
in 11 of the 15 customer accounts losing an aggregate of
$55,505 and the remaining four accounts realizing profits       ■	   In re CIC Banque Credit Industriel D’Alsace Et De
of roughly the same aggregate amount found that these           Lorraine Société Anonyme.
prearranged trades negated market risk and price competi-
                                                                On September 27, 2007, the Commission filed and
tion, and therefore constituted both fictitious sales under
                                                                simultaneously settled an administrative enforcement
the CEA and noncompetitive trades under CFTC regula-
                                                                action against CIC Banque Credit Industriel D’Alsace Et
tions. Lui also was found to have illegally traded customer
                                                                De Lorraine Société Anonyme (Banque CIAL), based in
accounts without being properly registered with the CFTC
                                                                Strasbourg, France, finding that it engaged in wash sales
as a CTA. The Commission assessed sanctions including:
                                                                in the Five Year and Two Year Treasury Note Futures
a cease and desist order; an order to pay a civil monetary
                                                                Markets on June 30, 2004. Banque CIAL is part of Crédit
penalty ($30,000) and restitution ($55,505); and an order
                                                                Industriel et Commercial (CIC), a French banking group.
to comply with specific undertakings, including not to
                                                                Specifically, the Commission found that on June 30, 2004,
apply for, or seek exemption from, registration with the
                                                                a trader at Banque CIAL in France placed orders through
Commission for a period of four years. In re Lui, CFTC
                                                                a Canadian broker to simultaneously buy and sell 2,940
Docket No. 07-06 (CFTC filed Apr. 25, 2007).
                                                                contracts of September 2004 Five Year Treasury Note
■	   CFTC v. Supama International DMCC, et al.                  futures contracts. After being transmitted to a U.S. broker,
                                                                the orders were executed by brokers on the trading floor
On April 5, 2007, the Commission filed a civil enforce-         of the CBOT at the same price and approximately at the
ment action against Supama International DMCC, Naresh           same time. Upon receiving confirmations for the Five Year
Kumar Jain, Aaristo Commodities and Futures DMCC,               Note futures, the Banque CIAL trader placed a second set
Kanta Nath Jain, and Hainke & Anderson Trading LLC, all         of orders to simultaneously buy and sell 2,363 contracts of
of Dubai, United Arab Emirates, alleging non-competitive        September 2004 Two Year Treasury Note futures contracts.
trading. Specifically, the complaint alleges that the defen-    These orders were also executed at approximately the same
dants engaged in a series of illegal commodity futures trans-   time and at the same price on the CBOT. According to the
actions in copper, gold, crude oil, and natural gas offered     Commission’s order, these transactions were not intended
by the NYMEX on the Globex electronic trading platform          to make a profit or loss for Banque CIAL or expose Banque
involving back-month, illiquid contracts. The complaint         CIAL to market risk, and they did not result in a net change
further charges that the defendants passed hundreds of          in market position. Indeed, Banque CIAL’s avowed purpose
thousands of dollars among their futures trading accounts       in entering the transactions was to assess its internal risk
through these illegal commodity futures transactions.           management system. The Commission assessed sanctions
Moreover, the complaint alleges that the defendants             against Banque CIAL including: an order to comply with
engaged in a pattern of trading activity on several days in     its undertaking to implement compliance procedures that
March and April 2007, whereby one defendant bought              insure that transactions made by it on U.S. markets fully
commodity futures contracts at low prices from another          comply with all laws, rules and regulations governing those
defendant and immediately sold them back to that defen-         markets; and an order to pay a civil monetary penalty of
dant at higher prices. In each series of offsetting transac-    $80,000. In re CIC Banque Credit Industriel D’Alsace Et De
tions, one defendant profited and another defendant             Lorraine Société Anonyme, CFTC Docket No. 07-11 (CFTC
incurred a loss, with no change in open positions held by       filed Sept. 27, 2007).
those defendants. On April 5, 2007, and April 20, 2007,
the court entered statutory restraining orders freezing




152 CFTC
CFTC Information Technology Systems
Integrated Surveillance System (ISS)                            Filings and Actions (FILAC)
User: Market Oversight                                          User: Clearing and Intermediary Oversight and Market
                                                                Oversight
Functionality: ISS collects futures and options position data
for large traders from reporting firms and open interest,       Functionality: FILAC manages data associated with the
volume, price, and clearing member data from exchanges          approval organizations, products, rules, foreign filings, and
that is used to monitor future and options trading in order     actions.
to detect any market anomalies that may occur.
                                                                Exchange Database System (EDBS)
Regulatory Statement Review (RSR)                               User: Market Oversight, Enforcement, Chief Economist
User: Clearing and Intermediary Oversight                       Functionality: EDBS is used for trade practice surveillance,
Functionality: RSR Express is a tool used by the Commission     trading analyses, statistical studies, and research projects
staff to review monthly and annual 1-FR and Focus reports       for the Commission.
from firms and to monitor the financial status of firms and
the changes to that status over time.                           Trade Surveillance System (TSS)
                                                                User: Market Oversight, Enforcement, Chief Economist
Stressing Positions at Risk (SPARK)
                                                                Functionality: TSS is a new system that will enable CFTC
User: Clearing and Intermediary Oversight and Market            staff to conduct surveillance in the rapidly expanding area
Oversight                                                       of electronic trading, both intra and inter-exchange and
                                                                across side-by-side platforms. TSS will retain the impor-
Functionality: SPARK is a tool used by Commission staff to
                                                                tant legacy data and functionality of EDBS, which it will
perform “what if” analysis to determine the effect of market
                                                                gradually replace.
movement on maintenance margin.

                                                                Project eLaw
                                                                User: Enforcement, General Counsel, and Proceedings

                                                                Functionality: The eLaw Program is an automated law office
                                                                that seamlessly integrates technology and work processes
                                                                to support Commission managers and staff in their investi-
                                                                gative, trial, and appellate work.


                                                                                                              CFTC 153
Glossary of Abbreviations and Acronyms

       A Guide to the Language of the Futures Industry
       http://www.cftc.gov/educationcenter/glossary/

       Because the acronyms of many words and phrases used throughout the futures industry are not
       readily available in standard references, the Commission’s Office of External Affairs compiled a
       glossary to assist members of the public.

       This glossary is not inclusive, nor are general definitions intended to state or suggest the views of
       the Commission concerning the legal significance, or meaning of any word or term. Moreover,
       no definition is intended to state or suggest the Commission’s views concerning any trading
       strategy or economic theory.




       Glossary of Acronyms

       AE	 ................................................................. The Actuarials Exchange, LLC

       AFOEX............................................................. American Futures and Option Exchange

       AFOTC............................................................. American Futures and Option Trading Commission

       ALJ	 ................................................................. Administrative Law Judge

       AP	 ................................................................. Associated Person

       BTEX................................................................ BrokerTec Futures Exchange

       CBOT............................................................... Chicago Board of Trade

       CCORP........................................................... The Clearing Corporation

       CCX	................................................................. Chicago Climate Exchange, Inc.

       CDXCHANGE.................................................. Commodities Derivative Exchange, Inc.

       CCFE............................................................... Chicago Climate Futures Exchange




154 CFTC
                                                                    A ppendI C E S




CEA	................................................................. Commodity Exchange Act

CESR............................................................... Council of European Securities Regulators

CFE	................................................................. CBOE Futures Exchange

CFFE................................................................ Cantor Financial Futures Exchange

CFTC............................................................... Commodity Futures Trading Commission

CFMA.............................................................. Commodity Futures Modernization Act of 2000

CIC	................................................................. Crédit Industrial et Commercial

CIG	................................................................. Commodity Investment Group, Inc.

CME................................................................ Chicago Mercantile Exchange

CME AM.......................................................... CME Alternative Marketplace, Inc.

COMEX........................................................... Commodity Exchange Division

COSRA............................................................ Council of Securities Regulators of the Americas

CPO................................................................. Commodity Pool Operator

CSCE............................................................... Coffee Sugar and Cocoa Exchange

CSRC.............................................................. China Securities Regulatory Commission

CSRS............................................................... Civil Service Retirement System

CTA	................................................................. Commodity Trading Advisor

DCIO............................................................... Division of Clearing and Intermediary Oversight (CFTC)

DCM................................................................ Designated Contract Market

DCO................................................................ Derivatives Clearing Organization

DME................................................................ Dubai Mercantile Exchange Limited

DMO............................................................... Division of Market Oversight (CFTC)

DOJ	................................................................. U.S. Department of Justice

DOL................................................................. U.S. Department of Labor

DOT	................................................................. U.S. Department of Transportation

DVG................................................................. Dream Venture Group, LLC

DTB	................................................................. Deutsche Terminborse

ECM................................................................ Exempt Commercial Markets

EDBS............................................................... Exchange Database System

EPFE................................................................ Exchange Place Futures, LLC	

ETC	................................................................. Energy Transfer Company

ETP	 ................................................................. Energy Transfer Partners, L.P.

FASAB............................................................. Federal Accounting Standards Advisory Board




                                                                                                                CFTC 155
           FB	 ................................................................. Floor Brokers

           FBI	 ................................................................. Federal Bureau of Investigation

           FCA	................................................................. Farm Credit Administration

           FCM................................................................. Futures Commission Merchant

           FCOM.............................................................. FutureCom

           FECA............................................................... Federal Employees Compensation Act

           FERC............................................................... Federal Energy Regulatory Commission

           FERS................................................................ Federal Employees’ Retirement System

           FIA	 ................................................................. Futures Industry Association

           FILAC.............................................................. Filings and Actions

           FISMA.............................................................. Federal Information Security Management Act

           FLETT............................................................... Flett Exchange

           FMC................................................................. Forward Markets Commission

           FMFIA.............................................................. Federal Managers’ Financial Integrity Act

           FMHA.............................................................. Farmers Home Administration

           FOREX............................................................. Foreign Currency

           FRI	 ................................................................. Financial Risk International, Inc.

           FRM	................................................................. Financial Risk Management, Inc.

           FSA	................................................................. Financial Services Authority

           FT	 ................................................................. Floor Trader

           FTE	 ................................................................. Full-time Equivalent

           FTPA................................................................ Futures Trading Practices Act of 1992

           FY	 ................................................................. Fiscal Year

           GAAP............................................................... U.S. Generally Accepted Accounting Principles

           GAO................................................................ Government Accountability Office

           GCC................................................................ Guaranty Clearing Corporation

           GFI	 ................................................................. GFI Group Inc.

           GFI FOREXMATCH.......................................... GFI Group Inc., ForexMatch

           GINNIE MAE................................................... Government National Mortgage Association

           GMAC............................................................. Global Markets Advisory Committee

           GPRA............................................................... Government Performance and Results Act

           GPS	................................................................. GPS Fund, Ltd.

           HPLC............................................................... Houston Pipeline Company




156 CFTC
                                                                     A ppendI C E S




HPR	................................................................. HPR Commodities

HSC	................................................................. Houston Ship Cannel

HSE	................................................................. HoustonStreet Exchange, Inc.

IA	 ................................................................. Investment Advisor

IB	 ................................................................. Introducing Broker

IBL	 ................................................................. Interactive Brokers LLC

ICAP................................................................ ICAP Commodity Derivatives Trading System

ICAP ETC........................................................ ICAP Electronic Trading Community

ICAP HYDE..................................................... ICAP Hyde Limited Trading System

ICC	................................................................. Intermarket Clearing Corporation

ICE 	................................................................. InterContinental Exchange

IMAREX........................................................... International Maritime Exchange

INET................................................................. INET Futures Exchange

INH	................................................................. INH-Interholding SA

INTENX............................................................ International Energy Exchange

INTRADE......................................................... INTRADE Board of Trade

IOSCO............................................................. International Organization of Securities Commissions

ISDA................................................................ International Swaps and Derivatives Association

ISS	 ................................................................. Integrated Surveillance System

JO	 ................................................................. Judgment Officer

KCBT............................................................... Kansas City Board of Trade

LAM................................................................. Lake Shore Asset Management Limited

LCH	................................................................. London Clearing House

LLC	................................................................. Limited Liability Corporation

LONGITUDE.................................................... Longitude, LLC

MACE.............................................................. MidAmerica Commodity Exchange

MAN................................................................ Man Financial, Inc.

MATCHBOXX ATS........................................... Matchboxx Alternate Trading System

MDA................................................................ Management’s Discussion and Analysis

ME	 ................................................................. Merchants Exchange

MGE................................................................ Minneapolis Grain Exchange

MLAI................................................................ Merrill Lynch Alternative Investments, LLC

MLIM............................................................... Merrill Lynch Investment Managers, LLC




                                                                                                                  CFTC 157
           MOU................................................................ Memoranda of Understanding

           MPC................................................................ Marathon Petroleum Company

           MTG................................................................. Millenium Trading Group, LLC

           NAFTA............................................................. North American Free Trade Agreement

           NFA	................................................................. National Futures Association

           NFU	................................................................. National Farmers Union

           NGX	................................................................. Natural Gas Exchange

           NODEL............................................................ Nodel Exchange, LLC

           NQLX............................................................... NQLX LLC

           NTP	................................................................. NetThruPut

           NTPS............................................................... Natural Trigger Point Systems

           NYBOT............................................................ New York Board of Trade

           NYCC ............................................................. New York Clearing Corporation

           NYCE .............................................................. New York Cotton Exchange

           NYFE................................................................ New York Futures Exchange

           NYMEX............................................................ New York Mercantile Exchange

           NYOEX............................................................ New York Options Exchange

           NYPOE............................................................ New York Petroleum Option Exchange

           OCC................................................................ The Options Clearing Corporation

           OCX................................................................. OneChicago Futures Exchange

           OGC................................................................ Office of the General Counsel (CFTC)

           OIA	................................................................. Office of International Affairs (CFTC)

           OIG	................................................................. Office of Inspector General (CFTC)

           OITS................................................................ Office of Information and Technology Services (CFTC)

           OMB ............................................................... Office of Management and Budget

           ONXCC........................................................... OnExchange Clearing Corporation

           OPEX............................................................... Optionable, Inc.

           OPM................................................................ Office of Personnel Management

           OPTIONS ATS................................................. Options ATS, LLC

           ORB................................................................. Other Retirement Programs

           OTC	................................................................. Over-the-Counter

           PBOT............................................................... Philadelphia Board of Trade

           PWG................................................................ President’s Working Group




158 CFTC
                                                                         A ppendI C E S




RAM................................................................ Renaissance Asset Management, LLC

RCG................................................................. Rosenthal Collins Group

RER	................................................................. Rule Enforcement Reviews

RFA	................................................................. Registered Futures Association

RICL................................................................ Russell Investments Cayman Ltd.

RIIL	................................................................. Russell Investments Ireland Limited

RSR	................................................................. Regulatory Statement Review

SEC	................................................................. Securities and Exchange Commission

SL	 ................................................................. Spectron Live.com Limited

SPARK............................................................. Stressing Positions at Risk

SRO	................................................................. Self-Regulatory Organization

SSFAS............................................................. Statement of Federal Financial Accounting Statement

STORM............................................................ Storm Exchange, Inc.

SWAPSTREAM................................................ Swapstream Operating Services, Ltd.

TCX	................................................................. Trade Capture Exchange

TFS	 ................................................................. Traditional Financial Services Pulp and Paper Division

TFSE................................................................ TFS Energy, LLC

TFX	 ................................................................. Tokyo Financial Exchange, Inc.

TREASURY...................................................... U.S. Department of the Treasury

TS	 ................................................................. TradeSpark, LP

TSS	................................................................. Trade Surveillance System

UK	 ................................................................. United Kingdom

USAID............................................................. United States Agency for International Development

USDA.............................................................. U.S. Department of Agriculture

USFE................................................................ US Futures Exchange

USSGL............................................................ United States Standard General Ledger

WBOT.............................................................. Weather Board of Trade

WTI	................................................................. West Texas Intermediate

WWC............................................................... Worldwide Clearing, LLC

WXL	................................................................. WeatherXchange Limited

XBOT............................................................... Exempt Boards of Trade

YELLOW JACKET........................................... Yellow Jacket Software, Inc.




                                                                                                                  CFTC 159
Photo Credits and Acknowledgements
Page Photo Credits:
    Clark Day Photography; Pages 1, 2, 4, 5, 16, 26, 29, 32, 35, 38, 39, 40, 50, 73, 76, 99, 100 (photos 1, 2, and 5),
    101, 102, 128, 129, 131, 132, (photos 1, 2 ,4, 5), 133, 135, 152, and 153; photos by Clark Day

History at a Glance Photo Credits:
Page 2-5, Top of page, from left to right:
    1. KCBT Trading Floor, 1930’s. Photo provided by Kansas City Board of Trade
    2. Trading Floor Board of Trade, Kansas City, January 9, 1925. Photo provided by Kansas City Board of Trade
    3. KCBT Building, 1925 – 1966. Photo provided by Kansas City Board of Trade
    4. CME Trading Floor, 1950’s. Photo provided by Chicago Mercantile Exchange
    5. Ticker Tape Parade with CBOT Building in the Background. Photo provided by Chicago Board of Trade.
    6. CME, 1940’s . Photo provided by Chicago Mercantile Exchange
    7. KCBT 80th Anniversary, February 6, 1936. Photo provided by Kansas City Board of Trade
    8. KCBT Building, 1877. Photo provided by Kansas City Board of Trade
    9. CBOT Trading Floor. Photo provided by Chicago Board of Trade

Individual Photos, Page 2 from left to right:
    1. KCBT Trading Floor, July 19, 1932. Photo provided by Kansas City Board of Trade
    2. CME Trading Floor Soon After 1928 Opening. Photo provided by Chicago Mercantile Exchange
    3. KCBT Building, 1887 – 1924. Photo provided by Kansas City Board of Trade

Individual Photos, Page 3 from left to right:
    1. The last day in the old Board of Trade Building, January 1, 1925. Photo provided by Kansas City Board of Trade
    2. Trading Floor Board of Trade, Kansas City, January 9, 1925. Photo provided by Kansas City Board of Trade
    3. New KCBT Building on 48th Street. Photo provided by Kansas City Board of Trade

Individual Photos, Page 4 from left to right:
    1. CME Trading Floor, 2002. Photo provided by Chicago Mercantile Exchange
    2. CME Trading Floor. Photo provided by Chicago Mercantile Exchange

Individual Photos, Page 5 from left to right:
    1. CBOT Trading Floor. Photo provided by Chicago Board of Trade
    2. CBOT. Photo provided by Chicago Board of Trade
    3. CME S&P Pit. CME-NYSE AP photo provided by Chicago Mercantile Exchange
    4. CBOT Trading Floor, 2005. Photo provided by Chicago Board of Trade



Acknowledgements
This Performance and Accountibility Report was produced with the energies and talents of Commission staff. To these
individuals, the Office of Financial Management would like to offer our sincerest thanks and acknowledgement.

We would also like to acknowledge the Office of Inspector General and KPMG, LLP for the professional manner in
which they conducted the audit of the Fiscal Year 2007 Financial Statements.

We offer our special thanks to The DesignPond, in particular Sheri Beauregard and Michael James, for their outstanding
contribution to the design of this report.




160 CFTC
Additional copies of the Commodity Futures Trading Commission FY 2007 Performance and Accountability Report
are available by contacting the Office of Financial Management:


Office of Financial Management
Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Telephone: Emory Bevill, 202.418.5187 or Lisa Malone, 202.418.5184
Fax:	202.418.5414
E-mail: ebevill@cftc.gov or lmalone@cftc.gov
Web: http://www.cftc.gov/aboutthecftc/cftcreports.html


The CFTC’s Strategic Plan is available on the Web at: http://www.cftc.gov/aboutthecftc/cftcreports.html
    COMMODITY FUTURES TRADING COMMISSION
T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 • www. cftc . gov
